No. 20-_______
SUPREME COURT OF THE UNITED STATES

City of Newark,

Petitioner,
vs.
Fraternal Order of Police Newark Lodge No. 12,

Respondent.

On Petition for a Writ of Certiorari to
the New Jersey Supreme Court

PETITION FOR WRIT OF CERTIORARI

Alan Silber, Esq.

Counsel of Record
Raymond M. Brown, Esq.
Rachel E. Simon, Esq.
PASHMAN STEIN WALDER HAYDEN PC
Court Plaza South
21 Main Street, Suite 200
Hackensack, New Jersey 07601
(201) 488-8200
asilber@pashmanstein.com

Counsel for Petitioner City of Newark

Kenyatta K. Stewart
CORPORATION COUNSEL
CITY OF NEWARK
920 Broad Street
Room 316
Newark, New Jersey 07102
(973) 733-4362
stewartk@ci.newark.nj.us

I.

Questions Presented

1. Does a state supreme court violate the Equal Protection Clause by reading
state statutes to preclude its largest city from protecting Black citizens from
institutionalized,

racially-disparate

police

conduct

specifically

found

unconstitutional by the Department of Justice?

2. Does a state supreme court violate the Necessary and Proper Clause by
interpreting state statutes to preclude municipal police review boards from
holding subpoena power or accessing certain internal affairs records, when the
existing process has been found unconstitutional by the Department of Justice?

3. Does a state supreme court violate the Constitutional Separation of Powers
doctrine by holding that the state executive’s police oversight regulations
preempt the state legislature’s delegation of police oversight authority to
municipalities?

ii

II.

Related Cases Statement

The City of Newark, by and through counsel Pashman Stein Walder Hayden
PC, respectfully petitions this Court for a writ of certiorari to review the August 19,
2020 Opinion and Order of the New Jersey Supreme Court. The directly related
matters comprise the underlying United States Department of Justice civil rights
litigation, and the proceedings below:

1. New Jersey Supreme Court: Fraternal Order of Police Newark Lodge No. 12 v.

City of Newark, Docket No. A-15-19. Resolved by published Opinion dated
August 19, 2020.
2. New Jersey Superior Court, Appellate Division: Fraternal Order of Police

Newark Lodge No. 12 v. City of Newark, Docket No. A-3298-17. Resolved by
published Opinion dated June 18, 2019.
3. New Jersey Superior Court, Chancery Division: Fraternal Order of Police

Newark Lodge No. 12 v. City of Newark, Docket No. C-177-16. Resolved by
oral ruling dated March 14, 2018.
4. United States District Court for the District of New Jersey: United States v.

City of Newark, Docket No. 2:16-cv-1731. Resolved by five-year Consent Decree
entered May 5, 2016.

iii

III.

Tables of Contents and Authorities
Table of Contents

I.

Questions Presented ............................................................................................... ii

II.

Related Cases Statement.................................................................................... iii

III.

Tables of Contents and Authorities ................................................................... iv

IV.

Opinions Below .................................................................................................... 1

V.

Jurisdiction ............................................................................................................ 1

VI.

Constitutional and Statutory Provisions Involved ............................................. 1

VII. Statement of the Case .......................................................................................... 3
VIII.

Reasons to Grant Certiorari ........................................................................... 10
The NJSC Decision Below Violates the Equal Protection Clause. ............... 13
The NJSC Decision Below Violates the Necessary and Proper Clause. ...... 16
The NJSC Decision Below Violates the Separation of Powers Doctrine. ..... 20
Public Policy Requires Immediate Consideration of This Case. .................. 24
1. Police-Citizen Relations in Historically Traumatized Communities Are A
Matter of Substantial and Increasing Public Importance. .............................. 24
2. Municipalities Have Constitutional Rights as Against the States of Which
They Are A Part. ............................................................................................... 28

IX.

Conclusion .......................................................................................................... 30

iv

Table of Appendices

APPENDIX A – OPINION OF THE SUPREME COURT OF NEW JERSEY,
DATED AUGUST 19, 2020
APPENDIX B – OPINION OF THE SUPERIOR COURT OF NEW JERSEY,
APPELLATE DIVISION, DATED JUNE 18, 2019
APPENDIX C – TRANSCRIPT OF THE SUPERIOR COURT OF NEW JERSEY,
CHANCERY DIVISION, DATED MARCH 14, 2018
APPENDIX D – RELEVANT STATUTORY PROVISIONS

v

Table of Authorities
Page(s)
Cases

Batson v. Kentucky,
476 U.S. 79 (1986) ..................................................................................................... 20

Brennan v. Seattle,

151 Wash. 665 (1929)................................................................................................ 35
Brown v. Bd. of Educ. of Topeka, Kan.,
347 U.S. 483 (1954) ................................................................................................... 20
Brown v. Bd. of Educ. of Topeka, Kan.,
349 U.S. 294 (1955) ............................................................................................. 20, 21
California v. Ramos,
463 U.S. 992 (1983) ................................................................................................... 19
Cedar Falls v. Flett,
330 N.W.2d 251 (Iowa 1983) .................................................................................... 35
City of Newark v. Benjamin,
144 N.J. Super. 58 (Ch. Div. 1976) ................................................................... Passim
Craig v. Macon,
543 S.W.2d 772 (Mo. 1976) ....................................................................................... 35
Currin v. Wallace,
306 U.S. 1 (1939) ................................................................................................. 24, 28
Dred Scott v. Sanford,
60 U.S. 393 (1857) ..................................................................................................... 19
Fleming v. Mohawk Wrecking & Lumber Co.,
331 U.S. 111 (1947) ................................................................................................... 23
Gomillion v. Lightfoot,
364 U.S. 339 (1960) ................................................................................................... 36
Homewood v. Wofford,
232 Ala. 634 (1936) ................................................................................................... 35
INS v. Chadha,
462 U.S. 919, 103 S.Ct. 2764, 77 L.Ed.2d 317 (1983) .............................................. 27
Korematsu v. United States,
323 U.S. 214 (1944) ................................................................................................... 19
Loving v. Virginia,
388 U.S. 1 (1967) ....................................................................................................... 20
Mayor, etc., of Chattanooga v. Norman,
92 Tenn. 73 (1892) .................................................................................................... 35
McCulloch v. Maryland,
4 Wheat. 316, 4 L.Ed. 579 (1819) ............................................................................. 23
Miller v. French,
530 U.S. 327 (2000) ............................................................................................. 27, 29
Mills v. Rogers,
457 U.S. 291 (1982) ................................................................................................... 19

vi

Morgan v. Virginia,
328 U.S. 373 (1946) ................................................................................................... 20
Oklahoma Press Pub. Co. v. Walling,
327 U.S. 186 (1946) ................................................................................................... 24
Panama Ref. Co. v. Ryan,
293 U.S. 388 (1935) ................................................................................................... 24
Plessy v. Ferguson,
163 U.S. 537 (1896) ................................................................................................... 19
Porter v. Paris,
184 Tenn. 555 (1947) ................................................................................................ 35
River Vale Tp. v. Town of Orangetown,
403 F.2d 684 (2d Cir. 1988) ...................................................................................... 19
Romer v. Evans,
517 U.S. 620 (1996) ............................................................................................. 19, 36
Shelley v. Kraemer,
334 U.S. 1 (1948) ....................................................................................................... 20
Shreveport v. Restivo,
491 So. 2d 377 (La. 1986) ......................................................................................... 35
Smith v. Allwright,
321 U.S. 649 (1944) ................................................................................................... 20
Strauder v. West Virginia,
100 U.S. 303 (1880) ................................................................................................... 19
United States v. Harris,
106 U.S. 629, 1 S.Ct. 601, 27 L.Ed. 290 (1883) .................................................. 23, 30
Vermont Salvage Corp. v. St. Johnsbury,
113 Vt. 341 (1943) ..................................................................................................... 35
Washington v. Seattle School District No. 1,
458 U.S. 457 (1982) ................................................................................................... 36
Constitutional Provisions and Statutes
U.S. Const. amend. XIV, § 2 .......................................................................................... 7
U.S. Const. art. I, § 8, cl. 18..................................................................................... 7, 22
28 U.S.C. § 1257 ............................................................................................................. 7
N.J.S.A. 40:48-2 ................................................................................................. 7, 25, 35
N.J.S.A. 40:48-25 ......................................................................................................... 12
N.J.S.A. 40A:14-118 ........................................................................................... 7, 12, 28
N.J.S.A. 40A:14-181 ........................................................................................... 7, 12, 28
Other Authorities
Josh Bendor, Municipal Constitutional Rights: A New Approach,
31 Yale L. & Pol'y Rev. 389 (2013) ........................................................................... 36
Sharon R. Fairley, Survey Says?: U.S. Cities Double Down on Civilian Oversight of
Police Despite Challenges and Controversy,
20 Cardozo L. Rev. 1 (2020) .................................................................... 30, 31, 32, 33

vii

IV.

Opinions Below

The New Jersey Supreme Court opinion is reported at Fraternal Order of

Police Newark Lodge No. 12 v. City of Newark, 244 N.J. 75 (2020), and contained in
Appendix A.

Chief Justice Rabner’s dissenting opinion is referred to herein as

Appendix A1. The New Jersey Appellate Division opinion is reported at Fraternal

Order of Police Newark Lodge No. 12 v. City of Newark, 459 N.J. Super. 458 (App.
Div. 2019), and contained in Appendix B. The unpublished, oral opinion of the New
Jersey Chancery Court is contained in Appendix C.

V.

Jurisdiction

Newark invokes this Court’s jurisdiction under the Court’s March 19, 2019
Order and 28 U.S.C. § 1257. In its March 19, 2020 Order, this Court expanded the
time to file a petition for writ of certiorari from 90 to 150 days. Because it has been
filed within one hundred and fifty days of the New Jersey Supreme Court’s August
19, 2020 judgment, this petition is timely filed.

VI.

Constitutional and Statutory Provisions Involved

1. U.S. Const. art. I, § 8, cl. 18: “[The Congress shall have Power . . .] To make all
Laws which shall be necessary and proper for carrying into Execution the
foregoing Powers, and all other Powers vested by this Constitution in the
Government of the United States, or in any Department or Officer thereof.”

1

2. U.S. Const. amend. XIV, § 2: “No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.”

3. N.J.S.A. §§ 40:48-2, 40A:14-118, and 40A:14-181, which are contained in
Appendix D.

2

VII.

Statement of the Case

This case is about the unconstitutionally disparate treatment of Black and
white civilians by police, and which stakeholders get to participate in crafting a
solution. Specifically, this case is about what the elected officials of a major American
metropolis can do to protect their Black citizens from police misconduct, when (1) the
Federal government has found the level of racially disparate police conduct in their
city to be illegal and unconstitutional, but (2) the State legislature, executive, and
judiciary have failed to provide—and, with the decision on appeal, affirmatively
withdrawn—the resources necessary for the city to redress these race-based harms.
The City of Newark, New Jersey (“Newark”) has a long and tortured history of
tension between its Black residents and its police department (“NPD”). Jim Crow
laws permitting discrimination and outright violence against Black men and women
defined interactions between Newark residents and the NPD for the early Twentieth
Century.

Report of the National Advisory Commission on Civil Disorders, 57

(Bantam, 1968).

After decades of citizen complaints, Newark’s landmark 1959

Mayoral Commission on Group Relations concluded that the “belief about
mistreatment of Negroes at the hands of the agency whose primary function is to
protect citizens, the police, is so widespread among Negroes as to present a very real
problem for the City of Newark.” Newark: A City in Transition, Mayoral Comm. on
Grp. Relations (Market Plan. Corp., 1959). Tensions eventually erupted into an
infamous, six-day “race riot” during the “long, hot summer” of 1967.

3

Photos of Black children shot, beaten, injured, and killed by police during the
1967 riot made national headlines, including the cover of Life magazine. Subsequent,
high-profile events of police brutality by Newark officers—including the public
beatings of the 58-year-old Black female vice principal of a local school, a Black
pregnant woman, and peaceful Black protesters seeking construction jobs—led to
demands for a police review board outside of the law enforcement silo. See Kevin
Mumford, Newark: A History of Race, Rights, and Riots in America (NYU, 2008).
In 1975, Newark attempted to establish a citizen complaint review board
(“CCRB”) by municipal ordinance. Then, as now, the ordinance was struck down after
the police union challenged its grant of subpoena power to the CCRB. Then, the state
courts reasoned that Newark’s 1975 CCRB could not have subpoena power because
the board would be exclusively comprised of elected officials, such that politics rather
than independent review might determine the board’s findings. City of Newark v.

Benjamin, 144 N.J. Super. 58, 72 (Ch. Div. 1976), aff’d, 144 N.J. Super. 389 (App. Div.
1976), aff’d, 75 N.J. 311 (1978). Nothing changed for NPD oversight, and nothing
changed for the Black citizens subject to regular unconstitutional mistreatment.
The continuing problem of the NPD’s racially-disparate police conduct
culminated in a three-year federal investigation by the United States Department of
Justice (“DOJ”), which began in May 2011 and ended with a final report in July 2014
(“DOJ Report”).

Investigation of the Newark Police Department, United States

Department of Justice, July 22, 2014, available at https://www.justice.gov/sites/
default/files/crt/legacy/2014/07/22/newark_findings_7-22-14.pdf.

4

The DOJ Report

concluded that the NPD “engaged in a pattern and practice of constitutional
violations,” which disproportionately affected Black civilians by substantial margins.
(Id.). DOJ’s findings were significant, including that (1) 75% of NPD pedestrian stops
were unconstitutional, and more than 20% of uses of force were unconstitutional; (2)
although Newark’s Black population was 54%, Black civilians comprised 85% of
stopped pedestrians and 80% of arrests, meaning at minimum they were exposed to
disproportionately more unconstitutional behavior than non-Black civilians by the
NPD; and (3) systemic deficiencies were preventing improvement, including
inadequate internal affairs investigations into civilian complaints of excessive force
and officer misconduct. Perhaps most egregious, DOJ found that the NPD Internal
Affairs Unit sustained only one out of hundreds of excessive force complaints during
the six years from 2007 to 2012. (Id.; see also App. A at 8, App. A1 at 2 (C.J. Rabner,
dissenting)).
DOJ thus concluded that the NPD had lost the public trust needed to conduct
effective policing and, on March 3, 2016, sued Newark for its failure to remedy the
NPD’s misconduct “that has deprived persons of rights, privileges, and immunities
secured and protected by the Constitution and laws of the United States.” U.S. v. City

of Newark, 2:16-cv-1731, Dkt. No. 1 (DOJ Compl.), ¶¶29-30.

DOJ’s Complaint

specifically alleged the NPD’s misconduct abridged the First, Fourth, and Fourteenth
Amendment rights of Black citizens. (Id.). The litigation was resolved by Consent
Decree, which among other remedies, required Newark to establish a CCRB as a
“civilian oversight entity for the NPD.” (App. A, 8-9). The Consent Decree explicitly

5

required the creation of a CCRB because it is a mechanism demonstrated to improve
police-resident relations in historically traumatized communities like Newark. U.S.

v. City of Newark, 2:16-cv-1731, Dkt. No. 5 (Consent Decree).
On March 17, 2016, Newark enacted the municipal ordinance establishing the
CCRB at issue here (“Ordinance”). (See App. B at 11-19). The Ordinance authorizes
the CCRB to conduct its own investigations of civilian complaints of police
misconduct, as well as review the NPD’s Internal Affairs Unit’s investigations of
police misconduct. (App. B at 11). The Ordinance requires the CCRB to refer all
complaints to NPD Internal Affairs, and then elect whether to conduct an immediate,
parallel investigation or wait to review the NPD’s investigation after it has concluded.
(Id. at 13).

Whether the CCRB investigates complaints of police misconduct

immediately or after NPD Internal Affairs, the Ordinance “make[s] its investigations
meaningful” by providing the CCRB with subpoena power. (Id. at 14).
The CCRB cannot adjudicate complaints or impose discipline under the
Ordinance; its expressed purpose is to conduct unbiased investigations into
complaints of officer misconduct and make disciplinary recommendations to
Newark’s Public Safety Director pursuant to an NPD matrix. (Id. at 12). Nonetheless,
the Ordinance requires the Chief of Police (“Chief”), who imposes the ultimate
discipline, to accept the CCRB’s fact findings as true “absent clear error.” (Id. at 1718). The Ordinance also provides significant constitutional safeguards protecting
officers’ rights. (Id. at 14-17).

6

The collective bargaining unit for NPD officers, the Fraternal Order of Police
Newark Lodge 12 (“FOP”), filed suit to enjoin and invalidate the Ordinance. (See

generally App. C). FOP alleged (1) ultra vires creation of subpoena power in violation
of N.J.S.A. 40:48-25, (2) conflict between the Ordinance and New Jersey Attorney
General (“NJAG”) Guidelines for police internal affairs’ units in violation of N.J.S.A.
40A:14-181, (3) infringement on the Chief’s right to run the NPD day-to-day in
violation of N.J.S.A. 40A:14-118, and (4) infringement on officers’ constitutional Due
Process rights. (App. B at 22).
The trial court agreed with FOP, and invalidated the Ordinance with two
exceptions: (1) the CCRB could perform an “oversight function,” and (2) the CCRB
could offer its “consultation” on the NPD discipline matrix. (Id.). In its oral opinion,
the trial court “expressly prohibited” the CCRB “from engaging in investigations,
hearings, adjudications, or the issuance of subpoenas relating to police misconduct
and/or discipline.” (App. B at 22-23).
Newark appealed. (See generally App. B). New Jersey’s Appellate Division
reversed the trial court, and reinstated the Ordinance with one exception: it found
invalid the provision requiring the Chief to accept the CCRB’s fact-finding, because
such a rule would moot NPD’s own Internal Affairs investigations. (App. B at 37).
Significant here, the Appellate Division recognized the Necessary and Proper Clause
controlled the scope of the CCRB’s investigatory powers, and that it authorized the
CCRB’s subpoena power and concurrent jurisdiction over NPD Internal Affairs
investigations. (App. B at 68-69). Likewise, the Appellate Division recognized that

7

an executive regulation binding law enforcement agencies cannot preempt
statutorily-authorized municipal

legislation creating

an oversight body

to

independently review law enforcement agency conduct. (See generally App. B, 50-60;
54 (“The text of this statute does not expressly state that an executive or legislative
agency is barred from concurrently investigating police misconduct . . . when a law
enforcement agency has adopted and implemented guidelines consistent with those
promulgated by the AG.”); 57-58 (reading NJAG guidelines to preclude civilian
municipal investigations of police departments violates a municipality’s fundamental
rights to set policy and legislate consistent with its statutory authority).

Such

recognition undergirds Newark’s Separation of Powers argument before this Court.
FOP appealed. (App. A). Newark argued that the Ordinance remained valid
(Id.).

as modified by the Appellate Division.

The New Jersey Supreme Court

(“NJSC”) agreed with the trial court in all material respects, and reversed the
Appellate Division on August 19, 2020. Relevant here, the NJSC held that (1) the
Ordinance provision granting the CCRB subpoena power was invalid, and not saved
by the state statute codifying the Necessary and Proper Clause; and (2) the Ordinance
provision allowing the CCRB to conduct concurrent, parallel investigations with NPD
Internal Affairs was preempted by the NJAG internal affairs guidelines for police.
Since the NJSC’s decision, the CCRB has been able to receive, log, and notify
NPD of civilian complaints. It has not yet been able to investigate any complaints or
review complete files of NPD Internal Affairs investigations. Newark’s CCRB is
focusing on training its civilian investigators in preparation for their independent

8

investigations. The training materials provided to the CCRB by the NJAG, County
Sheriff’s Office, and NPD, however, each state that all available evidence—including
police reports and notes, 911 communications, footage of incidents and interviews,
live interviews, etc.—must be reviewed to reach a “substantiated” conclusion.
Without subpoena power, the CCRB is unable to determine the universe of evidence
in any given case, let alone obtain it, so any investigation conducted by the current
CCRB can only draw an “unsubstantiated” conclusion. Certainly, there is no recourse
if NPD, its Internal Affairs Unit, or any other law enforcement agency fails to turn
over a file. In other words, the CCRB is unable to function, let alone function as a
remedial, civilian oversight body for police misconduct as intended. In the meantime,
Newark is working with state legislators and the NJAG to implement its vision of a
CCRB that can effectively review police misconduct.1

See, e.g., Katie Sobko, NJ Supreme Court Rules Newark Civilian Board Can Provide Police
Oversight-With
Limits,
northjersey.com
(Aug.
19,
2020),
available
at
https://www.northjersey.com/story/news/essex/2020/08/19/nj-supreme-court-rules-newark-nj-civilianreview-board-can-provide-police-oversight/5603377002/.
1

9

VIII. Reasons to Grant Certiorari
In this moment, the disparate treatment of Black and white citizens by
American police is at the forefront of public discourse. The City of Newark, however,
has been wrestling with the problem of racially-disparate police misconduct for
decades.

Since at least 1975, officials elected by Newark’s majority-Black

constituency have attempted to establish a police-misconduct review board in which
Newark’s Black citizens themselves can participate.
This petition concerns Newark’s most recent efforts at establishing a CCRB to
review the NPD’s racially-disparate misconduct, and the unconstitutional hurdles
that have prevented Newark’s CCRB from operating. Specifically, Newark requests
this Court’s intervention to remedy the New Jersey Supreme Court’s failure to
address or resolve the significant Constitutional issues implicated in this matter.
Such intervention is particularly necessary because New Jersey’s legislative and
executive branches have likewise failed to address or resolve these issues at any point
before, during, or subsequent to this litigation.
The NJSC’s decision violates three fundamental Constitutional precepts.
First, its decision requires Newark to act in violation of the Fourteenth Amendment’s
Equal Protection Clause.

Following this decision, Black citizens are forced to

continue withstanding the NPD’s unconstitutional police misconduct, as well as
accept unconstitutionally deficient NPD internal affairs investigations into their
complaints of that misconduct. Newark’s elected officials are unable to afford their
constituents equal protection of the law—as required by the Constitution and the

10

DOJ Consent Decree—and Newark is left exposed to civil rights liability for that
failure.
Second, the NJSC interpreted state statutes in a manner offensive to the
Necessary and Proper Clause. The NJSC held that Newark’s CCRB does not have
subpoena power, and that the state statute codifying the Necessary and Proper
Clause could not rescue the Ordinance provision granting that power.

The NJSC

ignored that a state statute may provide a floor, but not a ceiling, to a constitutional
right. This Court has repeatedly found that subpoena power is necessary and proper
to the functioning of a legislative investigation committee, and consistently demands
judicial deference to our elected officials on what is necessary and proper to meet a
particular goal. The elected officials of Newark—bolstered by empirical data, the
DOJ’s conclusion that the existing process was unconstitutional, and a Federal
District Court’s Consent Decree—deemed it necessary and proper that the very
civilians who are subject to NPD misconduct have sufficient power of inquiry to
independently investigate and ensure unbiased internal investigations into that
misconduct.

The NJSC, however, interpreted state statutes to bar the CCRB’s

subpoena power, precluding effective inquiry into police misconduct in violation of
the Necessary and Proper Clause.
Third, the NJSC decision forces a legislative body to cede to executive power
in violation of the Constitutional Separation of Powers doctrine. The Separation of
Powers doctrine requires that the legislature determines policy, the executive
enforces that policy, and the judiciary decides whether either’s actions exceed

11

Constitutional bounds.

Here, the NJSC held that the existing internal affairs

regulations promulgated by New Jersey Attorney General (“NJAG”) preempted the
New Jersey Legislature’s decision to imbue municipalities with broad statutory
authority over their local police forces, including the power to establish commissions
to investigate those forces. The NJSC reasoned that the NJAG regulations require
internal affairs investigations remain “self-contained within the law enforcement”
silo, such that a CCRB cannot have concurrent jurisdiction over a misconduct
investigation. Not only does this construction wholly undermine the purpose of a
CCRB—that is, to have a review process outside of the existing opaque and deficient
internal affairs process—Newark’s exercise of properly delegated legislative
authority cannot be preempted by an executive regulation. The NJSC’s decision
holding that statutorily-authorized municipal legislation is preempted by NJAG
regulations violates the Separation of Powers doctrine.
In sum, the time has come for this Court to address the Constitutional issues
raised by America’s institutionalized system of racially-disparate police conduct. The
executive, legislative, and judicial branches of New Jersey have failed to provide its
Black citizens with equal protection of the law. Quite literally, Black individuals in
Newark remain subject to disproportionate unconstitutional police misconduct from
which every government institution has failed to protect them. It is neither lost on
nor surprising to those citizens that the government has failed to protect them from
decades of harm committed by…the government.

One institution must break the

cycle, and it should be this one—the branch charged with protecting the Constitution.

12

The people of Newark have been trying for decades to have a seat at the table where
decisions affecting their physical safety are made. The highest state court has now
affirmatively removed the tools Newark requires to rebuild trust between its police
and residents. Although some state legislators are sympathetic to Newark’s goals,

see supra n.1, forcing its citizens to endure unconstitutional action while awaiting
additional legislative action at some indefinite future point is itself a constitutional
violation. Newark respectfully requests review of this matter on writ of certiorari.
The NJSC Decision Below Violates the Equal Protection Clause.
At this moment, and as a result of the New Jersey Supreme Court’s decision,
Newark is being forced to act in violation of the Fourteenth Amendment’s Equal
Protection Clause.
The Equal Protection clause prohibits any State from “deny[ing] to any person
within its jurisdiction the equal protection of the laws.” U.S. CONS. amend. XIV, § 1,
cl. 4. By its terms, this provision operates to constrain what the State of New Jersey
may do to any “person” within its jurisdiction. Both individuals and municipal
corporations are “persons” within meaning of the Fourteenth Amendment, and
entitled to its protections. See Romer v. Evans, 517 U.S. 620, 634–35 (1996); River

Vale Tp. v. Town of Orangetown, 403 F.2d 684, 686 (2d Cir. 1988). States may provide
greater, but not less, protection that the Fourteenth Amendment.

California v.

Ramos, 463 U.S. 992, 1013-14 (1983); Mills v. Rogers, 457 U.S. 291, 300 (1982).
History has borne out that America’s state actors will find new and inventive
ways to violate the equal protection clause, particularly where race is involved. See,

13

e.g., Dred Scott v. Sanford, 60 U.S. 393 (1857); Strauder v. West Virginia, 100 U.S.
303 (1880); Plessy v. Ferguson, 163 U.S. 537 (1896); Korematsu v. United States, 323
U.S. 214 (1944). Although such violations may be ubiquitous, their manifestations
across different localities have allowed their severity and/or pervasiveness to go
unnoticed or underappreciated.

Certainly, the public response to the deaths of

George Floyd, Breonna Taylor, Ahmaud Arbery, and others at the hands of police this
year suggests that the majority-white, American public was unaware of the severity
and pervasiveness of police brutality against our Black community.
As a result, this Court has frequently been called upon to declare
unconstitutional the myriad racist practices of our historical predecessors. See, e.g.,

Smith v. Allwright, 321 U.S. 649 (1944) (restrictions on primary elections); Morgan
v. Virginia, 328 U.S. 373 (1946) (segregation on interstate buses); Shelley v. Kraemer,
334 U.S. 1 (1948) (restrictive covenants on real estate); Loving v. Virginia, 388 U.S.
1 (1967) (marriage restrictions); Batson v. Kentucky, 476 U.S. 79 (1986) (prosecutor’s
peremptory challenges). Significantly, this Court has not shied away from declaring
widespread and institutionalized racist practices unconstitutional, even while
leaving the crafting of an appropriate remedy to the local government. Brown v.
Board of Education of Topeka Kansas is an axiomatic example.
In Brown, this Court declared that the segregated education of public
schoolchildren violated the Equal Protection Clause. To determine whether such a
practice violated the promise of equal protection, the Court was required to consider
the issue “in the light of its full development and its present place in American life

14

throughout the Nation.” 347 U.S. 483, 492-93 (1954). Ultimately, the Court
concluded that the Equal Protection Clause guarantees all citizens, including Black
citizens, “a system of public education freed of racial discrimination.” Brown v. Bd. of

Educ. of Topeka, Kan., 349 U.S. 294, 299 (1955). Nonetheless, the Court left the
details of correcting the problem to local officials and their respective subject matter
experts. 347 U.S. at 495-96. Before the local officials and subject matter experts
could begin making substantive inroads remedying the harms of educational
segregation, however, they required the Supreme Court of the United States to first
declare the practice, as a whole, unconstitutional. 349 U.S. at 299-300.
The facts of this matter require the same from the Court today. It must be
declared a violation of the Fourteenth Amendment for any State to advance laws that
maintain the widespread, institutionalized practice of racially disparate police
conduct. As to this matter, it must be declared unconstitutional for the State of New
Jersey’s executive, legislative, and judicial branches to advance a legal structure that
precludes Newark from protecting its Black citizens from racially disparate police
conduct—conduct so egregious it has already been found by a Federal Court and the
DOJ to violate the Constitution. Although the Court need not outline today a remedy
for every American city, American cities must be allowed to protect their Black
residents from unconstitutional police action without unconstitutional interference
from the State in which they sit. Just as America’s Black schoolchildren are entitled
to “a system of public education free of racial discrimination,” so are our Black

15

civilians entitled to a system of criminal justice free of racial discrimination. Brown,
349 U.S. at 299.
Here, Newark has already been sued for its failure to provide its Black
residents with equal protection of the law in violation of the Fourteenth Amendment.
Newark must be permitted to craft a solution that will remedy the rift of trust
between its residents and its police, as determined by its local officials and the experts
they trust. It is unconstitutional to require that Newark and its Black citizens wait
for additional legislative action, when the legislature has at no point acted to assist
Newark’s efforts to create a civilian oversight committee since at least 1975.
Newark’s Black residents should not have to wait a moment longer to be met
with police interactions that meet minimal constitutional standards. They should
not have to wait a moment longer to have a say in whether police officers are punished
for instead meeting them with violence. With the NJSC decision at bar, Newark’s
Black residents are being forced to continue to accept the results of NPD Internal
Affairs investigations into their complaints despite that these investigation were
found unconstitutionally deficient. Of all possible stakeholders, the State of New
Jersey should be the last to prevent Newark from correcting the problem of racially
disparate police conduct. Indeed, the Constitution forbids such prevention. The
NJSC’s decision invalidating the CCRB Ordinance must be overturned.
The NJSC Decision Below Violates the Necessary and Proper Clause.
The NJSC’s August 19, 2020 decision also requires this Court’s review because
it interpreted state statutes in a manner offensive to the Necessary and Proper

16

Clause. Article 1, Section 8, Clause 18 of the United States Constitution grants
Congress the power to “make all Laws which shall be necessary and proper for
carrying into Execution the foregoing Powers, and all other Powers vested by this
Constitution in the Government of the United States[.]” By its terms, a Congressional
law is validly promulgated under the Necessary and Proper Clause if it is
(1) necessary, (2) proper, and (3) in furtherance of some other federal Power.
Since America’s founding, this provision has been read to afford Congress great
latitude in determining for itself what is both “necessary” and “proper” to carry into
execution another of its powers. McCulloch v. Maryland, 4 Wheat. 316, 405, 4 L.Ed.
579 (1819). This deference to our elected leaders to define what is “necessary” and
“proper” to achieve a particular policy goal is required by the Constitutional doctrine
of the Separation of Powers. United States v. Harris, 106 U.S. 629, 635, 1 S.Ct. 601,
27 L.Ed. 290 (1883) (“Proper respect for a coordinate branch of the government
requires that we strike down an Act of Congress only if the lack of constitutional
authority to pass [the] act in question is clearly demonstrated.”).
As Chief Justice Marshall observed over 200 years ago, the Necessary and
Proper Clause is intended “to be adapted to the various crises of human affairs.”

McCulloch, 4 Wheat., at 415. Significant here, the Necessary and Proper Clause’s
“rule-making power may itself be an adequate source of authority to delegate a
particular function.” Fleming v. Mohawk Wrecking & Lumber Co., 331 U.S. 111,
121–22 (1947) (emphasis added). Chief Justice Hughes noted:
We have always recognized that legislation must often be
adapted to conditions involving details with which it is

17

impracticable for the legislature to deal directly. We have
said that ‘The Constitution has never been regarded as
denying to the Congress the necessary resources of
flexibility and practicality, which will enable it to perform
its function in laying down policies and establishing
standards, while leaving to selected instrumentalities the
making of subordinate rules within prescribed limits and
the determination of facts to which the policy as declared
by the Legislature is to apply. Without capacity to give
authorizations of that sort we should have the anomaly of
a legislative power which in many circumstances calling for
its exertion would be but a futility’.”

[Currin v. Wallace, 306 U.S. 1, 15 (1939) (quoting Panama
Ref. Co. v. Ryan, 293 U.S. 388, 421 (1935) (emphasis
added)).]
When Congress establishes investigation committees, Congress delegates its
own subpoena power pursuant to the Necessary and Proper Clause. Oklahoma Press

Pub. Co. v. Walling, 327 U.S. 186, 214 (1946) (authority to delegate subpoena power
to Wage and Hour Commission “would seem clearly to be comprehended in the
‘necessary and proper’ clause, as incidental to both its general legislative and its
investigative powers”). The investigation committees must be established under an
independent Congressional power (e.g., the power to control interstate commerce),
but the delegation of subpoena power is only permitted because it is both necessary
and proper to the effective functioning of an investigation committee. Id. Although
supported by jurisprudence, it is an objective, judicially noticeable fact that subpoena
power is necessary and proper to the effective functioning of any investigation
committee. Certainly, subpoena power must be considered necessary and proper
when the existing investigative process has been found unconstitutionally deficient
by the DOJ and a Federal Court.

18

Here, the elected officials of Newark—supported by the DOJ Consent Decree
so ordered by the District Court of New Jersey—enacted the Ordinance establishing
the CCRB with the specific intent that the CCRB be able to subpoena records and
testimony. An investigative body that cannot obtain the evidence necessary to reach
a substantiated conclusion cannot function. Certainly, the NPD could not conduct
Internal Affairs investigations if it could not compel the presence and records of its
officers. The CCRB as it stands now can only log complaints and refer them to the
NPD; it cannot investigate or even review NPD Internals Affairs investigations
because it cannot compel NPD officers’ presence or records.
The NJSC relied on New Jersey’s statutory codification of Article I’s Necessary
and Proper Clause, N.J.S.A. 40:48-2, which provides in relevant part that a New
Jersey municipality may make such ordinances not contrary to state or federal law
“as it may deem necessary and proper for the good government, order and protection
of persons and property, and for the preservation of the public health, safety and
welfare of the municipality and its inhabitants.” (App. B, 34).
In holding that N.J.S.A. 40:48-2 could not rescue the Ordinance provision
granting the CCRB subpoena power, the NJSC ignored that a state statute may
provide a higher ceiling, but not a lower floor, than the Constitution provides.
Likewise, the NJSC ignored the objective fact and substantial jurisprudence
demonstrating that investigation committees require subpoena power to function as
intended. The NJSC also ignored the centuries of law requiring deference to elected
officials on what is necessary and proper to meet a particular goal. In particular, it

19

is difficult to imagine a less deferential solution than the one proposed by the NJSC:
that every time the CCRB wants to subpoena records or testimony, the City Council
must approve and itself issue the subpoena. Such a cumbersome process is precisely
the reason why legislators are permitted to delegate rather than deal directly with
effectuating every detail needed to implement their policies.
The elected officials of Newark determined that it is no longer reasonable,
practicable, or advisable for a police misconduct review board to be comprised directly
of only law enforcement or council members (non-experts in police conduct), nor to
require their authorization for every subpoena in every case. Instead, the elected
officials of Newark deemed it necessary and proper that ordinary citizens participate
in police misconduct review boards when the existing process has been proved
unconstitutionally inadequate. The NJSC, however, interpreted state statutes to bar
the CCRB’s subpoena power, precluding effective inquiry into police misconduct in
violation of the Necessary and Proper Clause.
The NJSC Decision Below Violates the Separation of Powers Doctrine.
The NJSC decision also requires this Court’s review because it forces a
legislative body to cede to executive power in violation of the Constitutional
Separation of Powers doctrine. Specifically, the NJSC held that the Ordinance’s
grant of subpoena power and concurrent jurisdiction with NPD Internal Affairs were
invalid as preempted by the New Jersey Attorney General’s Internal Affairs Policies
and Procedures Manual (“NJAG IA Manual”). Newark respectfully submits that such
a holding violates the Separation of Powers doctrine.

20

It is the “very structure” of the Constitution, which enumerates and separates
the powers of the three branches of government in Articles I, II, and III, that
exemplifies the concept of separation of powers. INS v. Chadha, 462 U.S. 919, 946,
103 S.Ct. 2764, 77 L.Ed.2d 317 (1983). Although the boundaries between the three
branches are not “hermetically sealed,” the Constitution “prohibits one branch from
encroaching on the central prerogatives of another.” Miller v. French, 530 U.S. 327,
341 (2000) (citations omitted). Loosely speaking, the Separation of Powers doctrine
requires that the legislature determines policy, the executive enforces that policy, and
the judiciary decides whether either’s actions exceed Constitutional bounds.
Here, the New Jersey Legislature has granted municipalities broad “police
powers,” including the statutory authority to establish investigatory boards
overseeing their local police forces, as well as to delegate all necessary “powers of
inquiry” to those oversight boards:
The governing body of any municipality, by ordinance, may create
and establish, as an executive and enforcement function of
municipal government, a police force, whether as a department or
as a division, bureau or other agency thereof, and provide for the
maintenance, regulation and control thereof. . . .
Nothing herein contained shall prevent the appointment by the
governing body of committees or commissions to conduct
investigations of the operation of the police force, and the
delegation to such committees or commissions of such powers of
inquiry as the governing body deems necessary or to conduct such
hearing or investigation authorized by law. Nothing herein
contained shall prevent the appropriate authority, or any
executive or administrative officer charged with the general
administrative responsibilities within the municipality, from
examining at any time the operations of the police force or the
performance of any officer or member thereof. . . .

21

[N.J.S.A. 40A:14-118 (“Section 118”).]
Nonetheless, the NJSC expressly held that Section 118’s phrase “such powers
of inquiry as the governing body deems necessary” could not include subpoena power.
(App. A at 49). It also found Section 118 insufficient for Newark’s CCRB to investigate
police misconduct complaints at the same time as NPD Internal Affairs. (Id. at 40).
Specifically, the NJSC found that Section 118 could not overcome the
invalidating “conflict” between N.J.S.A. 40A:14-181 (“Section 181”) and the
Ordinance. (App. A at 40-45). Section 181 simply requires that law enforcement
agencies in New Jersey adopt and implement guidelines consistent with the NJAG
IA Manual. In turn, however, the NJAG IA Manual “requires the IA process must
remain a self-contained, confidential process as designed with respect to the
personnel selected and trained to perform such investigations, responsive to the chief
who has ultimate responsibility for the IA operation.” (App. A at 42). As a result of
this “self-contained, confidential” process, the NJAG IA Manual requires certain
records remain within a local police department’s internal affairs unit during an
internal investigation. (Id.). According to the NJSC, this confidentiality rule in the
NJAG IA Manual means that NPD Internal Affairs cannot share its files with the
CCRB.

(Id.). The NJSC therefore invalidated the Ordinance provision allowing

concurrent investigations by the CCRB and NPD Internal Affairs—which would
require the sharing of files—as impermissibly conflicting with the NJAG IA Manual
and its implementing statute, Section 181. (Id.).

22

The NJSC’s decision is constitutionally offensive and sets a dangerous
precedent: The NJSC held that if the state executive has established a regulatory
process in an area—even if that existing process has been found inadequate to the
point of unconstitutionality—legislatively delegated power may not be exercised by a
municipality in the same area. But it is the province of the Legislature to determine
policy, and of the Executive only to implement those policies. Simply put, Executive
regulations implementing an unconstitutional internal affairs process cannot
preempt the Legislature’s policy determination that municipalities may establish
commissions to investigate police misconduct and delegate to those commissions the
necessary

powers

of

inquiry.

Contrary

to

the

NJSC’s

holding,

Section 181 does not empower the NJAG to override the authority the Legislature
granted municipalities and civilian review boards to investigate the operation of local
police forces under Section 118.
Instead—and in keeping with Separation of Powers doctrine—this Court
should reverse the NJSC’s decision, declare the practice of racially-disparate police
misconduct unconstitutional, and allow local elected officials to solve the problem
unencumbered by additional unconstitutional State action. Indeed, this Court long
ago stated that such deference to our elected leaders to define what is necessary and
proper to achieve a particular policy goal is required by the Constitutional doctrine
of the Separation of Powers. Harris, 106 U.S. at 635. This Court must clarify the
respective rights of the State and municipalities when resolving the issue of raciallydisparate police misconduct.

23

Public Policy Requires Immediate Consideration of This Case.
1. Police-Citizen Relations in Historically Traumatized Communities Are A
Matter of Substantial and Increasing Public Importance.
In the last few years, Americans have seen “a seemingly never-ending series of
controversial police use-of-force incidents,” sparking debate within communities and
on the national stage about policing and police accountability. Sharon R. Fairley,

Survey Says?: U.S. Cities Double Down on Civilian Oversight of Police Despite
Challenges and Controversy, 20 Cardozo L. Rev. 1, 4 (2020). With the ubiquity of
social media, white Americans are bearing increasing witness to what Black
Americans have long known: white and Black civilians are not treated equally by the
police, Black civilians are regularly met with unnecessary police violence, and the
police who harm them consistently walk away without consequence.

Images

comparing the Capitol police response to Trump supporters on January 6, 2021 and
Black Lives Matter protestors in July 2020 provide a vivid, contemporaneous
example.
Indeed, the level of distrust and the perceived lack of accountability for police
in historically traumatized communities has had a deleterious impact on cities and
municipalities throughout America. Understandably, many United States citizens
are frustrated and dismayed with the veil of secrecy cast over the process for
investigating and punishing police misconduct. In that regard, the public perception
that police officers are “above the law” has been at the forefront of many cities’
decisions to increase police accountability by instituting CCRBs as a means of

24

involving the public in investigating, reviewing, and reforming police conduct. Civil
engagement remains a primary means to crafting appropriate solutions.
As a result, citizen involvement in the investigation and discipline of police
misconduct is a substantial matter of public importance, now more than ever. Police
oversight expert Lynne Wilson has stated, “[p]olice misconduct is a matter of strong
public interest . . . citizens, not police department officials, are the ultimate arbiters
of what police behavior is acceptable in a democratic society.” Lynne Wilson, The

Public’s Right Of Access To Police Misconduct Files, Police Misconduct and Civil
Rights Law Report, vol. 4, no. 7 (Jan–Feb 1994); see also Fairley, supra, at 5 (“In the
nearly eighty years since the first civilian entity was formed to address police
accountability, the concept of civilian oversight has been broadly recognized as a way
for community interests to independently check police conduct.”). Given the rising
level of public distrust in police—which will only continue to rise with increasing
public access to social media technology—CCRBs play a monumental role in restoring
police-citizen relations in historically traumatized cities and municipalities.

By

passing local ordinances instituting or expanding the use of CCRBs, municipal
governments have given a direct voice to members of the community, which helps to
ease the tensions that arise when the public is not apprised of remedial actions taken
through the clandestine internal affairs process.

CCRBs provide a transparent

process through which the actions of individual police officers and police departments
may be judged by citizens – the ultimate arbiters of what is acceptable. Targeting

25

this issue at the local level allows the most appropriate tailored solutions to a
particular community.
To date, there are at least 144 CCRBs nationwide, and almost every large city
in the United States have some form of citizen oversight of local police departments.
Joseph DeAngelis et al., Civilian Oversight of Law Enforcement: Assessing the

Evidence, NACOLE, 10 (September 2016). While the organizational structure of
CCRBs vary depending upon the precise needs of each local environment, most of
these review boards share common goals, which include: “(1) Improving public trust;
(2) Ensuring accessible complaint processes; (3) Promoting thorough, fair
investigations; (4) Increasing transparency; and (5) Deterring police misconduct.” Id.
at 8. In the past five years, the United States has seen a marked increase in the use
and scope of CCRBs, and many cities instituted extensive reforms to existing CCRBs
to enhance the reach and powers of these boards.
For example, new CCRBs have been established and widely utilized over the
past decade with newly composed boards now operating in cities including, but not
limited to: Anaheim, California; Aurora, Colorado; Omaha, Nebraska; Tampa,
Florida; and Wichita, Kansas. Fairley, supra, at 15-18.

These CCRBs were each

established by local ordinance, after much public debate in light of recently exposed
patterns of excessive force being used by their police departments.

Ultimately,

elected officials in each of these cities felt that having a CCRB was an important
aspect of regulating police misconduct, and restoring relations between police and the
very citizens they are meant to protect and serve.

26

Even cities that already had CCRBs have reevaluated the scope and reach of
these boards in recent years, seeking to expand their investigatory powers. For
example, CCRBs have been granted additional powers in cities including: Atlanta,
Georgia; Boston Massachusetts; Denver, Colorado; Houston, Texas; San Antonio,
Texas; San Francisco, California; and St. Paul, Minnesota . Fairley, supra, at 27-30.
In each of these cities, the governing bodies expanded the types of cases that CCRBs
could address, insulated CCRBs from outside influences to ensure the integrity of
their investigations, allowed the boards to publish the results of their investigations,
and empowered CCRBs to make recommendations regarding concerning police
policies and practices. Id.
In the present case, Newark’s Mayor and City Council determined that passing
the Ordinance establishing the current CCRB was necessary to ensure the health and
safety of its residents, and to begin to restore trust and transparency in the police
discipline process.

This was especially important considering Newark’s history,

which has been long marred by violent and unconstitutional race-based police
misconduct. However, this issue is not unique to Newark. Throughout the United
States, local governing bodies are met with resistance by police unions when
attempting to create or enhance CCRBs.
Police unions should not be deciding law and policy on police accountability to
the exclusion of the citizens and their elected representatives, as has happened in
New Jersey with this case. It is the people themselves—the citizens of our respective
United States, embodied in our democratic society by their selected representatives—

27

who must be permitted to decide what is acceptable police conduct. It is respectfully
submitted that this Court must weigh in on this substantial question of public
importance, and determine how the United States Constitution directs states and
municipalities, as well as citizens and police officers, to handle the thorny issues of
police accountability and the scope of CCRBs.
2. Municipalities Have Constitutional Rights as Against the States of Which
They Are A Part.
In New Jersey and many states across the country, the general police power
reserved to the states under the Tenth Amendment—that is, the power to regulate
and pass ordinances to preserve the health, safety, and welfare of its citizens—has
been delegated to local governments to exercise as they see fit. See, e.g., N.J.S.A.
40:48-2 (granting municipalities the power to pass and amend Ordinances as it may
deem “necessary and proper . . . for the preservation of the public health, safety, and
welfare” of its citizens); see also Shreveport v. Restivo, 491 So. 2d 377, 380 (La. 1986);

Homewood v. Wofford, 232 Ala. 634, 636 (Ala. 1936); Craig v. Macon, 543 S.W.2d 772,
774 (Mo. 1976); Cedar Falls v. Flett, 330 N.W.2d 251, 255 (Iowa 1983); Mayor, etc., of

Chattanooga v. Norman, 92 Tenn. 73, 78 (Tenn. 1892); Brennan v. Seattle, 151 Wash.
665, 668-669 (Wash. 1929); Vermont Salvage Corp. v. St. Johnsbury, 113 Vt. 341, 349
(Vt. 1943); Porter v. Paris, 184 Tenn. 555, 558 (Tenn. 1947). The very purpose of
States delegating the police power to local municipalities is to ensure narrowly
tailored responses to local concerns, and to prevent unconstitutional overreach by
state Legislatures. Ilya Shapiro, State Police Powers and the Constitution, CATO

28

Institute (September 15, 2020) https://www.cato.org/publications/study/state-policepowers-constitution (last visited January 8, 2020).
A necessary component of delegating such important powers to local
governments requires states to grant municipalities the right to challenge arbitrary
state action that restricts its state constitutional authority to regulate and pass
ordinances to protect the health, safety and welfare of its citizens. Indeed, this Court
has recognized situations in which a local governments may bring an action against
the state of which they are part. See, e.g, Gomillion v. Lightfoot, 364 U.S. 339 (1960).
Likewise, this Court has implied that municipalities “can suffer injury, and therefore
have standing, when the state violates the constitutional rights of their residents.”
Josh Bendor, Municipal Constitutional Rights: A New Approach, 31 Yale L. & Pol'y
Rev. 389, 391 (2013) (citing Romer v. Evans, 517 U.S. 620 (1996) and Washington v.

Seattle School District No. 1, 458 U.S. 457 (1982)). This case presents this Honorable
Court with an opportunity to clarify the jurisprudence in this largely unaddressed
area of law, and provide much-needed guidance to states and municipalities
throughout the United States.
The need to regulate police conduct in a municipality certainly concerns the
health, welfare, and safety of local communities. Ordinances creating and enhancing
the powers of CCRBs accomplish that very solemn constitutional obligation of a
municipality. Municipalities throughout the United States will continue to attempt
to protect its citizens by utilizing CCRBs in various forms to ferret out and reform
police departments and police officers that engage in misconduct against its citizens.

29

It is critical that the Court weigh in on this increasingly important issue, and define
the rights of local governments as against the States of which they are a part when
the State legislative, executive, and judicial branches have deprived the local
government of its rights and abilities to perform its duties. This issue is of
constitutional dimension, sounding in principals of federalism and the Separation of
Powers doctrine.

Petitioner respectfully submits that this Court must provide

guidance regarding the interplay of local and state governments in the context of
CCRBs, to ensure that municipalities and States alike are aware of the constitutional
limits of the exercise of their police powers.
IX.

Conclusion

For the foregoing reasons, Petitioner City of Newark respectfully requests this
Court grant a writ of certiorari to the New Jersey Supreme Court in this matter.

Dated:

January 19, 2021

PASHMAN STEIN WALDER HAYDEN PC
Counsel for Petitioner

Alan Silber, Esq.

Counsel of Record
Raymond M. Brown, Esq.
Rachel E. Simon, Esq.
PASHMAN STEIN WALDER HAYDEN PC
Court Plaza South
21 Main Street, Suite 200
Hackensack, New Jersey 07601
(201) 488-8200
asilber@pashmanstein.com

Counsel for Petitioner City of Newark

30

Kenyatta K. Stewart
CORPORATION COUNSEL
CITY OF NEWARK
920 Broad Street
Room 316
Newark, New Jersey 07102
(973) 733-4362
stewartk@ci.newark.nj.us

APPENDIX A

SYLLABUS
This syllabus is not part of the Court’s opinion. It has been prepared by the Office of the
Clerk for the convenience of the reader. It has been neither reviewed nor approved by the
Court. In the interest of brevity, portions of an opinion may not have been summarized.
Fraternal Order of Police, Newark Lodge No. 12 v. City of Newark
(A-15-19) (083197)
Argued April 27, 2020 -- Decided August 19, 2020
LaVECCHIA, J., writing for the Court.
This appeal involves a challenge to the City of Newark’s authority to create by
ordinance a civilian oversight board to provide a greater role for civilian participation in
the review of police internal investigations and in the resolution of civilian complaints.
Municipal Ordinance 6PSF-B (Ordinance) establishes the Civilian Complaint
Review Board (CCRB or the Board), within the Office of the Mayor, to address
complaints filed by citizens against the Newark Police Department and its members. The
Ordinance authorizes the Board to recommend to the Public Safety Director the discipline
to be imposed on individual officers. The Board’s powers and responsibilities can be
divided into two categories: investigative powers and policy responsibilities.
With respect to its investigative powers, the Ordinance endows the Board with
subpoena power and concurrent jurisdiction with the Newark Police Department to
receive and investigate complaints against the Department’s members. The Board’s
findings of fact in its investigations are, “absent clear error,” made binding on Newark’s
Public Safety Director, who retains final authority over discipline of the police force.
The Board is also allowed to recommend the discipline to be imposed. The Ordinance
confers on the Board the added power -- at the conclusion of the Newark Police
Department’s own investigation into an officer’s behavior -- to review the findings,
conclusions, and recommendations that ensue from that internal investigation.
In its policymaking capacity, the Board can recommend to city officials
procedures for investigating police conduct. The Board is also tasked with a consultative
role in the development of a discipline matrix by the Public Safety Director and the
affected bargaining units. Further, the Ordinance directs that Newark’s Division of
Police and Department of Public Safety cooperate with the CCRB. Finally, the
Ordinance establishes rules and procedures for the CCRB, one of which provides for the
confidentiality of complainant identities. However, “[i]f the complaint is substantiated
and is referred to a CCRB hearing, the complainant’s identity may be released in the
course of any public hearing about the alleged misconduct.”

1

The Fraternal Order of Police, Newark Lodge No. 12 (FOP) filed a complaint
claiming that the Ordinance was unlawful. Based on the record and arguments presented
on cross-motions for summary judgment, the court held the Ordinance invalid and
enjoined its operation in virtually all respects. The court left intact, however, the
Ordinance’s grant of authority to the CCRB to conduct general oversight functions,
including aiding in the development of a disciplinary matrix for use by the police force.
The Appellate Division affirmed in part and reversed in part, and sustained the
Ordinance as modified. 459 N.J. Super. 458, 471 (App. Div. 2019). First, the court
invalidated the Ordinance’s required treatment of the CCRB’s investigatory findings,
determining that the binding nature of the CCRB’s findings, absent clear error,
impermissibly “makes the CCRB’s factual findings paramount to the findings of the IA
department.” Id. at 491-92. Second, the Appellate Division held that, facially, the
Ordinance’s procedures for the CCRB do not violate due process, id. at 494, and left to
another day an as-applied due process challenge, id. at 495. Third, the Appellate
Division rejected FOP’s argument “that preemption principles invalidate the Ordinance
on its face,” but did invalidate the Ordinance’s provision authorizing disclosure of a
complainant’s identity. Id. at 502, 507. Finally, on the issue of subpoena power, the
Appellate Division reversed the trial court. Id. at 508.
The Court granted certification, 240 N.J. 7 (2019), and considers the Ordinance as
modified by the Appellate Division.
HELD: The Ordinance is sustained subject to the Court’s further modifications to
comply with current legislative enactments. The Court concludes that state law permits
the creation by ordinance of this civilian board with its overall beneficial oversight
purpose. The Court holds that this review board can investigate citizen complaints
alleging police misconduct, and those investigations may result in recommendations to
the Public Safety Director for the pursuit of discipline against a police officer. In
addition, the review board may conduct its oversight function by reviewing the overall
operation of the police force, including the performance of its IA function in its totality or
its pattern of conduct, and provide the called-for periodic reports to the officials and
entities as prescribed by municipal ordinance. However, to the extent some investigatory
powers that the City wishes to confer on its oversight board conflict with existing state
law, the Court modifies the Appellate Division’s judgment. The board cannot exercise its
investigatory powers when a concurrent investigation is conducted by the Newark Police
Department’s IA unit. An investigation by the IA unit is a function carefully regulated by
law, and such an investigation must operate under the statutory supervision of the police
chief and comply with procedures established by Newark’s Public Safety Director and
the mandatory guidelines established by the Attorney General. Concurrent investigations
would interfere with the police chief’s statutory responsibility over the IA function, and
the review board’s separate investigatory proceedings would be in conflict with specific

2

requirements imposed on IA investigations and their results. The Court also invalidates
the conferral of subpoena power on this review board.
1. The question presented here is whether Newark has the power to legislate, by
ordinance, the creation of a citizen oversight board to have a role in the review of the
handling of citizens’ police misconduct complaints. Municipalities in New Jersey have
the power to act legislatively where such authority has been delegated by the Legislature.
The three-part test set forth in Dome Realty, Inc. v. City of Paterson, 83 N.J. 212, 225-26
(1980), applies when determining the validity of challenged municipal action.
(pp. 20-23)
2. The threshold issue -- whether Newark has the power to create a citizen oversight
board to be involved in the review of police misconduct complaints -- implicates N.J.S.A.
40:48-2, the police powers statute, which provides in part that a municipality may make
such ordinances not contrary to state or federal law “as it may deem necessary and proper
for the good government, order and protection of persons and property, and for the
preservation of the public health, safety and welfare of the municipality and its
inhabitants”; N.J.S.A. 40A:14-118, which authorizes municipalities to establish and
“provide for the maintenance, regulation and control” of a police force as part of the
executive function of local government and further authorizes the appointment of a chief
of police with statutorily designated responsibilities; and N.J.S.A. 40A:14-181, which
directs locally created law enforcement agencies to adopt procedures for the investigation
of complaints of police misconduct consistent with guidelines issued by the State’s chief
law enforcement officer: the Attorney General. The Court analyzes each statute. In
applying the three-part test set forth in Dome Realty to determine the validity of the
municipal action challenged in this case, the Court finds the first and second prongs are
not the significant issues: there is no constitutional impediment to municipal action that
is claimed here, and the broad police powers statute presents legislatively delegated
authority to permit municipalities to create an oversight board. Whether the City can
create a citizen oversight board at all, and whether it can do so in the form it has enacted,
arises under the third prong of the test: “whether any delegation of power to
municipalities has been preempted by other State statutes dealing with the same subject
matter.” See 83 N.J. at 225-26. (pp. 23-36)
3. The Court analyzes N.J.S.A. 40A:14-118 and, in particular, its final paragraph. The
first sentence of that paragraph preserves the governing body’s authority to appoint
committees “to conduct investigations of the operation of the police force.” The next
sentence preserves for “the appropriate authority” certain other functions, including
“examining at any time the operations of the police force or the performance of any
officer or member thereof.” The Court concludes that the power identified in the second
sentence of the last paragraph of section 118 cannot be aggregated to the CCRB. Under
Newark’s municipal code, the City has designated the Public Safety Director as the
“appropriate authority” for section 118 purposes, with ultimate responsibility for the

3

police force’s efficiency and day-to-day operations, including discipline, and the official
to whom the police chief reports. There cannot be another entity performing the
responsibilities assigned to the appropriate authority under section 118. The Court’s
interpretation relies on both the language and the history of that statute. (pp. 24-32)
4. The Court also reviews the authority of the Attorney General to provide direction to
law enforcement at the local level, which the Attorney General exercised in issuing the
Internal Affairs Policy & Procedures (IAPP) to establish uniform procedures for
investigating complaints of police misconduct. The Court concludes that section 181
effectively made the AG’s IAPP required policy for all municipal law enforcement
agencies in New Jersey. (pp. 32-34)
5. The Court construes neither section 118 nor section 181 to preempt the creation of a
civilian oversight board in general. But the Court must also consider whether the
investigatory or general oversight responsibilities the challenged Ordinance confers upon
the CCRB conflict with those statutes. (pp. 37-38)
6. The Court first reviews the investigative functions conferred upon the CCRB. The
Court concludes that when no IA investigation is undertaken, the investigatory power
conferred on the CCRB by ordinance is valid and poses no conflict with existing statutory
law when it is used to investigate a citizen complaint filed with it. And the Court
perceives no conflict if the Public Safety Director directs the chief to initiate charges
against a police officer after receiving the findings and recommendation of the CCRB,
notwithstanding that the IA process was not commenced. However, under present law,
the IA process must remain a self-contained, confidential process as designed with
respect to the personnel selected and trained to perform such investigations, responsive to
the chief who has ultimate responsibility for the IA operation, and separated on a
reporting basis from others on the force. The process and the information gathered in
such investigations is subject to strict confidentiality requirements, as currently mandated
by the IAPP, with which local law enforcement agencies are compelled by section 181 to
comply. Under the IAPP, section 181, and section 118, there simply cannot be a
concurrent investigation of a citizen’s police complaint by a CCRB while an IA
complaint is under review. For that to be permissible, present statutes would have to be
altered to clearly indicate how the two systems could work compatibly or to indicate that
the present insulating features of the IA investigatory process no longer enjoy
paramountcy. The Court accordingly holds that the CCRB’s authority to conduct
concurrent investigations is invalid. (pp. 38-46)
7. Turning to the CCRB’s oversight functions, the Court agrees with the Appellate
Division, which upheld the Board’s roles in creating a disciplinary matrix to be used by
the Public Safety Director and conducting oversight reviews and reporting periodically to
the Public Safety Director and to the Council. That power, preserved in the first sentence
of the last paragraph of section 118, pertains to review of an overall operation of the

4

police force or, as here, the IA unit’s overall operational results, and does not include the
ability to review and critique the handling of an individual IA investigation into alleged
police misconduct. (pp. 46-48)
8. As to subpoena power, the Council’s conferral through this Ordinance of subpoena
power on the CCRB cannot be squared with existing statutes. There is no inherent
authority for the Council to delegate its subpoena power to a non-legislative body of its
creation. To the extent that the Council itself has subpoena power, that power is inherent
in and tied to the power to legislate. While a municipal governing body can delegate its
own subpoena power to a subcommittee of its members in furtherance of a proper
legislative purpose, the first sentence of the last paragraph in section 118 stops far short
of supporting that a municipality now has the power to confer subpoena power on any
public-member commission it chooses to create. To the extent this CCRB exercises its
oversight function, consistent with section 118, the referenced “power[] of inquiry” is not
equivalent to “subpoena power.” The Legislature would have to act in order for the City
to have the ability to confer subpoena power on its CCRB. Nonetheless, the Council
retains its own power to issue subpoenas and may be motivated to exercise that power as
a result of an oversight report from the CCRB about the performance of the IA function
in Newark, viewed in its totality, as the Ordinance calls for. (pp. 48-51)
9. The Court finds FOP’s due process challenge premature but notes that the statutory
protections trigger if and when the Public Safety Director chooses to impose discipline
and that, because the CCRB is not an adjudicative body, traditional notions of due
process may not arise in the CCRB’s purely investigative setting. (pp. 51-52)
The Court MODIFIES the judgment of the Appellate Division, AFFIRMING
IN PART and REVERSING IN PART. The Ordinance, as modified by the Court’s
opinion, is SUSTAINED.
CHIEF JUSTICE RABNER, dissenting, believes the Newark City Council
chose a valid course when it passed the Ordinance, as modified by the Appellate
Division. In Chief Justice Rabner’s view, the legislative scheme directly anticipates the
delegation of subpoena power to oversight boards in N.J.S.A. 40A:14-118; the
“necessary and proper” clause of N.J.S.A. 40:48-2 offers further authority for the
Council’s action; and N.J.S.A. 40A:14-181 does not empower the Attorney General to
override the authority the Legislature granted municipalities and civilian review boards to
investigate the operation of local police forces under section 118. Chief Justice Rabner
would uphold the Ordinance, which would allow Newark’s CCRB to conduct
investigations similar to other civilian oversight boards throughout the nation.
JUSTICES ALBIN, PATTERSON, FERNANDEZ-VINA, SOLOMON, and
TIMPONE join in JUSTICE LaVECCHIA’s opinion. CHIEF JUSTICE RABNER
filed a dissent.

5

SUPREME COURT OF NEW JERSEY
A-15 September Term 2019
083197
Fraternal Order of Police,
Newark Lodge No. 12,
Plaintiff-Appellant,
v.
City of Newark,
Defendant-Respondent.
On certification to the Superior Court,
Appellate Division, whose opinion is reported at
459 N.J. Super. 458 (App. Div. 2019).
Argued
April 27, 2020

Decided
August 19, 2020

Matthew D. Areman argued the cause for appellant
(Markowitz & Richman, attorneys; Matthew D.
Areman, of counsel and on the briefs).
Avion M. Benjamin, First Assistant Corporation
Counsel, argued the cause for respondent (Kenyatta K.
Stewart, Corporation Counsel, attorneys; Avion M.
Benjamin, of counsel and on the briefs).
Daniel I. Bornstein, Assistant Attorney General,
argued the cause for amicus curiae Attorney General
of New Jersey (Gurbir S. Grewal, Attorney General,
attorney; Daniel I. Bornstein, of counsel and on the
briefs).
1

Vito A. Gagliardi, Jr., argued the cause for amicus
curiae New Jersey State Association of Chiefs of
Police (Porzio, Bromberg & Newman, attorneys; Vito
A. Gagliardi, Jr., of counsel and on the brief, and
David L. Disler, on the brief).
Lawrence S. Lustberg argued the cause for amici
curiae American Civil Liberties Union of New Jersey
and Newark Communities for Accountable Policing
(Gibbons and American Civil Liberties Union of New
Jersey Foundation, attorneys; Lawrence S. Lustberg,
Michael R. Noveck, Jeanne LoCicero, and Alexander
Shalom, on the briefs).
CJ Griffin submitted a brief on behalf of amici curiae
New Jersey Urban Mayors Association, Latino
Leadership Alliance of New Jersey, and Libertarians
for Transparent Government (Pashman Stein Walder
Hayden, attorneys; CJ Griffin, on the brief).
Alexis Karteron submitted a brief on behalf of amici
curiae Urban League of Essex County and Junius
Williams, Esquire (Rutgers Law School Constitutional
Rights Clinic, attorneys; Alexis Karteron, on the
brief).
JUSTICE LaVECCHIA delivered the opinion of the Court.
This appeal involves a challenge to the City of Newark’s (the City or
Newark) authority to create by ordinance a civilian oversight board to provide
a greater role for civilian participation in the review of police internal
investigations and in the resolution of civilian complaints. Newark was the
first municipality in this state to join others across the nation that have created
2

a civilian oversight or review entity to increase police accountability and
create stronger relationships between the community and the police. No two
civilian oversight or review entities are alike in their genesis, their roles, or the
legal landscape in which they arose and are controlled.
This challenge to Newark’s civilian oversight entity must be considered
in the context of the landscape here in New Jersey. We conclude that state law
permits the creation by ordinance of this civilian board with its overall
beneficial oversight purpose. Such boards must operate consistently with
current statutes, however. To the extent some investigatory powers that the
City wishes to confer on its oversight board conflict with existing state law, we
are compelled to modify the Appellate Division’s judgment. We also
invalidate the conferral of subpoena power on this review board. The civilian
review board’s powers must comply with current legislative enactments unless
the Legislature refines the law to specifically authorize certain functions that
Newark intends to confer on its review board.
We hold that this civilian review board can investigate citizen
complaints alleging police misconduct, and those investigations may result in
recommendations to the Public Safety Director for the pursuit of discipline
against a police officer. However, the board cannot exercise its investigatory
powers when a concurrent investigation is conducted by the Newark Police

3

Department’s Internal Affairs (IA) unit. An investigation by the IA unit is a
function carefully regulated by law, and such an investigation must operate
under the statutory supervision of the police chief and comply with procedures
established by Newark’s Public Safety Director and the mandatory guidelines
established by the Attorney General. We conclude that concurrent
investigations would interfere with the police chief’s statutory responsibility
over the IA function and that the review board’s separate investigatory
proceedings would be in conflict with specific requirements imposed on IA
investigations and their results.
Where there is no existing IA investigation, the review board may
conduct investigations in its own right. In addition, the review board may
conduct its oversight function by reviewing the overall operation of the police
force, including the performance of its IA function in its totality or its pattern
of conduct, and provide the called-for periodic reports to the officials and
entities as prescribed by municipal ordinance.
Thus, the Ordinance, as modified by this opinion, is sustained. We
modify the judgment of the Appellate Division, affirming in part and reversing
in part the conclusions reached.

4

I.
A.
We begin with some general background on civilian oversight entities to
place in context the action taken by Newark.
There exists an ever-growing body of scholarship on the development of
civilian review or oversight entities. In the concise description provided
through the American Bar Association, a citizen review board may fairly be
understood as typically operating as “an agency independent of the police
department with responsibility for receiving and investigating citizen
complaints” of police conduct. Samuel Walker, The Citizen Review Board
Model, in Citizen Oversight of Law Enforcement (Justina Cintron Perino ed.,
2006). The establishment of such entities generally has derived from the view
that the police IA function is not producing fair and thorough investigations.
Ibid. Thus, a civilian review board usually functions as an alternative to
investigations conducted by IA units of police departments. Ibid.
However, there exists a broad array of forms and structures for civilian
oversight, a term used more broadly to capture that variety. Sharon R. Fairley,
Survey Says?: U.S. Cities Double Down on Civilian Oversight of Police
Despite Challenges and Controversy, 20 Cardozo L. Rev. de novo 1, 5 (2020)
(“In the nearly eighty years since the first civilian entity was formed to address

5

police accountability, the concept of civilian oversight has been broadly
recognized as a way for community interests to independently check police
conduct.”). Oversight entities have been categorized, based on a recent survey
of the existing forms, as having some or all of the following oversight
functions: investigative (review police incidents independently from the
police department’s investigation); review (review or monitor police
investigations of police incidents); audit (audit a sampling of investigations
rather than reviewing each one, or all within a certain category of event);
adjudicative (conduct the disciplinary hearing or proceeding and make findings
and conclusions); appellate review (review outcomes of disciplinary
investigations at request of complainant or accused officer); supervisory (make
policy and strategic decisions regarding police department operations); and
advisory (make recommendations to the police department concerning highlevel policy and operational strategies). Id. at 8. Those categories are
described as not mutually exclusive. Ibid.
The first formal civilian oversight entity in the United States was created
in the 1940s, but with more recent social change civilian oversight of police
departments has proliferated: Twenty-two civilian oversight entities have been
created since 2014, including the board created by Newark. Id. at 3-4, 14. A
recent survey of the one hundred most populous cities in the nation found that

6

sixty-one have some form of civilian oversight. Id. at 6, 9 (describing such
oversight as having become “a normative element within the police
accountability infrastructure”). Many of those entities (38%) review or
monitor investigations conducted by the police department, while some entities
(21%) conduct independent investigations of police incidents. Id. at 8-9.
That said, examination of “the broad array of models and systems
nationwide” revealed that “no two are alike.” Id. at 5. And, as noted, each
civilian oversight entity’s structure and function must be considered from the
perspective of the legal framework of the state in which it operates. In
general, though, civilian oversight boards serve to foster public trust, police
accountability, and transparency in the review of police conduct.
B.
On March 17, 2016, Newark adopted Municipal Ordinance 6PSF-B
(Ordinance), establishing the Civilian Complaint Review Board (CCRB or the
Board) -- the Ordinance and CCRB at issue here. The background to that
follows.
Almost a decade ago, in May 2011, the United States Department of
Justice, Civil Rights Division (DOJ) began an investigation into the Newark
Police Department (Department) after receiving complaints of civil rights

7

violations by the Department, including complaints about excessive force,
unwarranted stops and arrests, and discriminatory police action.
After a three-year investigation, the DOJ issued a report on July 22,
2014, detailing its finding that the Newark Police Department engaged in a
pattern or practice of constitutional violations. In relevant part, the DOJ also
found deficiencies in the Newark Police Department’s systems “designed to
prevent and detect misconduct,” specifically mentioning as deficient the
Department’s methods for “reviewing force and investigating complaints
regarding officer conduct.” According to the Department’s own records, IA
“sustained only one excessive force allegation in the six-year period from 2007
through 2012.” 1
The day that the DOJ issued its report, the City and the DOJ executed
“an Agreement in Principle, which contemplate[d] the negotiation of a Consent

By way of contrast, “a 2006 Bureau of Justice Statistics Special Report
found that large municipal police departments sustained an average of 8% of
citizens’ complaints about police use of force.” (citing Bureau of Justice,
Statistics Special Report: Citizen Complaints about Police Use of Force, June
2006.)
1

8

Decree with the DOJ to resolve [its] investigation of the Newark Police
Department.”2
On March 3, 2016, the DOJ filed a complaint against the City in federal
court seeking declaratory or equitable relief to remedy the conduct by the
Newark Police Department “that has deprived persons of rights, privileges, and
immunities secured and protected by the Constitution and laws of the United
States.”
Two weeks later, the Newark Municipal Council passed the Ordinance
involved in this appeal.
On April 20, 2016, the DOJ and the City entered into a Consent Decree
which, among other things, stipulated to enhanced community engagement and

2

As reiterated later in the Ordinance itself, the July 2014 Agreement in
Principle stated that
[t]he City is establishing and will fund a civilian
oversight entity for the [Newark Police Department] to
assist [the Newark Police Department] both in adhering
to the Agreement and to foster positive relations
between [the Newark Police Department] and the
Newark Community.
The City will establish a
mechanism through which it will work with the
community to determine the appropriate form and
scope of oversight, within the parameters set forth in
the Agreement. The Independent Monitor of the
Agreement will evaluate and report on the City’s
establishment and ongoing implementation of a civilian
oversight entity.

9

civilian oversight. 3 In pertinent part, the Decree ordered the Newark Police
Department to “engage constructively with the community to promote and
strengthen partnerships and to achieve collaborative, ethical, and bias -free
policing.” And, “[a]s part of this effort,” the City agreed to “establish a
civilian oversight entity to enhance [the Newark Police Department’s]
accountability and transparency and the public’s confidence”; however, the
decree expressly stated that it “shall not be deemed to confer on the civilian
oversight entity any powers beyond those permitted by law, including by civil
service rules and collective bargaining agreements.”4

3

The Consent Decree called for review and revision of Newark Police
Department policy; training; guidance on effectuating future stops, searches,
and arrests; bias-free policing; use of force policies; in-car and body-worn
cameras; complaint intake and internal investigation procedures; compliance
reviews and integrity audits; discipline policies; data systems improvement;
and transparency and oversight. By our attention in this opinion to the
reference to a civilian oversight entity in the Consent Decree, we do not imply
that the Consent Decree’s sole or predominant focus was the imposition of a
civilian oversight entity.
4

The Consent Decree order provided that
[w]ithin 365 days of the Operational Date, the City
shall implement and maintain a civilian oversight
entity. The duties and responsibilities of that entity
shall, at a minimum, include the substantive and
independent review of internal investigations and the
procedures for resolution of civilian complaints;
monitoring trends in complaints, findings of
misconduct, and the imposition of discipline; and
reviewing and recommending changes to [the Newark
10

C.
The Ordinance, passed prior to but in clear contemplation of the Consent
Decree, establishes, within the Office of the Mayor, a CCRB to address
complaints filed by citizens against the Newark Police Department and its
members. The Ordinance further authorizes the Board to recommend to the
Public Safety Director the discipline to be imposed on individual officers.
In its opinion in this matter, the Appellate Division included a detailed
description of the Ordinance at issue. See Fraternal Order of Police, Newark
Lodge No. 12 v. City of Newark, 459 N.J. Super. 458, 475-81 (App. Div.
2019). We briefly review several components important to this appeal and
provide further detail later.
Section I of the Ordinance sets out the creation and structure of the
CCRB. The Board is to be comprised of eleven members, all appointed by the
Mayor with the advice and consent of the Municipal Council. Four of the
appointees are the City’s Inspector General, and three members of the
Municipal Council or designees nominated by the Council. The remaining

Police Department’s] policies and practices, including,
but not limited to, those regarding use of force, stop,
search, and arrest. The Monitor will evaluate and report
on the City’s implementation and maintenance of this
civilian oversight entity to determine if it is helping to
achieve the goals of this Agreement.
11

seven are to be selected by the Mayor from individuals recommended by
specifically designated community and advocacy organizations. The
Ordinance also provides that the Board and its operations will be supported
though municipal funds (Section II).
The Board’s powers and responsibilities, delineated in Section III, can,
for ease of reference, be divided into two categories: investigative powers and
policy responsibilities.
With respect to its investigative powers, the Ordinance endows the
Board with subpoena power and concurrent jurisdiction with the Newark
Police Department to receive and investigate complaints against the
Department’s members.5 The Board’s findings of fact in its investigations are,
“absent clear error,” made binding on Newark’s Public Safety Director, who
retains final authority over discipline of the police force. The Board is also
allowed to recommend the discipline to be imposed.

5

Section IV of the Ordinance provides that
[t]he processing and review of civilian complaints shall
not be deferred because of any pending or parallel
disciplinary proceeding or criminal investigation unless
such request for deferment is made by the office of a
county prosecutor or a state or federal law enforcement
agency or prosecutor or by a court order.

12

The Ordinance confers on the Board the added power -- at the
conclusion of the Newark Police Department’s own investigation into an
officer’s behavior -- to review the findings, conclusions, and recommendations
that ensue from the departmental internal investigation. In this latter respect,
the Board’s findings are to be submitted to the Public Safety Director, and
semi-annually, the Board is to prepare and submit a report on such
“Investigation Reviews” to the Public Safety Director, Mayor, and Council.
In its policymaking capacity, the Board can recommend to city officials
procedures for investigating police conduct. The Board is also tasked with a
consultative role in the development of a discipline matrix by the Public Safety
Director and the affected bargaining units.6
Further, the Ordinance directs that Newark’s Division of Police and
Department of Public Safety cooperate with the CCRB (Section IV), requiring
those entities
to provide such assistance as the Board may reasonably
request, to cooperate fully with investigations by the
Board, and to provide to the Board upon request records
and other materials which are necessary for the
investigation of complaints submitted pursuant to this

The Ordinance provides that “[t]he discipline matrix and guidelines should
be developed by the Public Safety Director and affected bargaining units, in
consultation with the CCRB, and must accord with any Consent Order or
Judgment with the United States Department of Justice.”
6

13

section, except such records or materials that cannot be
disclosed by law.
However, the Ordinance further provides that
[t]he provisions of this Ordinance shall not be
construed to limit or impair the authority of the Public
Safety Director to discipline members of the [Newark
Police Department] nor obviate the responsibility of the
[Newark Police Department] to investigate citizen
complaints or incidents to which [the Newark Police
Department] is made known . . . . Nor shall the
provisions of this section be construed to limit the
rights of members of the [Newark Police Department]
with respect to disciplinary action, including, but not
limited to, the right to notice and a hearing, which may
be established by any provision of law or otherwise.
Finally, Section V of the Ordinance establishes rules and procedures for
the CCRB, one of which provides for the confidentiality of complainant
identities. However, “[i]f the complaint is substantiated and is referred to a
CCRB hearing, the complainant’s identity may be released in the course of any
public hearing about the alleged misconduct.” Section V reiterates that the
Public Safety Director retains final authority and discretion over disciplinary
determinations.

14

II.
A.
On August 5, 2016, the Fraternal Order of Police, Newark Lodge No. 12
(FOP)7 filed a verified complaint in Superior Court, claiming that the
Ordinance was unlawful 8 and seeking relief related to the Ordinance’s effect
on “the administration of discipline among Newark’s police officers.” FOP
asked the court to enjoin enforcement of the Ordinance and to declare it void
ab initio.
Based on the record and arguments presented on cross-motions for
summary judgment, the court held the Ordinance invalid and enjoined its
operation in virtually all respects.
The court determined that the Ordinance fundamentally conflicted with
N.J.S.A. 40A:14-118 (the police force statute) because it inappropriately
authorized the CCRB to “file a complaint against an officer and conduct the
investigation,” which is a power reserved to the police chief as part of his
statutory responsibility for management of day-to-day operations. And,

FOP “is the certified, exclusive collective bargaining representative of police
officers employed by the City of Newark.”
7

8

Specifically, FOP alleged that the ordinance violated N.J.S.A. 40:48-25;
N.J.S.A. 40:69A-36; N.J.S.A. 40A:14-181; N.J.S.A. 40A:14-118; N.J.S.A.
40A:14-147; N.J.S.A. 11A:2-13; and Article 1, Paragraph 1 of the New Jersey
Constitution.
15

because the City Council has no power to investigate such complaints, the
court determined that the Council cannot by Ordinance “transfer th[at] power
to the CCRB.”
The court observed that the Ordinance’s allowance of concurrent
investigations would interfere with those conducted by the police chief’s
designated IA unit and, further, that the Ordinance conflicts with the Attorney
General Internal Affairs Policy & Procedures (IAPP or AG Guidelines) by
allowing separate CCRB investigations that would undermine the uniformity
of IA investigations. The court found that the AG Guidelines, which preempt
in the conducting of such investigations, require an experienced investigator
and strict confidentiality, none of which is assured under the CCRB’s process.
The court questioned the neutrality of the CCRB due to the composition of its
membership and noted that “the CCRB is empowered both to investigate and
hear matters,” which the court viewed as “separate functions” “antithetical to
each other.” Finally, the court also found no authority to support a
municipality’s grant of subpoena power to a civilian review board.
Although invalidating the Ordinance’s conferral of investigatory
functions on the CCRB, the court left intact the Ordinance’s grant of authority
to the CCRB to conduct general oversight functions, including aiding in the
development of a disciplinary matrix for use by the police force.

16

B.
An appeal by the City followed, in which the Appellate Division
affirmed in part and reversed in part. Fraternal Order of Police, 459 N.J.
Super. at 471. The Appellate Division modified the Ordinance and determined
that, with those modifications, the Ordinance is consistent with N.J.S.A.
40A:14-118.
First, the court invalidated the Ordinance’s required treatment of the
CCRB’s investigatory findings. The court explained that “the Ordinance
interferes with the Chief’s statutory rights by making the CCRB’s findings of
fact binding, absent clear error.” Id. at 483. The court noted that “the Chief’s
day-to-day routine operations of the force include supervising the IA
Department, through the chain of command, administering the disciplinary
process, and imposing any resulting discipline.” Id. at 491. Thus, the binding
nature of the CCRB’s findings, absent clear error, could not survive under the
court’s analysis because that required treatment impermissibly “makes the
CCRB’s factual findings paramount to the findings of the IA department,”
thereby undermining the chief’s authority over the day-to-day operation of the
police force “by rendering the results of the IA Department’s investigation
nugatory and commandeering the disciplinary process.” Id. at 491-92.

17

Second, the Appellate Division held that, facially, the Ordinance’s
procedures for the CCRB do not violate due process, id. at 494, and left to
another day an as-applied due process challenge, finding that to be premature,
id. at 495. In particular, the court saw no facial due process violation in the
requirement that the Public Safety Director explain any disagreement with a
CCRB recommendation in an individual case of discipline because the CCRB
does not adjudicate cases, operates only as an “investigatory and oversight
body,” and “has no authority to discipline officers.” Id. at 496.
Third, the Appellate Division rejected FOP’s argument “that preemption
principles invalidate the Ordinance on its face, because N.J.S.A. 40A:14-181
and the AG Guidelines apply to law enforcement agencies and do not address a
board like the CCRB.” Id. at 502. Further, applying the preemption factors,
the court (1) did “not read N.J.S.A. 40A:14-181 or the AG Guidelines as
providing the exclusive means for the investigation of civilian complaints,” (2)
did not view uniformity in the conclusions reached by the separate
investigations as necessary because, ultimately, discipline authority remained
reposed with the Public Safety Director, and (3) did not find the “state
scheme” to be “so pervasive or comprehensive” as to preclude municipal
regulation that includes civilian involvement in the investigation of police
misconduct. Id. at 504-06. In its preemption analysis, the court did, though,

18

invalidate the Ordinance’s provision authorizing disclosure of a complainant’s
identity, finding that it could thwart other investigations and might discourage
complainants from coming forward, disclose an informant, or encourage, for
notoriety’s sake, unwarranted complaints. Id. at 507.
Finally, on the issue of subpoena power, the Appellate Division reversed
the trial court. Id. at 508. The Appellate Division found support for the
Council’s ability to confer subpoena authority on the CCRB as a “power . . .
incidental to the City’s policy and express statutory power under N.J.S.A.
40A:14-118 to create a CCRB for the limited purpose of providing oversight in
investigating and examining complaints of police misconduct.” Ibid.
We granted FOP’s petition for certification, which challenged the
lawfulness of the Ordinance. 240 N.J. 7 (2019). FOP’s petition raises
arguments about: (1) whether the Ordinance is consistent with N.J.S.A.
40A:14-118; (2) whether the Ordinance is governed by and consistent with
N.J.S.A. 40A:14-181; (3) whether the Ordinance is governed by and consistent
with the AG Guidelines; (4) whether the Ordinance lawfully authorizes the
CCRB to exercise subpoena power; and (5) whether the Ordinance’s
procedures for the CCRB interfere with police officers’ due process rights .
We granted leave to numerous organizations to appear as amici curiae.
The AG appeared as an amicus before the Appellate Division on limited

19

issues, and does so again before this Court. The AG argues that the Ordinance
should be held to conflict with section 118 and state law governing IA matters.
The Chiefs of Police Association argues similarly and in support of reversal of
the Appellate Division judgment. All other amici support the City in urging
that the judgment of the Appellate Division be affirmed. Our consideration of
the arguments is woven into the analysis of the issues.
III.
Newark is a municipal government organized under the mayor-council
plan of the Faulkner Act. 9 Mun. Council of Newark v. James, 183 N.J. 361,
364 (2005). The Faulkner Act was created to confer great power to local
governments consistent with the State Constitution. McCann v. Clerk of
Jersey City, 167 N.J. 311, 324, 328 (2001).
The mayor-council plan of the Faulkner Act reflects a traditional
separation of executive and legislative power, “vest[ing] in the mayor the
responsibility for administrative and executive operations of the municipality,
while reposing the ultimate legislative and concomitant investigative
responsibilities in the council.” James, 183 N.J. at 366. Here, the City
exercised legislative authority when enacting an ordinance creating the CCRB.

9

N.J.S.A. 40:69A-1 to -210. The Act is also known as the Optional
Municipal Charter Law.

20

That exercise of municipal legislative authority must find its roots in power
delegated to it by the Legislature.
Municipalities in our State have the power to act legislatively where
such authority has been delegated by the Legislature. Wagner v. Mayor &
Mun. Council of Newark, 24 N.J. 467, 474 (1957) (stating that “[i]t is
fundamental in our law that there is no inherent right of local self-government
beyond the control of the State”); Fred v. Mayor & Mun. Council of Old
Tappan, 10 N.J. 515, 518 (1952) (explaining that municipal power is statutory
in origin).
That said, the principle of home rule is legislatively stitched into the
fabric of New Jersey government. Inganamort v. Borough of Fort Lee, 62 N.J.
521, 528 (1973) (“Home rule is basic in our government.”). That principle
finds expression in the legislative choice to invest “the police power of the
State . . . in local government to enable local government to discharge its role
as an arm or agency of the State and to meet other needs of the community.”
Ibid. N.J.S.A. 40:48-2, the police powers statute, provides that
[a]ny municipality may make, amend, repeal and
enforce such other ordinances, regulations, rules and
by-laws not contrary to the laws of this state or of the
United States, as it may deem necessary and proper for
the good government, order and protection of persons
and property, and for the preservation of the public
health, safety and welfare of the municipality and its
inhabitants, and as may be necessary to carry into effect
21

the powers and duties conferred and imposed by this
subtitle, or by any law.
Statutes granting powers to municipal governments are entitled, by
constitutional provision, to liberal construction, and they include not only
expressly conferred powers but also those incidental and “of necessary or fair
implication . . . and not inconsistent with or prohibited by [the] Constitution or
by law.” N.J. Const. art. IV, § 7, ¶ 11 (Paragraph 11). Paragraph 11 is not,
however, an independent source of municipal power. Fred, 10 N.J. at 518
(rejecting the contention that Article IV, Section VII, Paragraph 11 of the 1947
Constitution, “which had no counterpart in its predecessor constitution,” was
itself a grant of general police powers to municipalities); see also Union Cty.
Bd. of Chosen Freeholders v. Union Cty. Park Comm’n, 41 N.J. 333, 339
(1964) (further explaining that Paragraph 11 “was intended to obviate earlier
judicial decisions which had taken the position that grants of power by the
Legislature to its political subdivisions should be construed narrowly and that
doubt as to the existence of any asserted power should lead to its denial”).
Moreover, the constitutional provision acknowledges the omnipresent brake on
the exercise of municipal authority: where municipal power to act exists,
municipal action cannot run contrary to statutory or constitutional law.
A three-part test applies when determining the validity of challenged
municipal action: (1) “whether the State Constitution prohibits delegation of
22

municipal power on a particular subject because of the need for uniformity of
regulation throughout the State”; (2) “[i]f the Legislature may delegate
authority in the area under scrutiny, the second question is whether the
Legislature has in fact done so”; and (3) “whether any delegation of power to
municipalities has been preempted by other State statutes dealing with the
same subject matter.” Dome Realty, Inc. v. City of Paterson, 83 N.J. 212, 22526 (1980); see also Inganamort, 62 N.J. at 527. Because “[a] municipality may
not contradict a policy the Legislature establishes,” the question usually boils
down to “whether, upon a survey of all the interests involved in the subject, it
can be said with confidence that the Legislature intended to immobilize the
municipalities from dealing with local aspects otherwise within their power to
act.” Summer v. Township of Teaneck, 53 N.J. 548, 554-55 (1969).
IV.
The threshold issue here is whether the City has the power to legislate,
by ordinance, the creation of a citizen oversight board to have a role in the
review of the handling of citizens’ police misconduct complaints. Whether
that question is viewed as an issue of preemption, or a question of fundamental
conflict with other statutory policies, it must be resolved before we address the
details of this Board’s execution of its oversight and involvement with police
misconduct complaints.

23

Newark’s authority to enact a civilian oversight board involves
consideration of the general police power statute, with its broad “necessary and
proper” delegation of authority to municipalities, and several related subjects
on which the Legislature has spoken. The other key statutes are N.J.S.A.
40A:14-118, which authorizes municipalities to establish and “provide for the
maintenance, regulation and control” of a police force as part of the executive
function of local government and further authorizes the appointment of a chief
of police with statutorily designated responsibilities, and N.J.S.A. 40A:14-181,
which directs locally created law enforcement agencies to adopt procedures for
the investigation of complaints of police misconduct consistent with guidelines
issued by the State’s chief law enforcement officer: the Attorney General.
A.
1.
With respect to the creation and operation of a municipal police force,
N.J.S.A. 40A:14-118 has multiple components. Several features are important
here.
Any police force created by ordinance under this statute’s authority must
be part of the “executive and enforcement function” of local government, and a
specific line of authority relating to the police force is required.
Any such ordinance shall, in a manner consistent with
the form of government adopted by the municipality
24

and with general law, provide for a line of authority
relating to the police function and for the adoption and
promulgation by the appropriate authority of rules and
regulations for the government of the force and for the
discipline of its members. . . . Any such ordinance, or
rules and regulations, shall provide that the chief of
police, if such position is established, shall be the head
of the police force and that he shall be directly
responsible to the appropriate authority for the
efficiency and routine day to day operations thereof
....
[N.J.S.A. 40A:14-118.]
The statute assigns certain specific tasks to the chief of police, when
such a position is created. Ibid. Among the chief’s statutory duties is the
responsibility to administer and enforce rules and regulations for the discipline
of the force pursuant to policies that are to be established by “the appropriate
authority.” Ibid. The chief is also required to report, at least monthly, to “the
appropriate authority” on the operation of the force. Ibid.
The term “appropriate authority” is defined. Its definition underscores a
patent legislative intent to ensure that interactions, by other individuals or
entities within the local government, with the police force occur through the
designated “appropriate authority,” whomever or whatever is chosen to
perform that function.
As used in this section, “appropriate authority” means
the mayor, manager, or such other appropriate
executive or administrative officer, such as a full-time
director of public safety, or the governing body or any
25

designated committee or member thereof, or any
municipal board or commission established by
ordinance for such purposes, as shall be provided by
ordinance in a manner consistent with the degree of
separation of executive and administrative powers from
the legislative powers provided for in the charter or
form of government either adopted by the municipality
or under which the governing body operates.
Except as provided herein, the municipal governing
body and individual members thereof shall act in all
matters relating to the police function in the
municipality as a body, or through the appropriate
authority if other than the governing body.
[Ibid.]
Finally, in a closing paragraph comprised of three sentences, the statute
first underscores that it does not intend to prevent the governing body from
exercising its authority to conduct certain investigations relating to the police
force.
Nothing herein contained shall prevent the appointment
by the governing body of committees or commissions
to conduct investigations of the operation of the police
force, and the delegation to such committees or
commissions of such powers of inquiry as the
governing body deems necessary or to conduct such
hearing or investigation authorized by law.
[Ibid. (emphasis added).]
The second sentence preserves for “the appropriate authority,” and other
executive or administrative personnel, certain other functions.

26

Nothing herein contained shall prevent the appropriate
authority, or any executive or administrative officer
charged with the general administrative responsibilities
within the municipality, from examining at any time the
operations of the police force or the performance of any
officer or member thereof.
[Ibid. (emphasis added).]
The third sentence, irrelevant here, likewise preserves for “the appropriate
authority” the power to act “in an emergency situation through special
emergency directives.” Ibid.
2.
We construe section 118 to signal the creation of only one “appropriate
authority.” The first two sentences of the final paragraph of section 118 relate
to a separation of powers between the branches of municipal government and
the legislative intent to have one “appropriate authority” designated to buffer
the police force from political interference. We reach that interpretation based
on the text and legislative history to the modern version of the police force
statute. To the extent the City argued that its CCRB constitutes the
“appropriate authority” for purposes of this paragraph of section 118, we reject
that contention at the outset.
i.
The final paragraph’s first sentence about the governing body’s power
simply preserves otherwise existing authority and prevents that authority from
27

being diminished by the other provisions of section 118. Hence, in this
setting, it is essentially a reference back to the police powers statute and the
authority that it confers.
The second sentence of that paragraph cannot be conflated with the first
because it addresses power preserved to “the appropriate authority” and related
administrative staff and personnel “charged with general administrative
responsibilities within the municipality.” The Ordinance cannot aggregate to
its CCRB authority reserved under the second sentence. The CCRB cannot
become a second “appropriate authority” for purposes of section 118. Under
Newark’s municipal code, section 2:22-3.3, the City has designated the Public
Safety Director as the “appropriate authority” for section 118 purposes, with
ultimate responsibility for the police force’s efficiency and day-to-day
operations, including discipline, and the official to whom the police chief
reports. There cannot be another entity performing the responsibilities
assigned to the appropriate authority under section 118.
It is clear from the Legislature’s choice of language describing the
“appropriate authority” and the term’s definitional paragraph that there is to be
one, and only one, appropriate authority designated within a municipality to
perform the roles that section 118 assigns to that designated person or entity.

28

The plain language of section 118 consistently refers to “the appropriate
authority,” not multiple appropriate authorities, and the defining provision
adds to the certainty that the Legislature intended that there be only one. The
term’s usage does not permit a reasoned reading that it can mean one person or
entity in one place and another person or entity in another. Moreover, the
thrust of section 118’s plain language supports finding that it is an insulating
role that “the appropriate authority” is expected to play for the police force.
The appropriate authority performs that insulating role by establishing the
rules and regulations that the police force must follow and the police chief
must enforce; by being the entity or individual to whom the police chief
reports on all day-to-day operations about the force, including the disciplining
of officers; and by being the buffer through which contacts are to be made by
individual members or the governing body as a whole, unless they are made
“the appropriate authority.” Those roles do not bespeak a moving target.
Rather, the statute suggests one line of authority though a singular entity or
person to prevent interference with the running of the police force.
Any doubt about that evaporates when one considers the legislative
history to the extensive text that now comprises section 118. Section 118 was
substantially amended and expanded in 1981. L. 1981, c. 266. The 1981
amendments sought to balance concerns raised by local officials and police

29

chiefs. See Gauntt v. Mayor & Mun. Council of Bridgeton, 194 N.J. Super.
468, 484-85 (App. Div. 1984). As courts recognized, “[b]y granting chiefs of
police express statutory authority, the statute sought to avoid undue
interference by a governing body into the operation of the police force.”
Falcone v. De Furia, 103 N.J. 219, 222 (1986); see also Assemb. Judiciary,
Law, Pub. & Def. Comm. Statement to S. 1243 1 (June 22, 1981); S. Cty. &
Mun. Gov’t Comm. Statement to S. 1243 1 (Nov. 24, 1980).
The committee statements and extensive additions to the former
abbreviated version of section 118 support a clear legislative intent to
(1) specifically delineate the powers and responsibilities of police chiefs,
(2) preserve the separation of powers between the executive and legislative
branches of government at the municipal level, (3) designate an “appropriate
authority” as a conduit between the governing body and the police fo rce, and
(4) prevent elected representatives from exerting political influence on police
operations. Those changes also support that the appropriate authority is a
singular person or entity, as designated locally, entrusted by the Legislature to
perform the supervisory and insulating role the statute envisions.
ii.
Moreover, the first two sentences in the concluding paragraph of section
118 assign different powers to different people, who perform different roles.

30

The first sentence preserves for the governing body its ability to create
“committees or commissions to conduct investigations of the operation of the
police force.” Different language is used in the second sentence, which
preserves the ability of “the appropriate authority, or any executive or
administrative officer charged with general administrative responsibilities
within the municipality,” to examine “operations of the police force or the
performance of any officer or member thereof.” 10 The persons and entities
specified in the first and second sentences do not overlap, and their
responsibilities are described differently.
We assume that when the Legislature drafts a statute, it avoids
surplusage. Burgos v. State, 222 N.J. 175, 203 (2015). We do not regard the
investigation of the operation of the police force to be the same as the second
sentence’s focus on examination of the operations of the police force or the
performance of an officer or member. The words chosen by the Legislature
have meaning and each is entitled to receive its plain meaning. Paff v.
Galloway Township, 229 N.J. 340, 353 (2017) (“We must presume that the
Legislature intended the words that it chose and the plain and ordinary

10

The third sentence of the final paragraph of section 118, which again is not
relevant here, further ascribes the power to take emergency action to “the
appropriate authority,” thus continuing the shift in focus begun in the second
sentence.
31

meaning ascribed to those words.”). From the different word choices and the
history of this text, we glean that the expressly preserved power of the
governing body to create committees or commissions is not to be confused as
conferring the separate powers that are reposed in the executive bodies
identified in the second sentence.
B.
The other relevant statutory consideration concerns the authority of the
Attorney General to provide direction to law enforcement at the local level.
The Criminal Justice Act of 1970 (the Act), N.J.S.A. 52:17B-97 to -117,
aimed to
encourage cooperation among law enforcement officers
and to provide for the general supervision of criminal
justice by the Attorney General as chief law
enforcement officer of the State, in order to secure the
benefits of a uniform and efficient enforcement of the
criminal law and the administration of criminal justice
throughout the State.
[N.J.S.A. 52:17B-98.]
The Act, which established the Division of Criminal Justice within the
Department of Law and Public Safety and made it subject to the Attorney
General’s supervision, N.J.S.A. 52:17B-99, gives the Attorney General broad
law enforcement authority “relating or pertaining to the enforcement and
prosecution of the criminal business of the State and of any county,” N.J.S.A.

32

52:17B-101, and calls for its liberal enforcement to achieve its purposes,
N.J.S.A. 52:17B-98. County prosecutors, police officers, and all other law
enforcement officers must cooperate with, and aid, the Attorney General in the
performance of their respective duties. N.J.S.A. 52:17B-112. The Attorney
General is empowered to adopt rules and regulations for the efficiency of the
Department of Law and Public Safety’s work and administration. N.J.S.A.
52:17B-4(d).
The Attorney General exercised that authority to issue the IAPP in 1991
to establish uniform procedures for investigating complaints of police
misconduct.11 According to the IAPP, every law enforcement agency must
establish an IA unit, whose role and functions involve investigating complaints
of police misconduct, monitoring and tracking officer behavior for incidents of
misconduct, and correcting misconduct when it occurs. The IA unit is
intended to be insular, consisting of trained law enforcement personnel who

11

The IAPP, first issued in 1991, was revised in 1992, 2000, 2011, 2014, and
2017. The 2014 version was in effect at the time the Ordinance creating the
CCRB was adopted and when this lawsuit was filed. The 2017 alteration was
relatively minor and substantively insignificant for purposes of this appeal.
All references herein to the IAPP are to the 2017 version that was in effect
when the Appellate Division decided its appeal and the Court granted
certification in this matter. We note, however, that a substantially revised
IAPP was issued by the Attorney General in late 2019 while this matter was
pending before this Court. It is addressed separately, and later, in this opinion .

33

are directly responsible to the law enforcement executive or the designated IA
supervisor. The Guidelines describe procedures that must be followed to
receive, investigate, and resolve complaints of misconduct, including
safeguards to protect confidential information and requisite training for
persons involved in investigations. Individual law enforcement agencies have
some discretion in how to fulfill the IA requirements, but certain policies are
mandatory. Among the mandatory provisions are requirements that each
agency establish and maintain a confidential process, including an IA records
system, which must include an IA index and filing system for all documents
and records. There are also specific requirements on managing and securing
IA records and training requirements for IA personnel.
In 1996, the Legislature enacted legislation compelling all law
enforcement agencies in the state to
adopt and implement guidelines which shall be
consistent with the guidelines governing the “Internal
Affairs Policy and Procedures” of the Police
Management Manual promulgated by the Police Bureau
of the Division of Criminal Justice in the Department
of Law and Public Safety, and shall be consistent with
any tenure or civil service laws, and shall not supersede
any existing contractual agreements.
[N.J.S.A. 40A:14-181.]
Section 181 effectively made the AG’s IAPP required policy for all municipal
law enforcement agencies in New Jersey.
34

C.
1.
We now turn to the validity of Newark’s Ordinance authorizing a
civilian oversight board. In applying the pertinent three-part test, see Dome
Realty, 83 N.J. at 225-26, we find the first and second prongs are not the
significant issues.
There simply is no constitutional impediment to municipal action that is
claimed here, or any we perceive.
And, concerning whether there is legislatively delegated authority to
permit municipalities to create an oversight board, we find that authority
present in the broad police powers statute. N.J.S.A. 40:48-2’s authorization
for municipalities to legislate for the general welfare has been held to be its
own source of municipal power and not an auxiliary power in aid of other
specific grants of authority to act. Inganamort, 62 N.J. at 535-36. In an
opening “Whereas” paragraph of the Ordinance, the City cites the need “to
create[] protections for the citizenry,” a reference to its reservoir of power
under N.J.S.A. 40:48-2; no other particular source of authority is cited. Nor is
more needed to the extent that the City determined that the creation of a
civilian oversight board would benefit the general welfare of the citizens of
Newark.

35

N.J.S.A. 40:48-2 is a broad grant of police powers to municipalities. Id.
at 536. The Ordinance declares that the creation of a civilian oversight entity
is “a critical part” in implementing reforms as part of the Consent Decree and
is important for the community at large, considering the woeful track record of
results from past IA investigations and the findings of the DOJ. It advances
those aims by “creating protections for the citizenry . . . instilling confidence
in the resolution of . . . investigation[s] and providing transparency of the
process.” Those salutary reasons support use of the delegated grant of
municipal police powers for a legitimate local concern. 12 With the City’s
apparent reliance on the police powers delegation from the Legislature, it is
clear that the second prong of the three-part test does not raise a concern in
this case.
The real issue concerning the City’s ability to create a citizen oversight
board at all, and whether it can do so in the form it has enacted, arises under
the third prong of the test.
2.
With respect to outright preemption, the police force statute, N.J.S.A.
40A:14-118, addresses the creation and structure of a police force in this state.

12

As noted in Section IV.A.2., we construe section 118 as alluding to already
existing municipal power -- it is not itself an independent source of authority.
36

Section 118 makes no mention whatsoever about the existence, or role, for a
civilian oversight board. When it was enacted, the Legislature may not have
been aware that such entities would come into prominence. But, from section
118’s silence, we perceive no express or implied preemption that prevents a
community from having a civilian oversight body, as a matter of local choice,
to be involved in the review of the operation of the police force generally and,
specifically, with respect to the police force’s handling of police misconduct
complaints. The issue is more fundamentally a question about statutory
conflict with the intended powers of this civilian review board, but we
conclude that section 118 does not preempt the municipal choice to adopt an
ordinance creating a civilian oversight board.
Section 181 addresses law enforcement agencies, which as the Appellate
Division noted, this CCRB is not. Fraternal Order of Police, 459 N.J. Super. at
502. However, the Legislature plainly intended that the Attorney General’s
standards and protocols be followed uniformly by law enforcement agencies
like the Newark Police Department when performing IA functions.
Nevertheless, that does not foreclose a civilian oversight board, so long as the
role and duties of such a board do not conflict or interfere with the
administration of the AG Guidelines. We do not perceive that section 181 or
the AG Guidelines foreclose a community from adopting a civilian oversight

37

entity, which is, as noted, not itself a law enforcement entity, but rather an
entity that interacts with a law enforcement agency.
In sum, we construe neither section 118 nor section 181 to preempt the
creation of a civilian oversight board. However, both statutes figure
prominently in a conflict analysis for the Ordinance and CCRB under review.
V.
A.
The Ordinance gives the CCRB investigatory powers and certain general
oversight responsibilities. We address investigatory powers first.
1.
The CCRB’s investigatory authority includes the ability to accept and
investigate, hear, make findings, and recommend action upon complaints by
members of the public, including other police personnel, that allege
misconduct involving inappropriate behavior or actions by uniformed and
sworn police personnel. Its jurisdiction is concurrent with that of the Newark
Police Department’s ability to pursue IA investigations. 13
The CCRB’s findings and recommendations are presented to the Public
Safety Director, who is the appropriate authority under section 118 and whose

13

There is an exception for requests for deferment by a county prosecutor or
state or federal law enforcement, or by court order.
38

authority over discipline is specifically acknowledged in the Ordinance. The
Appellate Division culled from the Ordinance the obligation of the Public
Safety Director to accept the CCRB’s findings of fact as binding (except for
clear error), so that is no longer a part of the Ordinance as it is presented in
this appeal to us. See Fraternal Order of Police, 459 N.J. Super at 491-92.
The Appellate Division also invalidated the Ordinance’s provision that allowed
disclosure of a complainant’s identity. Id. at 507. The investigatory powers of
the Board, including its ability to conduct investigations concurrently with the
Newark Police Department’s IA investigation, otherwise were left intact.
Newark thus designed its civilian review board to perform its own
investigation of citizen complaints, whether or not there is also an IA
investigation addressing the same police conduct. And the Ordinance grants
the CCRB certain review authority over the results of the police department’s
IA process. Provisions require that the CCRB be given prior written
notification detailing the Public Safety Director’ reasons for imposing
discipline of a lower level than that recommended by the Board when the
Director intends to do so, and the Board may request that the Director appear
and answer questions from the Board or provide further explanation. The
Director’s cooperation with the Board is required. See Section IV of the
Ordinance.

39

2.
We find the prospect of concurrent investigations by the CCRB and the
Newark Police Department’s IA unit to create a conflict between the
Ordinance and statutory policies. That conflict requires some further
modification of the Ordinance in order to reconcile it with present law.
The statutes governing the police force and requiring implementation of
the AG Guidelines, together, create an IA function that is, in the aspects
discussed, rigidly regulated. Section 181 evinces a clear intent that the
Attorney General’s protocols for conducting IA bring uniformity to IA
investigation practices. That intention dovetails with section 118, the police
force statute, with its structured line of authority and statutory delegation to
the chief to be responsible for the day-to-day operations of the police force.
The chief’s statutorily assigned duties include responsibility for administration
of discipline to individual members of the force pursuant to published
procedures established by the person or entity designated as the appropriate
authority under section 118. Those procedures also must be consistent with
the IA investigatory requirements imposed through the AG Guidelines.
The Legislature, when requiring all local law enforcement agencies to
adopt the Attorney General’s IAPP, had to have been cognizant of the IAPP’s
patent intent to professionalize IA investigatory activities and strictly preserve

40

the confidentiality of the IA process for reasons that the Attorney General has
explained. In argument to this Court, the Attorney General emphasizes the
premium placed on confidentiality during the investigatory process, finding it
necessary to encourage and protect those who come forward with complaints
or evidence of police misconduct or problematic behavior. FOP and the Chiefs
of Police Association also strongly argue that point. Although that policy is
not ours to determine, those guiding principles have been plain on the face of
the IAPP since its first iteration.
The Attorney General’s protocols allow for careful factual development
and protective procedures designed to ensure confidentiality of information
collected and thus to encourage people to come forward and cooperate, sure of
that confidentiality. See Internal Affairs Policy & Procedures at 42 (providing
for the confidentiality of “[t]he nature and course of internal allegations, the
progress of internal affairs investigations, and the resulting materials ,” and
setting forth four limited circumstances in which those confidential materials
may be released). It is a key feature insisted upon in the AG Guidelines. And
the Legislature has required law enforcement agencies, including the Newark
Police Department and the chief of police charged with responsibility for this
function, to implement it as the Attorney General has directed. N.J.S.A.
40A:14-181. There is no flexibility on that point.

41

Thus, under present law, the IA process must remain a self-contained,
confidential process as designed with respect to the personnel selected and
trained to perform such investigations, responsive to the chief who has
ultimate responsibility for the IA operation, and separated on a reporting basis
from others on the force. See Internal Affairs Policy & Procedures at 12-13
(noting, among other things, that every law enforcement agency must create a
separate IA unit “directly responsible to the law enforcement executive or the
designated internal affairs supervisor,” that the “[i]nternal affairs investigators
should be trained not only in the elements of criminal law, court procedures,
rules of evidence and use of technical equipment, but also in the disciplinary
and administrative law process” and that “[l]aw enforcement executives shall
not assign to the internal affairs unit any person responsible for representing
members of a collective bargaining unit”). The process and the information
gathered in such investigations is subject to strict confidentiality requirements,
as currently mandated by the AG Guidelines, with which local law
enforcement agencies are compelled by section 181 to comply. Internal
Affairs Policy & Procedures at 42. To the extent that the Attorney General

42

maintains that mandate, no creation of a municipality can interfere with the IA
function as it is required to operate. 14
The prospect of a concurrent investigation by the CCRB, while an IA
investigation is underway, interferes with the intended purpose of section
181’s and the IAPP’s requirements. The IA investigatory process is disrupted,
the police chief’s authority over the IA function and its proper operation
diminished, and the carefully preserved structure of the IA unit responsible to
the chief of police is breached by allowing a concurrent investigation by the
CCRB with required departmental disclosure of IA investigatory information
to the CCRB for use in its own investigation.
Despite the sound intentions to address municipal and community
concerns in Newark, which concerns are empirically supported by the DOJ
investigation and Consent Decree, the CCRB’s operation, as originally
codified in the Ordinance, must bend to the legislative infrastructure within
which such entities must operate under present law. Under the IAPP, section

14

We acknowledge that, after certification was granted in this matter, in
December 2019, the Attorney General issued an updated IAPP that includes
various changes pertaining to confidentiality as well as other subjects. See
Attorney General Law Enforcement Directive No. 2019-5. The Attorney
General also has since issued other Directives on confidentiality of
disciplinary records. See Attorney General Law Enforcement Directive No.
2020-5. We express no views on the amended IAPP or the other Directives;
we decide this case based on the IAPP version applicable when the Appellate
Division decided this matter and we took certification of the appeal.
43

181, and section 118, there simply cannot be a concurrent investigation of a
citizen’s police complaint by a CCRB while an IA complaint is under review.
For that to be permissible, present statutes would have to be altered to clearly
indicate how the two systems could work compatibly or to indicate that the
present insulating features of the IA investigatory process no longer enjoy
paramountcy.15 Unless legislative change occurs, we are constrained to
preclude the CCRB from employing its delegated authority to conduct a
complaint-based investigation in any matter when there is an IA investigation.

15

There is an added complication with use of a record developed before
the CCRB that becomes inserted into the process after the completion of an IA
investigation that leads to discipline. As noted, the CCRB’s findings and
recommendation on quantum of discipline are to be considered by the Public
Safety Director when that official is ready to impose discipline. Insertion of
extra-record material must be reconciled with the hearing rights of the accused
officer who has had to defend him- or herself within the IA and discipline
process that exists in statute (we make no comment here on any collective
bargaining rights that relate to disciplining of police personnel). When an IA
investigation culminates in the initiation of formal disciplinary charges, once
that discipline process commences, statutes control the process that must
ensue. N.J.S.A. 40A:14-147 to -151; see Ruroede v. Borough of Hasbrouck
Heights, 214 N.J. 338, 353-55 (2013) (discussing relevant statutes and appeal
rights governing the disciplinary hearing and review process for police officers
in non-Civil Service jurisdictions, such as is Newark).
The record is plainly the one developed through those processes and
does not contemplate evidence from a separately conducted collateral
proceeding as envisioned by this Ordinance. It is unclear how findings from a
collateral hearing by the CCRB would fit into this carefully plotted IA
investigatory scheme culminating in a statutory hearing process.

44

We accordingly hold that the CCRB’s authority to conduct concurrent
investigations is invalid.
3.
The problem identified with respect to concurrent investigations does
not impair the ability of the CCRB to investigate citizen complaints about
police misconduct that are not under IA review. The investigatory power
conferred on the CCRB by ordinance is valid and poses no conflict with
existing statutory law when it is used to investigate a citizen complaint filed
with it and for which no IA investigation is undertaken. In such settings, the
CCRB can investigate, conduct its hearing, and make findings of fact and
recommendations on the pursuit of discipline to the Public Safety Director.
The Public Safety Director is ultimately in charge of the imposition of
discipline; is the official designated to be “the appropriate authority” to set
procedures for the police department and, specifically, for the disciplining of
officers; and can direct the initiation of formal disciplinary charges against an
officer. The chief of police is responsible to him, and we perceive no
diminution in the chief of police’s authority if the Public Safety Director
directs the chief to initiate charges against a police officer after receiving the
findings and recommendation of the CCRB, notwithstanding that the IA
process was not commenced. We do not view the IA function as the exclusive

45

initiator of such investigations and recommendations about pressing charges
against an officer. Once charges are issued, the statutory rights of the officer
described heretofore would pertain.
B.
The CCRB has more than investigatory powers. The CCRB has been
granted authority to perform various oversight functions. We agree with the
Appellate Division, which upheld the Board’s roles in creating a disciplinary
matrix to be used by the Public Safety Director and conducting oversight
reviews and reporting periodically to the Public Safety Director and to the
Council.
Oversight review as to the overall performance of the IA function is a
beneficial service to this community that had, in the past, lost confidence in
the self-monitoring of police personnel. It is a function that we find has
support in the general police powers statute. See N.J.S.A. 40:48-2. Newark
argues, however, that in addition to the police power statute, this particular
power of the CCRB can draw from other statutory authority.
As previously noted, the first sentence of the last paragraph of section
118 preserves for the governing body the ability to create a commissi on for the
oversight purpose of reviewing the operation of the police force. In the
context of that paragraph, that reference aligns with the CCRB’s (a

46

commission created by the governing body) ability, consistent with its
statutory police powers, to review the overall performance of the operation of
the police force and make a report to the officials and entities as the Ordinance
requires. See Section III of the Ordinance.
We underscore that the preserved power in that sentence of section 118
pertains to review of an overall operation of the police force or, as here, the IA
unit’s overall operational results, and does not include the ability to review and
critique the handling of an individual IA investigation into alleged polic e
misconduct. We do not find that first sentence to authorize an ability to
perform a review of the outcome in an individual’s disciplinary matter -- in the
sense of a second-guessing.
The second sentence of that paragraph preserves to the municipality’s
executive branch -- its “appropriate authority” and others charged with general
administrative duties -- the ability to handle reviews of the performance of
individual officers, which would include reviewing the performance of any
member of the IA unit, or the IA unit’s operations, in connection with an
evaluation of the need for, pursuit of, and imposition of discipline for an
individual officer. The executive-versus-legislative dichotomy that the
amendment to section 118 sought to maintain in order to preserve the police
force from political interference is present throughout section 118, including

47

its final paragraph, which merely preserves existing legislative authority (in
the first sentence) and executive authority (in the second).
VI.
Finally, we address the issue of the Ordinance’s delegation of subpoena
power to its CCRB.
The Council’s conferral through this Ordinance of subpoena power on
the CCRB cannot be squared with existing statutes. There is no inherent
authority for the Council to delegate its subpoena power to a non-legislative
body of its creation. To the extent that the Council itself has subpoena power,
as recognized in In re Shain, the subpoena power is inherent in and tied to the
power to legislate. 92 N.J. 524, 539 (1983). Specifically, we recognized in
Shain a City Council’s subpoena power under the Faulkner Act, stating that
when the Council in a mayor-council plan municipality “exercises the
legislative function of the local government[,] [i]nherent in th[e] legislative
power is the authority to investigate and to interrogate officials under oath,
i.e., to issue subpoenas in furtherance of its proper legislative function.” Ibid.
This CCRB is plainly not the Council itself. Moreover, this CCRB -- a
commission, comprised of various public members, executive branch officials,
and Council members or their designees -- is also plainly not a subcommittee

48

of the Council itself. Therefore, it cannot derive from the Council the
subpoena power recognized in Shain.
Nor can an ability to confer subpoena power derive from the first
sentence of section 118’s last paragraph. The preserved power of inquiry that
may be granted to commissions created by the governing body is not
equivalent, in this setting, to the power to confer subpoena power. First of all,
the Legislature knows how to give to a person or entity the power to subpoena
in order to fulfill tasks. See, e.g., N.J.S.A. 40A:14-148 (hearing officers in
police disciplinary hearings “shall have the power to subpoena witnesses and
documentary evidence”); N.J.S.A. 40:48-25 (subcommittees comprised of
members of municipal governing bodies under Faulkner Act “may issue a
subpoena ad testificandum, or subpoena duces tecum”). The reference to the
power to inquire is not the same language; it does not say subpoena, a word
that the Legislature clearly has used in many places elsewhere.
And, for the reasons expressed, we are not dealing with a sub-delegation
of the Council’s own legislative power because this is not a subcommittee of
the Council acting legislatively for the Council. While a municipal governing
body can delegate its own subpoena power to a subcommittee of its members
in furtherance of a proper legislative purpose, N.J.S.A. 40:48-25; see also City
of Newark v. Benjamin, 144 N.J. Super. 58, 72 (Ch. Div. 1976), the first

49

sentence in section 118 stops far short of supporting that a municipality now
has the power to confer subpoena power on any public-member commission it
chooses to create.
In sum, to the extent this CCRB exercises its oversight function,
consistent with section 118, we conclude that the referenced “power[] of
inquiry” is not equivalent to “subpoena power.” As previously noted, the
Legislature knows how to confer subpoena power when it chooses to do so ; we
do not read this reference to inquiry power to lead to the conclusion that it
implicates a new authority to now confer subpoena power.
Moreover, to interpret that first sentence in section 118 as a conferral of
new authority, as opposed to a preserving of existing power, would be a grand
expansion of authority for municipal governing bodies accomplished in an
unusual way. It would mean that any commission created by a municipal
council comprised of any composition of members could be authorized to
wield subpoena power. We do not find a sound basis to conclude that the
Legislature intended to give municipalities the ability to widely distribute
subpoena power on public-member commissions. To confer subpoena power
to this municipally created civilian review board, there needs to be clearly
expressed evidence of such intent by the Legislature, as it has provided
elsewhere. That said, although the CCRB is not invested with subpoena

50

power, the Ordinance expressly requires the Newark Police Department and its
members to cooperate with the CCRB, provided there is no interference with
an ongoing IA investigation.
We appreciate that Newark values having a civilian body participating in
the oversight of the police function. But the Legislature would have to act in
order for the City to have the ability to confer subpoena power on its CCRB.
In closing, we note that the Council, of course, retains its own power to
issue subpoenas to call a person before it and to obtain documents, unless they
are otherwise made confidential by law. The Council may be motivated to
exercise that power as a result of an oversight report from the CCRB about the
performance of the IA function in Newark, viewed in its totality, as the
Ordinance calls for. This opinion does not mean to suggest that Newark is
powerless with respect to access to subpoena power; it is simply that such
power remains reposed in the governing body itself to be used, as that body
may, to compel an appearance, written testimony, or documents not shielded
by law.
VII.
To the extent FOP argues that the Ordinance’s procedures violate the
due process rights of officers, we find that challenge premature, as we do not
yet know what the Ordinance’s procedures will be. However, we note that

51

when the CCRB conducts an initial investigation -- and there is no IA
investigation -- the statutory protections trigger if and when the Public Safety
Director chooses to impose discipline. Further, as the Appellate Division
noted, the CCRB is not an adjudicative body. Fraternal Order of Police, 459
N.J. Super. at 496. Thus, traditional notions of due process may not arise in
the CCRB’s purely investigative setting.
VIII.
We modify the judgment of the Appellate Division, affirming in part and
reversing in part the conclusions reached. The Ordinance, as modified by this
opinion, is sustained.

JUSTICES ALBIN, PATTERSON, FERNANDEZ-VINA, SOLOMON, and
TIMPONE join in JUSTICE LaVECCHIA’s opinion. CHIEF JUSTICE RABNER
filed a dissent.

52

Fraternal Order of Police,
Newark Lodge No. 12,
Plaintiff-Appellant,
v.
City of Newark,
Defendant-Respondent.

CHIEF JUSTICE RABNER, dissenting
The majority outlines a path municipalities can follow to establish
civilian bodies that would have certain powers to review the conduct of local
police forces. See, e.g., ante at ___ (slip op. at 44-45). I agree that those steps
can be implemented consistent with existing law.
I respectfully differ with the majority, however, because I believe the
Newark City Council chose an equally valid course when it passed an
ordinance to create a civilian review board with stronger oversight authority,
as modified by the Appellate Division. See Fraternal Order of Police, Newark
Lodge No. 12 v. City of Newark, 459 N.J. Super. 458 (App. Div. 2019).
Largely for the reasons stated in Judge Fasciale’s thoughtful opinion, I would
uphold the City’s ordinance.

1

The City Council enacted Ordinance 6PSF-B (Ordinance) in response to
the United States Department of Justice’s (DOJ) investigation into alleged
civil rights violations by the Newark Police Department. In a July 2014 report,
the DOJ found “a pattern or practice of constitutional violations in the
[Department’s] stop and arrest practices, its response to individuals’ exercise
of their rights under the First Amendment, the Department’s use of force, and
theft by officers.” The DOJ report recognized “the many Newark officers who
abide by the rule of law and commit themselves daily to the difficult, and too
often thankless, job of protecting public safety.” At the same time, the federal
investigation found reasonable cause to conclude that officers
disproportionately subjected Newark’s Black residents to Fourth Amendment
violations.
DOJ also identified deficiencies with the Department’s internal affairs
system. Out of hundreds of excessive force complaints received from 2007 to
2012, the Internal Affairs Unit sustained only one.
On March 3, 2016, DOJ filed a complaint in federal court. It was
resolved with a consent decree on March 30, 2016 and revised about a month
later. Meanwhile, the City enacted the Ordinance on March 17, 2016,
establishing a civilian complaint review board (CCRB). I write to underscore
a few points the Appellate Division ably addressed in its opinion.
2

First, the Ordinance -- like all municipal ordinances -- is “afforded a
presumption of validity.” Grabowsky v. Township of Montclair, 221 N.J. 536,
551 (2015). In addition, under the State Constitution, courts must “liberally
construe[]” laws “in . . . favor” of the authority of local government. N.J.
Const. art. IV, § 7, ¶ 11; see also 388 Route 22 Readington Realty Holdings,
LLC v. Township of Readington, 221 N.J. 318, 339-40 (2015) (“An ordinance
must be ‘liberally construed’ in favor of its validity.” (quoting Rumson
Estates, Inc. v. Mayor & Council of Fair Haven, 177 N.J. 338, 351 (2003))).
Second, existing law expressly empowers municipalities to investigate
local police forces. N.J.S.A. 40A:14-118 governs the creation of police forces
and outlines the powers and duties of the chief of police and others. As the
Legislature plainly declared, however,
[n]othing herein contained shall prevent the
appointment by the governing body of committees or
commissions to conduct investigations of the operation
of the police force, and the delegation to such
committees or commissions of such powers of inquiry
as the governing body deems necessary or to conduct
such hearing or investigation authorized by law.
[N.J.S.A. 40A:14-118 (emphases added).]
The power to investigate the operation of the police force necessarily
encompasses the power to investigate its performance.

3

Third, implicit in that clear, strong statutory language is the power to
issue subpoenas. As part of its authority to make laws, the governing body of
a municipality has the inherent power to conduct investigations for legislative
purposes. In re Shain, 92 N.J. 524, 530-31 (1983). That “authority may be
fairly implied from [a] legislative scheme” even if it is not “expressly stated”
in a statute. Id. at 532.
To gather information needed to carry out its legislative responsibilities,
a municipal council, like Newark’s City Council, necessarily has the power to
subpoena witnesses and other evidence. Id. at 533. A municipality’s
governing body can also delegate subpoena power to “a committee of its
members.” N.J.S.A. 40:48-25.
Here, the legislative scheme directly anticipates the delegation of
subpoena power to oversight boards in N.J.S.A. 40A:14-118. Fraternal Order
of Police, 459 N.J. Super. at 508. To repeat, the Legislature plainly declared
that governing bodies may appoint committees “to conduct investigations of
the operation of . . . police force[s],” and that “[n]othing [in section 118] shall
prevent . . . the delegation . . . of such powers of inquiry as the governing body
deems necessary or to conduct such hearing or investigation authorized by
law.” N.J.S.A. 40A:14-118. In light of that broad language, it was not

4

necessary for the Legislature to include the term “subpoena power” in the
statute to fairly imply the power was conveyed. See Shain, 92 N.J. at 532.
Armed with the above authority, the City Council reasonably concluded
it was necessary to provide the CCRB with subpoena power. Indeed, without
the power to compel witnesses and other evidence by subpoena, it is difficult
to see how the CCRB or a similar review board could gather the information it
would need to effectively “investigat[e] . . . the operation of the police force” - as the law contemplates. See N.J.S.A. 40A:14-118; Shain, 92 N.J. at 533.
City of Newark v. Benjamin, 144 N.J. Super. 58, 68 (Ch. Div.), aff’d 144 N.J.
Super. 389 (App. Div. 1976), aff’d 75 N.J. 311 (1978), does not call for a
different result. The case involved whether an elected civilian review board
could be created by voter initiative -- not a municipal ordinance -- in a
Faulkner Act city, and the ruling preceded the relevant language in section
118. Ibid.; compare L. 1971, c. 197, § 626, with L. 1981, c. 266, § 1.
The “necessary and proper” clause of N.J.S.A. 40:48-2 offers further
authority for the Council’s action. The statute provides that “[a]ny
municipality may make . . . and enforce . . . ordinances . . . it may deem
necessary and proper for the good government, order and protection of persons
and property, and for the preservation of the public health, safety and welfare
of the municipality and its inhabitants.” N.J.S.A. 40:48-2.
5

As the Appellate Division observed, this Court has “consistently held
[N.J.S.A. 40:48-2] is itself a reservoir of police power.” Fraternal Order of
Police, 459 N.J. Super. at 511 (alteration in original) (quoting Inganamort v.
Borough of Fort Lee, 62 N.J. 521, 536 (1973)). The law is “an express grant
of general police powers to municipalities . . . made impregnable by . . .
continued legislative acquiescence . . . , by the mandate of Article IV, Section
7, Paragraph 11 of the Constitution of 1947 that acts concerning municipalities
be liberally construed, and by . . . more recent judicial decisions.” Inganamort,
62 N.J. at 536 (quoting Fred v. Borough of Old Tappan, 10 N.J. 515, 520
(1952)).
In my judgment, existing law permitted the Council to delegate
subpoena power to the CCRB.
Finally, N.J.S.A. 40A:14-181, which directs local law enforcement to
adopt and implement guidelines for internal investigations consistent with
those promulgated by the Attorney General, does not control local review
boards. Section 181 expressly applies to law enforcement agencies, not
civilian oversight boards. The statute does not conflict with N.J.S.A. 40A:14118, and the two laws should be read in a way that reconciles them. See Jones
v. Morey’s Pier, Inc., 230 N.J. 142, 164 (2017) (“When . . . we construe
multiple statutes, we follow the principle that ‘[s]tatutes that deal with the
6

same matter or subject should be read in pari materia and construed together as
a unitary and harmonious whole.’” (alteration in original) (quoting St. Peter’s
Univ. Hosp. v. Lacy, 185 N.J. 1, 14-15 (2005))).
The Attorney General, in fact, notes that nothing in its revised internal
affairs guidelines bars a civilian review board from accepting complaints from
the public and conducting its own investigations. Yet the guidelines in effect
prevent access to a police department’s internal affairs records if a civilian
review board does not satisfy the requirements imposed by the Attorney
General. To be clear, section 181 does not empower the Attorney General to
override the authority the Legislature granted municipalities and civilian
review boards to investigate the operation of local police forces under section
118.1

1

As to confidentiality, the Ordinance bars the CCRB from releasing the
identity of complainants and witnesses, as well as any “personally-identifiable
information” about them, during an investigation. City of Newark, N.J. Rev.
Gen. Ordinances (Newark Ordinances) 2:2-86.5, § 1-07 (2019). Although the
Ordinance originally provided that, if a “complaint is substantiated . . . the
complainant’s identity may be released in the course of any public hearing
about the alleged misconduct,” the Appellate Division properly invalidated
that section. Fraternal Order of Police, 459 N.J. Super. at 481. Elsewhere, the
Ordinance requires the CCRB to keep confidential information that would
otherwise reveal the identity of officers subject to investigation. Newark
Ordinances 2:2-86.5, §§ 1-17(d), 1-20(a), 1-21(a). In short, the identity of
complainants, witnesses, and police officers under investigation are kept
confidential under the Ordinance.
7

For those and other reasons set forth in the Appellate Division’s
decision, I would uphold the City Council’s Ordinance. Although the majority
states it is sustaining the Ordinance as modified, see ante at

(slip op. at 4,

52), very little of the Appellate Division’s judgment, or the real authority of
the CCRB, remains intact. Under the Ordinance as modified by the Appellate
Division, which I would uphold, Newark’s civilian complaint review board
could conduct investigations of the local police force similar to other civilian
oversight boards throughout the nation. See Udi Ofer, Getting It Right:
Building Effective Civilian Review Boards to Oversee Police, 46 Seton Hall L.
Rev. 1033, 1041-43, 1053-61 (2016).
I respectfully dissent.

8

APPENDIX B

NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION

SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-3298-17T3
FRATERNAL ORDER OF
POLICE, NEWARK LODGE
NO. 12,
Plaintiff-Respondent,

APPROVED FOR PUBLICATION
June 18, 2019

v.

APPELLATE DIVISION

CITY OF NEWARK,
Defendant-Appellant.
______________________________
Argued May 13, 2019 – Decided June 18, 2019
Before Judges Messano, Fasciale and Rose.
On appeal from Superior Court of New Jersey,
Chancery Division, Essex County, Docket No. C000177-16.
Avion M. Benjamin argued the cause for appellant
(Kenyetta K. Stewart, Newark Corporation Counsel,
attorney; Avion M. Benjamin and Alana Miles, of
counsel and on the briefs).
Matthew D. Areman argued the cause for respondent
(Markowitz & Richman, attorneys; Matthew D.
Areman, on the brief).
Avram D. Frey argued the cause for amici curiae
American Civil Liberties Union of New Jersey and

Newark Communities for Accountable Policing
(Gibbons, PC, attorneys; Jeanne LoCicero, Legal
Director, American Civil Liberties Union, attorney;
Lawrence S. Lustberg, Avram D. Frey, and Jeanne
LoCicero, on the brief).
Gurbir S. Grewal, Attorney General, attorney for
amicus curiae Attorney General of New Jersey (Melissa
H. Raksa, Assistant Attorney General, of counsel;
Joseph C. Fanaroff, Assistant Attorney General, on the
brief).
The opinion of the court was delivered by
FASCIALE, J.A.D.
This appeal requires that we determine the validity of an Ordinance (the
Ordinance) enacted by defendant City of Newark (the City), which created a
civilian complaint review board (the CCRB) in response to an alarming "pattern
or practice of constitutional violations" by the Newark Police Department
(NPD). The United States Department of Justice (DOJ) uncovered the violations
after a lengthy and thorough investigation of the NPD, which led to the entry of
a consent decree in a federal lawsuit. The creation of the CCRB is the City's
decisive legislative policy response to the DOJ's findings, which tackled the
problem head on.
The City appeals from an order granting summary judgment to plaintiff
Fraternal Order of Police, Newark Lodge No. 12 (FOP). FOP is the exclusive

2

A-3298-17T3

collective negotiations representative for NPD officers. The order permanently
enjoined the City from "implementing and/or enforcing" the Ordinance, "except
to the extent" that the Ordinance authorized the CCRB to "serve strictly in an
oversight capacity . . . ." The practical effect of the order stopped the CCRB
from functioning as intended because it precluded the CCRB from investigating
alleged police misconduct, prevented the CCRB from utilizing subpoena power,
and thwarted implementation of the City's policy decision, which was intended
to definitively promote accountability, transparency, and public confidence in
the NPD.
We must address numerous legal questions, especially whether the City
validly set policy.

We acknowledge that N.J.S.A. 40A:14-118 expressly

authorizes the City to create a board – such as the CCRB – to investigate and
examine allegations of police misconduct. But the same statute charges the
Chief of Police (the Chief) with responsibility for efficient and routine day-today operations of the police force. Therefore, one of the primary legal questions
on this appeal is whether the Ordinance has infringed upon the Chief's statutory
mandate.
Understanding that the Ordinance also cannot alter the NPD's obligation
to follow the Attorney General Guidelines (AG Guidelines) when undertaking

3

A-3298-17T3

its own internal affairs (IA) investigations, we hold that the Ordinance is valid
on its face with two exceptions. First, the Ordinance infringes upon the Chief's
statutory rights by making the CCRB's findings of fact binding, absent clear
error, and second, the Ordinance improperly permits disclosure of complainant
and police officer identities.

Otherwise, we conclude that the CCRB can

function as intended under the Ordinance, including providing an oversight role
by investigating alleged police misconduct, conducting hearings, participating
in the development of a disciplinary matrix, making recommendations, and
issuing subpoenas.
We therefore affirm in part and reverse in part.
I.
In May 2011, the DOJ, in conjunction with the Special Litigation Section
of the Civil Rights Division and the United States Attorney's Office for the
District of New Jersey, opened an investigation of the NPD. It did so after
receiving "serious allegations of civil rights violations" by NPD officers. The
investigation spanned a period of three years.
In July 2014, upon the conclusion of its investigation, the DOJ released a
forty-nine page report that communicated its findings and recommendations to
City officials and the NPD (the DOJ report). The DOJ acknowledged the "skills

4

A-3298-17T3

and dedication of the many [NPD] officers who abide by the rule of law and
commit themselves daily to the difficult, and too often thankless, job of
protecting public safety." Indeed, the DOJ report expressly states that the DOJ's
findings "are not meant to detract from these officers' efforts." We also do not
intend to undermine the important work that police officers perform.
Nevertheless, the DOJ report reflects that its investigation
showed a pattern or practice of constitutional violations
in the NPD's stop and arrest practices, its response to
individuals' exercise of their rights under the First
Amendment, the [NPD's] use of force, and theft by
officers. The investigation also revealed deficiencies
in the NPD's systems that are designed to prevent and
detect misconduct, including its systems for reviewing
force and investigating complaints regarding officer
misconduct. The investigation also identified concerns
that do not appear to amount to patterns of
constitutional misconduct, but which nonetheless are
significant and warrant consideration by the NPD.
These concerns relate to the NPD's practices in dealing
with potentially suicidal detainees, the NPD's sexual
assault investigations, and the impact of the NPD's
policing on the [lesbian, gay, bisexual, and transgender]
LGBT community.

5

A-3298-17T3

The DOJ found recurrent problems with the IA function of the NPD, 1 such
as the failure to collect evidence from complainants, to "probe officers' accounts
or assess officer credibility," and to give witness statements "sufficient weight."
The DOJ identified instances of needless and unnecessary use of Miranda2
warnings when interviewing complainants and witnesses with the effect of
intimidating and discouraging their participation. And it determined that the
disciplinary system lacked "transparent [and] objective criteria," resulting in
arbitrary decisions. The DOJ report concluded that the NPD failed to investigate
"officers with high numbers of credible complaints," and that these officers
"continued to work on the force . . . without any discipline or other corrective
action[.]" The DOJ concluded that these patterns and practices undercut the
community's trust and confidence in the NPD.
Like the DOJ, the New Jersey Attorney General (AG) has similarly
recognized that a failure in the IA function leads to a "negative impact on the
administration of criminal justice and the delivery of police services," which

1

The NPD currently refers to its IA department as the Office of Professional
Standards (OPS). For the sake of consistency, and to avoid confusion by adding
another acronym, we refer to it as the IA department.
2

Miranda v. Arizona, 384 U.S. 436 (1966).

6

A-3298-17T3

inevitably erodes "the respect and support of the community" and possibly
results in civil lawsuits. AG Guidelines on Internal Affairs Policy & Procedures,
at p. 5.
As to its finding that the constitutional violations resulted in a significant
lack of accountability, the DOJ report stated:
The NPD has neither a functioning early warning
system nor an effective [IA] structure.
Those
inadequacies undermine the Department's ability to
identify and address officer misconduct. The NPD's
data collection and analysis, and its system for regular
review of officer use of force, are similarly deficient.
One indication of the ineffectiveness of the
NPD's [IA] system is that the [IA] Unit . . . sustained
only one civilian complaint of excessive force out of
hundreds received from 2007 through 2012. While
there is no "right" rate at which force complaints should
be sustained, only one finding of unreasonable force out
of hundreds of complaints over a six-year period is
symptomatic of deeply dysfunctional accountability
systems. The NPD also has failed to adequately collect
or analyze data about officers' use of force, stops, or
arrests. Nor has the NPD taken adequate steps to
implement an early warning system that would track
and identify officers' problematic behavior. As a result
of these systematic deficiencies, the NPD does not
discern or respond to problematic trends in officer
conduct that could constitute or lead to misconduct.
[(Emphasis added).]

7

A-3298-17T3

The DOJ determined that the IA system "tacitly permit[ted] [police]
officers to engage in such conduct," and crucially, that the NPD knew about the
problems but failed to address them. The DOJ report itself reflects that the City
agreed in principle to "establish a civilian oversight entity for the NPD" and to
"revise its [IA] practices to ensure effective complaint intake, objective
investigations of misconduct, and fair and consistent discipline." 3
On March 3, 2016, the United States of America filed a complaint against
the City in the United States District Court for the District of New Jersey,
alleging that the City was liable for the acts or omissions of the NPD. The
complaint referenced the DOJ report and its investigative findings and
conclusions. By filing the complaint, the United States attempted to remedy the
"pattern or practice" of the NPD that "has deprived persons of rights, privileges,
and immunities secured and protected by the Constitution and laws of the United
States." The United States sought to enjoin the NPD from further alleged

3

Under the agreement, in April 2015, the Mayor acted swiftly and issued an
executive order establishing a CCRB. Two months later, the then-Police
Director issued a proposed disciplinary matrix, with the goal of providing a
uniform manner of addressing progressive and corrective discipline within the
NPD. The CCRB, as contemplated by the executive order, never convened, and
the matrix was not adopted in the manner prescribed by the executive order. The
executive order and its related proposed disciplinary matrix are not the subject
of the present litigation.

8

A-3298-17T3

misconduct, and requested that the City "adopt and implement policies and
procedures to remedy the pattern or practice of unconstitutional and unlawful
conduct described [in the complaint]." This litigation was resolved a few weeks
later, on March 30, 2016, with a consent decree, which was subsequently revised
on April 29, 2016.
On March 17, 2016, fourteen days after the federal complaint was filed,
the City enacted the Ordinance, establishing the CCRB. In creating the CCRB,
the City joined multiple other cities nationwide with similar boards. 4 The
Ordinance is the embodiment of the City's legislative policy decision to enable
transparent investigation and examination into allegations of police misconduct.
The Ordinance details the CCRB's structure, power, and duties, which we will
outline.
As to its structure, the CCRB shall consist of eleven members of the
public, appointed by the Mayor, with the advice and consent of the Municipal

4

This includes New York City, Chicago, Philadelphia, Houston, Washington
D.C., Dallas, Baltimore, Miami, Las Vegas, Detroit, Memphis, Milwaukee, San
Francisco, Honolulu, Atlanta, Prince George's County, Indianapolis, Cleveland,
St. Louis, Cincinnati, Albuquerque, and Portland. See Udi Ofer, Getting It
Right: Building Effective Civilian Review Boards to Oversee Police, 46 Seton
Hall L. Rev. 1033, 1053-61 (2016).

9

A-3298-17T3

Council. Newark, NJ, Code (Code) 2:2-86.1(a)(2)(a).5 One member shall be
the City's Inspector General, who will "serve as the administrative head of the
Board," Code 2:2-86.1(a)(2)(c); three members shall be elected members of the
Municipal Council, or their designees; and the remaining seven members shall
be selected from individuals recommended by seven organizations identified in
the Ordinance. Code 2:2-86.1(a)(2)(a).6"In selecting representatives to serve on
the CCRB, nominators are encouraged to consider potential members'
professional experience in law, civil rights or law enforcement." Code 2:286.1(a)(2)(a).

But "[n]o member of the [CCRB], excluding the Inspector

General, shall be former employees of the NPD."

Code 2:2-86.1(a)(2)(c).

Training for CCRB members "shall be predominately obtained from such
independent, third party bodies or institutions that have experience with regard
to [IA] and civilian review investigations and audits." Code 2:2-86.5, § 1-23.

5

Newark's Code codified the Ordinance.

They are the (1) American Civil Liberties Union (ACLU) – New Jersey; (2)
National Association for the Advancement of Colored People – New Jersey; (3)
People's Organization for Progress; (4) La Casa de Don Pedro; (5) Ironbound
Community Corporation; (6) Newark Anti Violence Coalition; and (7) the
clergy, meaning any person who provides moral, spiritual, or philosophical
guidance as a profession. Code 2:2-86.1(a)(2)(a). By a separate ordinance
adopted July 1, 2016, the City replaced La Casa de Don Pedro with a
representative from the LGBT community.
6

10

A-3298-17T3

As to the CCRB's powers and duties, the Ordinance authorizes the CCRB
to "consider and make recommendations to the Public Safety Director,[7] Mayor,
Municipal Council, and the public [pertaining] to policies and procedures
concerning the general investigation of complaints by the Division of Police as
well as its [IA] procedures." Code 2:2-86.3(d). It authorizes the CCRB to
"investigate and make recommendations regarding practices and/or patterns of
behavior that are problematic with regard to" police interactions with the public.
Code 2:2-86.3(d).

Along these lines, the CCRB must request certain

information from the NPD on a quarterly basis. Code 2:2-86.5, § 1-21(b).
The Ordinance also authorizes the CCRB to review the findings,
conclusions,

and

recommendations

arising

from

the

NPD's

internal

investigations of individual complaints of police misconduct, as follows:
At the conclusion of the [NPD]'s investigation of a
complaint or behavior, the [CCRB] shall have the
power to conduct a review of the findings, conclusion
and recommendations of the Division of Police
(Investigation Review). The [CCRB] shall report its
findings of the Investigation Review to the Public
Safety Director.
A semi-annual report of the
Investigation Reviews shall be submitted to the Mayor,
Public Safety Director and the Municipal Council. The
[CCRB] may utilize all the powers set forth in this
Section 2:2-86 to carry out the Investigation Reviews.
7

Pursuant to a different 2016 ordinance, the City established a Department of
Public Safety, in which the Division of Police is a sub-division. Code 2:22.
11

A-3298-17T3

[Code 2:2-86.3(b) and Code 2:2-86.5, § 1-02(d).]
The City expressly declared that the Ordinance was intended to allow the
CCRB to make recommendations to the Public Safety Director. The City did
not create the CCRB to impose discipline on police officers. Specifically, the
City, via the Ordinance, empowered the CCRB to consider and make
recommendations as to policies and procedures concerning
the general investigation of complaints by the Division
of Police as well as its [IA] procedures, and with regard
to evidence of practices or patterns of behavior or
practice that is problematic with regard to the
interaction of the Division of Police with the public at
large, as well as any failures of communication with
regard thereto.
[Code 2:2-86.5, § 1-02(c).]
The Ordinance authorizes the CCRB to conduct its own investigations of
complaints filed by members of the public (including NPD members) against
any member of the NPD. The CCRB can do so not to adjudicate complaints or
impose discipline – as it lacks such power under the Ordinance – but rather to
investigate alleged police misconduct and make recommendations.

The

Ordinance therefore gives the CCRB concurrent jurisdiction with the NPD to
investigate complaints or behavior. Code 2:2-86.3(c). More specifically, the
ordinance states:
12

A-3298-17T3

The [CCRB] shall have the power to receive,
investigate, hear, make findings and recommend action
upon complaints by members of the public (including,
but not limited to[,] complaints made by other police
officers or personnel) against uniformed and sworn
personnel of the NPD that allege misconduct involving
inappropriate behavior or actions, including but not
limited to[,] excessive use of force, abuse of authority,
unlawful arrest, unlawful stop, unlawful searches,
discourtesy or use of offensive language, including, but
not limited to, slurs relating to race, ethnicity, religion,
gender, age, sexual orientation, gender identity or
expression, and disability, theft, and any other
categories protected under law. Any member of the
public is intended to have the broadest possible
meaning and interpretation.
[Code 2:2-86.3(a).]
The CCRB shall notify the NPD of any complaints it receives and indicate
whether it will (1) "contemporaneously initiate a parallel investigation of the
[c]omplaint or behavior with the Division of Police; and/or" (2) "not investigate
the [c]omplaint or behavior but will conduct an Investigation Review upon the
Division of Police's conclusion of its investigation . . . ." Code 2:2-86.5, § 106. The Ordinance prevents the CCRB from "constrain[ing] or chang[ing] . . .
the obligations of the Division of Police to conduct appropriate and timely
investigations of NPD uniform and sworn members of [the] NPD and to be
compliant and consistent with the requirements of N.J.S.A. 40A:14-147." Code
2:2-86.5, § 1-16(d).
13

A-3298-17T3

To make its own investigation meaningful, the CCRB enjoys subpoena
power under the Ordinance. "Upon a majority vote of members of the [CCRB],
the [CCRB] may issue subpoenas ad testificandum and duces tecum, which may
be served to the extent permitted by law." Code 2:2-86.3(f) and 2:2-86.5, § 110(e) (emphasis added). Under the Ordinance, the CCRB may: (1) make written
or oral requests for information or documents; (2) interview the complainant,
witnesses, and the subject officer to the extent consistent with the rights afforded
to officers by law, the NPD, and in collective negotiations agreements (CNAs);
and (3) make field visits to the site of the alleged misconduct. Code 2:2-86.5
§§ 1-10, 1-11.
As to interviews of police officers and other individuals, the Ordinance
importantly refers to officers' constitutional protections and their rights set forth
in CNAs.
(a) It is the intent of these Rules not to alter the rights
afforded to police officers by the NPD in standing
orders or other rules and procedures or in collective
negotiations contracts with respect to interviews so as
to diminish such rights, if any, including but not limited
to[,] any existing right to notice of an interview, the
right to counsel, and the right not to be compelled to
incriminate oneself.
(b) A member of the Division of Police who is the
subject of a complaint shall be given two business days'
notice prior to the date of an interview, to obtain and
14

A-3298-17T3

consult with representatives. A member of the Division
of Police who is a witness in an investigation of a
complaint shall be given a period of time, up to two
business days, to confer with [his or her]
representatives.
(c) All persons interviewed may be accompanied by up
to two (2) individuals to act as their representative,
inclusive of their chosen counsel. Such counsel or
representative may advise the person interviewed as
circumstances may warrant, but may not otherwise
participate in the proceeding.
(d) Prior to the commencement of the interviewing
of a police officer, the following statement shall be read
to such officer:
You are being questioned as part of an official
investigation of the [CCRB]. You will be asked
questions specifically directed and narrowly related to
the performance of your duties. You are entitled to all
the rights and privileges guaranteed by the laws of the
State of New Jersey, the Constitution of this State and
the Constitution of the United States, including the
right not to be compelled to incriminate yourself and
the right to have legal counsel or such other
representative present at each and every stage of this
investigation, however that person may not unduly
interfere or disrupt the proceedings.
(e) Interviews shall be scheduled at a reasonable
hour, and reasonable requests for interview scheduling
or rescheduling shall be accommodated. If possible, an
interview with a police officer shall be scheduled when
such officer is on duty and during daytime hours.
Interviews may be conducted at the [CCRB's] offices or
other locations designated by the [CCRB].

15

A-3298-17T3

(f)
The interviewer shall inform the interviewee of
the name and position of the person in charge of the
investigation, name and position of the interviewer, the
identity of all persons present at the interview, whether
the interviewee is a subject or a witness in the
investigation, the nature of the complaint and
information concerning all allegations, and the identity
of witnesses and complainants, except that addresses
need not be disclosed and confidential sources need not
be identified unless they are witnesses to the alleged
incident.
(g) The interviewer shall not use off-the-record
questions, offensive language or threats, or promise of
reward for answering questions.
(h) The interviewer shall regulate the duration of
question periods with breaks for such purpose as meals,
personal necessity and telephone calls. The interviewer
shall record all recesses.
(i)
Interviews shall be recorded by the CCRB. No
other recordings are permitted.
(j)
If an interviewee needs an interpreter, he or she
shall advise the interviewer of such need as soon as
possible after being notified of the date and time of the
interview. A qualified interpreter will be obtained from
an official registry of interpreters or another reliable
source.
(k) Reasonable accommodations shall be made for
persons with disabilities who are participating in an
interview. Persons requiring such accommodations
shall advise the [CCRB] of such need as soon as
possible after being notified of the date and time of the
interview.

16

A-3298-17T3

[Code 2:2-86.5 § 1-11 (emphasis added).]
The Ordinance requires the CCRB to report its review of every complaint to the
Public Safety Director, as well as "all relevant forms, memoranda and
background information to assist the Public Safety Director in making [his or
her] final disciplinary determination." Code 2:2-86.5 § 1-17(a).
The Ordinance contemplates that the CCRB will make findings of fact and
propose disciplinary recommendations to the Public Safety Director.

For

example:
The [CCRB] shall use an established discipline matrix
and guidelines to recommend discipline for outcomes
resulting from investigations and complaints filed with
the [CCRB] and/or the NPD. Said discipline matrix and
guidelines shall act as safeguards to ensure the
consistent application of discipline and should include
aggravating and mitigating factors. The discipline
matrix and guidelines should be developed by the
Public Safety Director and affected bargaining units, in
conjunction with the CCRB, and must accord with any
Consent Order or Judgment with the United States
[DOJ].
[Code 2:2-86.3(j).]
But the Ordinance violates the law, as we will later explain, by requiring
the Public Safety Director to accept the CCRB's findings of fact. This part of
the Ordinance improperly provides:

17

A-3298-17T3

The [CCRB] shall provide its findings of fact to the
Public Safety Director and, absent clear error, the
Public Safety Director shall accept those findings of
fact.
The [CCRB] shall also make disciplinary
recommendations, and the Public Safety Director shall
make all disciplinary decisions based on the CCRB's
findings of fact, absent clear error, and consistent with
the matrix and guidelines.
[Code 2:2-86.3(k).]
According to the Ordinance: "Clear error exists when the CCRB's findings of
fact are based upon obvious and indisputable errors and cannot be supported by
any reasonable interpretation of the evidence." Code 2:2-86.5 § 1-17(b). The
practical effect of this requirement, as we will explain later, is that it interferes
with the Chief's statutory responsibility for the routine day-to-day operations of
the force.
Notwithstanding the binding nature of the CCRB's findings – which we
invalidate – the Public Safety Director nevertheless retains the authority and
discretion to make final disciplinary determinations. Code 2:2-86.4(d) and 2:286.5 § 1-16(a). This is so because the Ordinance specifically limits the CCRB's
authority.
The provisions of this section shall not be construed to
limit or impair the authority of the Public Safety
Director to discipline members of the NPD nor obviate
the responsibility of the NPD to investigate citizen
complaints or incidents to which NPD is made known,
18

A-3298-17T3

involving uniformed and sworn members of the NPD,
and to promptly inform the CCRB of all such
complaints or incidents. [8] Nor shall the provisions of
this section be construed to limit the rights of members
of the NPD with respect to disciplinary action,
including, but not limited to[,] the right to notice and a
hearing, which may be established by any provisions of
law or otherwise.
[Code 2:2-86.4(d).]
The Ordinance further states that it should not be construed to interfere
with other external investigations of NPD members:
e.
The provisions of this Ordinance shall not be
construed to prevent or hinder the investigation or
prosecution of a member of the NPD for violations of
law by any court of competent jurisdiction, a grand
jury, [c]ounty or [s]tate [p]rosecutor or any other
authorized officer, agency or body.
f.
The processing and review of civilian complaints
shall not be deferred because of any pending or parallel
disciplinary proceeding or criminal investigation unless
such request for deferment is made by the office of a
[c]ounty [p]rosecutor or a [s]tate or [f]ederal law
enforcement agency or prosecutor or by a court order.

8

We emphasize that the Ordinance cannot alter the NPD's obligation to comply
with the AG Guidelines as part of the NPD's IA investigations. But the AG
Guidelines do not prevent the NPD from disclosing to a municipal oversight
body, such as the CCRB, "citizen complaints or incidents to which NPD is made
known, involving uniformed and sworn members of the NPD," especially
because the CCRB is also required to maintain confidentiality. Furthermore,
this Ordinance disclosure requirement is consistent with the oversight authority
granted to municipalities under N.J.S.A. 40A:14-118.
19

A-3298-17T3

[Code 2:2-86.4(e)–(f).]
The Ordinance also addresses complainant confidentiality and correctly
guarantees confidentiality during the investigatory process, but – improperly –
not at public hearings.
During the investigatory process, neither the identity
of, nor personally-identifiable information about,
complainants or witnesses shall be released beyond the
CCRB staff, [CCRB] members, and NPD staff engaged
in the specific investigation of the complainant's
allegation. If the complaint is substantiated and is
referred to a CCRB hearing, the complainant's identity
may be released in the course of any public hearing
about the alleged misconduct.
[Code 2:2-86.5, § 1-07 (emphasis added).]
We invalidate this part of the Ordinance. A complainant's identity should
always remain confidential, for reasons that we express later in our opinion.
Moreover, although this section of the Ordinance only addresses the
confidentiality of complainants and witnesses, other parts of the Ordinance
require the CCRB to maintain the subject officers' confidentiality in its public
reporting, see Code 2:2-86.5 §§ 1-17(d), 1-20(a), 1-21(a), consistent with the

20

A-3298-17T3

AG Guidelines at p. 44.9 We emphasize that a police officer's identity should
remain confidential as well.
The CCRB also must publish certain information on its website, on a
quarterly basis, "with personally identifiable information redacted." Code 2:286.5, § 1-21(a). And the CCRB must publish an annual report on its website,
with statistical information, identifying "trends, patterns, areas of concern, or
areas of excellence," in the NPD's practices. Code 2:2-86.5, § 1-21(c) (emphasis
added). The Ordinance also sets the procedures for the CCRB to report case
dispositions to complainants. Code 2:2-86.5, § 1-22.
The April 29, 2016 consent decree that terminated the federal litigation
against the City reflected the minimum duties and responsibilities of the CCRB.
Section V, Paragraph A of the consent decree provides in pertinent part that the
CCRB "shall, at a minimum," perform
substantive and independent review of internal
investigations and the procedures for resolution of
civilian complaints; monitoring trends in complaints,
findings of misconduct, and the imposition of
discipline; and reviewing and recommending changes
to NPD's policies and practices, including, but not
limited to, those regarding use of force, stop, search,
and arrest.
9

The Ordinance is also subordinate to other State law, for example, the Open
Public Records Act (OPRA), which provides for the confidentiality of personnel
records in the possession of a public agency. N.J.S.A. 47:1A-10.
21

A-3298-17T3

The consent decree appointed a former Attorney General of the State of New
Jersey to act as an independent monitor and to ensure compliance with the
consent decree.
In August 2016, FOP filed an order to show cause and a verified
complaint.

FOP alleged ultra vires creation of subpoena power by the

Ordinance, in violation of N.J.S.A. 40:48-25 and the Faulkner Act, N.J.S.A.
40:69A-36 (Count One).

It contended that there existed an inconsistency

between the Ordinance and the AG Guidelines and discipline of police officers
by the IA division, in violation of the Law Enforcement Officers Protection Act,
N.J.S.A. 40A:14-181 (Count Two).

It alleged that the Ordinance deprived

officers of due process, in violation of N.J.S.A. 40A:14-147, N.J.S.A. 11A:213, and N.J. Const. art. I, ¶ 1 (Count Three). Finally, FOP claimed that the
Ordinance violated N.J.S.A. 40A:14-118, by infringing on the Chief's rights
(Count Four).
The judge entertained cross-motions for summary judgment and
invalidated the Ordinance with two exceptions: (1) the CCRB could perform an
oversight function, and (2) the CCRB could consult with the Public Safety
Director and NPD in the creation of the discipline matrix. In his oral opinion,
the judge "expressly prohibited" the CCRB "from engaging in investigations,
22

A-3298-17T3

hearings, adjudications, or the issuance of subpoenas relating to police
misconduct and/or discipline[.]"
II.
On appeal, the City argues that the Ordinance does not violate N.J.S.A.
40A:14-118; the judge erroneously concluded (sua sponte) that the Ordinance
violates due process rights; N.J.S.A. 40A:14-181 and the AG Guidelines do not
preempt the Ordinance; and the judge erred by concluding that the CCRB's
subpoena power was invalid.
The ACLU joins the contentions made by the City.

The ACLU

emphasizes that neither N.J.S.A. 40A:14-181 nor the AG Guidelines preempt
municipal regulation in the field of civilian complaints of police misconduct.
Additionally, the ACLU maintains that the City correctly implemented its own
police power – relying on its home rule authority – and properly established
legislative policy consistent with N.J.S.A. 40A:14-118.
FOP maintains that the Ordinance contravenes N.J.S.A. 40A:14-118
because it transfers the power to administer and discipline police officers from
the Police Chief to the CCRB; disregards police officers' due process rights;
violates N.J.S.A. 40A:14-181 and the AG Guidelines; and improperly empowers
the CCRB with subpoena power.

23

A-3298-17T3

The AG, who accepted our invitation to appear as amicus, primarily
contends that the Ordinance violates N.J.S.A. 40A:14-118 by giving the CCRB's
findings dispositive weight unless clearly erroneous.

The AG argues the

Ordinance "impermissibly assigns to the CCRB functions that the [statute]
assigns to the [Chief]," maintaining that the CCRB's purported authority to
"conduct investigations, find facts, and make recommendations for the
discipline of officers and members of the police force falls within the ambit of
the [C]hief's authority under the statute."
III.
We begin by addressing the City's argument that the Ordinance is
consistent with N.J.S.A. 40A:14-118.

We agree, with one exception: the

Ordinance interferes with the Chief's statutory rights by making the CCRB's
findings of fact binding, absent clear error. To analyze this argument, we must
interpret the statute, giving the Ordinance a presumption of validity. Indeed,
our standard of review is well settled.
"In matters of statutory interpretation, our review is de novo." Verry v.
Franklin Fire Dist. No. 1, 230 N.J. 285, 294 (2017). "The Legislature's intent is
the paramount goal when interpreting a statute and, generally, the best indicator
of that intent is the statutory language." DiProspero v. Penn, 183 N.J. 477, 492

24

A-3298-17T3

(2005). In reading the text of the statute, courts should "ascribe to the statutory
words their ordinary meaning and significance, and read them in context with
related provisions so as to give sense to the legislation as a whole[.]" Ibid.
(citations omitted). "[I]f there is ambiguity in the statutory language that leads
to more than one plausible interpretation, we may turn to extrinsic evidence,
'including legislative history, committee reports, and contemporaneous
construction.'" Id. at 492-93 (quoting Cherry Hill Manor Assocs. v. Faugno,
182 N.J. 64, 75 (2004)).
Municipal ordinances are "afforded a presumption of validity[.]"
Grabowsky v. Twp. of Montclair, 221 N.J. 536, 551 (2015). Accord Hawthorne
PBA Local 200 v. Borough of Hawthorne, 400 N.J. Super. 51, 60 (App. Div.
2008). Moreover, our State constitution and case law require us to liberally
construe the law in favor of municipal authority and an ordinance's validity. N.J.
Const. art. IV, § 7, ¶ 11; 388 Route 22 Readington Realty Holdings, LLC v.
Twp. of Readington, 221 N.J. 318, 339-40 (2015). Thus, statutes, like the one
here, that delegate to municipalities the authority to adopt ordinances on a
particular subject, should be read expansively. Holmdel Builders Ass'n v. Twp.
of Holmdel, 121 N.J. 550, 566 (1990); In re Egg Harbor Assocs., 94 N.J. 358,
366-67 (1983).

25

A-3298-17T3

We first analyze the power N.J.S.A. 40A:14-118 gives to the Chief and
the City. After that, we address the City's establishment of local policy and its
authority to do so. And then, we specifically respond to FOP's contention that
the CCRB infringes upon the Chief's day-to-day operations of the force.
A.
Broadly speaking, N.J.S.A. 40A:14-118 authorizes municipalities to
create a police department and appoint a police chief as the head of that
department. Pursuant to the statute, the police chief is responsible for the
department's day-to-day operations, and reports to the "appropriate authority"
within the municipal government, who is responsible for promulgating rules and
regulations for the control of the police force. The statute also authorizes
municipalities to investigate and examine the operations of their police forces ,
and individual members thereof.
Thus, N.J.S.A. 40A:14-118 recognizes two things: "[T]he principle of
non-interference of elected officers individually in the operation of the police
force"; and "the power of the governing body to conduct official investigations
of the police force, and the power of executive and administrative officers in
their official capacity to examine the operations of the police force and the
performance of any officer therein." S. Cty. & Mun. Gov't Comm. Statement to

26

A-3298-17T3

S.1243 (Nov. 24, 1980). Accord Assembly Judiciary, Law, Public Safety &
Defense Comm. Statement to Assembly Comm. Substitute for S.1243 (June 22,
1981).
Consistent with this statute, the City enacted an ordinance providing for a
Department of Public Safety, headed by the Director of Public Safety,
containing the Division of Police, headed by the Chief of Police. The Chief
reports to the Mayor through the Public Safety Director, who, as the "appropriate
authority," is responsible for adopting rules and regulations for the NPD,
including the imposition of discipline of police officers. Code 2:22. See PBA
Local 160 v. Twp. of N. Brunswick, 318 N.J. Super. 544, 552 (App. Div. 1999)
(stating that under N.J.S.A. 40A:14-118, "[t]he appropriate authority adopts
rules and regulations for the department, and the discipline of the members;
additionally, the appropriate authority establishes policies for the daily
operations of the department. The appropriate authority is a civilian position.").
As we stated in Gauntt v. City of Bridgeton, 194 N.J. Super. 468, 486
(App. Div. 1984),
[i]n the context of N.J.S.A. 40A:14-118 which in part
spells out the relationship of the municipal governing
body, including its appropriate executives, and the
chief of police, we deem the authority to fix policy as
one comprehending the formulation of fundamental
principles to serve as broad guides to the chief of police
27

A-3298-17T3

in making his decisions with respect to discharging his
responsibility for the efficiency and routine day to day
operation of the police department.
[(Emphasis added).]
Thus, the Code provides that the Public Safety Director is the "Chief Executive
Officer of the Police Division," Code 2:22-2.2(i), and is responsible for
"[m]ak[ing], administer[ing] and enforc[ing] rules and regulations for the
control, disposition and discipline of the Department of Public Safety, and of its
officers and employees in all of its Divisions and Offices." Code 2:22-2.2(j).
The Code also establishes a Division of Police, Code 2:22-3, and sets forth
the duties of the Police Chief. Code 2:22-3.3. Under the Code,
[t]he Police Chief shall be the head of the Police Force
and shall be directly responsible to the Mayor through
the Public Safety Director designated by the Mayor as
the Appropriate Authority for the Police Force's
efficiency and day to day operations and shall carry out
the powers and duties established under N.J.S.A.
40A:14-118 . . . .
[Code 2:22-3.3(c).]
N.J.S.A. 40A:14-118 expressly grants certain rights to a chief of police,
and certain rights to a governing body. As to the rights afforded to a chief of
police, the plain text of the statute provides:
Any such ordinance, or rules and regulations, shall
provide that the chief of police, if such position is
28

A-3298-17T3

established, shall be the head of the police force and
that he shall be directly responsible to the appropriate
authority for the efficiency and routine day to day
operations thereof, and that he shall, pursuant to
policies established by the appropriate authority:
a. Administer and enforce rules and
regulations and special emergency
directives for the disposition and discipline
of the force and its officers and
personnel[.]
[N.J.S.A. 40A:14-118 (emphasis added).]
As this statute is applied in Newark, the Director of Public Safety
exercises a great deal of control over the disciplinary process within the NPD.
For example, the Code provides that the Director of Public Safety shall:
k.
Establish procedures for the hearing and
determination of charges of violation of departmental
rules and regulations by any member of the Police
Division provided that a member may be fined,
reprimanded, removed, suspended or dismissed from
the Division only on written charges made or preferred
against him or her, after such charges have been
examined, heard and investigated by a Disciplinary
Trial Board selected from among the members of the
Police Division as provided for herein, upon such
reasonable notice to the member charged, and
according to such practice, procedure and manner as
may be prescribed by rules and regulations of the
Department.
....

29

A-3298-17T3

m. Be responsible for appointing members to serve on
the Disciplinary Trial Boards . . . .
[Code 2:22-2.2(k), (m).]
The Director of Public Safety assigns NPD officers to the IA Department.
Also, members of the IA Department investigate complaints of alleged officer
misconduct and provide completed reports through the chain of command to the
Public Safety Director. Thereafter, should a complaint be sustained, the Public
Safety Director is responsible for directing that charges be prepared, signed, and
served upon the subject officer or employee.
Meanwhile, pursuant to N.J.S.A. 40A:14-118 and the Code, the Police
Chief is responsible for day-to-day operations of the NPD, with members of the
IA Department responsible to the Police Chief, through their chain of command.
The IA Department's completed reports go through the chain of command, and
thus to the Police Chief, and to the Director of Public Safety. And, should the
Director of Public Safety direct that an officer be charged, the Police Chief then
becomes

responsible

for

implementing

the

disciplinary

process

and

administering discipline, pursuant to established rules and regulations.
As to the rights afforded to a municipal governing body, the plain text of
the statute authorizes the creation of a board such as the CCRB, for the purpose

30

A-3298-17T3

of investigating and examining, at any time, the operations of the police force,
stating:
Nothing herein contained shall prevent the
appointment by the governing body of committees or
commissions to conduct investigations of the operation
of the police force, and the delegation to such
committees or commissions of such powers of inquiry
as the governing body deems necessary or to conduct
such hearing or investigation authorized by law.
Nothing herein contained shall prevent the appropriate
authority, or any executive or administrative officer
charged with the general administrative responsibilities
within the municipality, from examining at any time the
operations of the police force or the performance of any
officer or member thereof.
[Ibid. (emphasis added).]
The statute does not expressly define or limit the meaning of "examine,"
or for that matter, "investigate." Merriam-Webster defines "examine" as "to
inspect closely," "to test the condition of," "to inquire into carefully," or "to
interrogate closely." And it defines "investigate" as "to observe or study by
close examination and systematic inquiry" and "to conduct an official inquiry."
Merriam-Webster's Collegiate Dictionary 434, 639 (11th ed. 2012). Consistent
with our standard of review, we apply these ordinary definitions when
interpreting the text of N.J.S.A. 40A:14-118.

31

A-3298-17T3

Notably, "examining" and "investigating" appear in the paragraph of the
statute that expressly contemplates investigations of police misconduct by
municipal government bodies. Also importantly, "the courts and the Legislature
have long recognized that because police officers are different from other public
employees, the scope of discretion accorded to the public entities that administer
police departments is necessarily broad." City of Jersey City v. Jersey City
PBA, 154 N.J. 555, 572 (1998).
B.
By adopting the Ordinance and creating the CCRB, the City proactively
addressed the variety of problems uncovered by the DOJ. It made a policy
decision to encourage transparency, protect its citizenry, and root out unfair
treatment by the NPD. The City took control of the situation – characterized by
the judge as "broken" – by addressing the specific needs of its community.
The City adopted the Ordinance as an exercise of its police power,
invoking the doctrine of home rule expressed in the New Jersey State
Constitution, Article IV, § VII, ¶ 11:
The provisions of this Constitution and of any law
concerning municipal corporations formed for local
government, or concerning counties, shall be liberally
construed in their favor. The powers of counties and
such municipal corporations shall include not only
those granted in express terms but also those of
32

A-3298-17T3

necessary or fair implication, or incident to the powers
expressly conferred, or essential thereto, and not
inconsistent with or prohibited by this Constitution or
by law.
"Home rule is basic in our government" and "embodies the principle that
the police power of the State may be invested in local government to enable
local government to discharge its role as an arm or agency of the State and to
meet other needs of the community." Inganamort v. Borough of Ft. Lee, 62 N.J.
521, 528 (1973). Home rule permits each municipality to act in a way it believes
will best meet the local need. W. Morris Reg'l Bd. of Educ. v. Sills, 58 N.J. 464,
477 (1971).
"Whether the State alone should act or should leave the initiative and the
solution to local government, rests in legislative discretion." Inganamort, 62
N.J. at 528.

The presumption of the validity of local legislative action is

constrained by the obvious understanding that "[a] statute has supremacy over
an ordinance," In re Ordinance 04-75, 192 N.J. 446, 469 (2007), and "a local
municipality is but a creature of the State, capable of exercising only those
powers granted to it by the Legislature . . . . " Moyant v. Paramus, 30 N.J. 528,
535 (1959). See also Dome Realty, Inc. v. Paterson, 83 N.J. 212, 225 (1980)
("[M]unicipalities, being created by the State, have no powers save those
delegated to them by the Legislature and the State Constitution.").
33

A-3298-17T3

N.J.S.A. 40:48-2, which is akin to the necessary and proper clause in the
United States Constitution, 10 gives a municipality broad general police power,
stating:
Any municipality may make, amend, repeal and enforce
such other ordinances, regulations, rules and by-laws
not contrary to the laws of this state or of the United
States, as it may deem necessary and proper for the
good government, order and protection of persons and
property, and for the preservation of the public health,
safety and welfare of the municipality and its
inhabitants, and as may be necessary to carry into effect
the powers and duties conferred and imposed by this
subtitle, or by any law.
[(Emphasis added).]
Moreover, the City derives further governmental power under the
Faulkner Act, which the Legislature enacted to present New Jersey's
municipalities "with various optional methods of organizing their local
governments." Keuerleber v. Twp. of Pemberton, 260 N.J. Super. 541, 544
(App. Div. 1992). In Keuerleber, we pointed out that the Faulkner Act was
"intended to confer upon the municipalities the greatest possible powers of local
self-government and home rule consistent with the Constitution of this State."
Ibid. (emphasis added).

10

U.S. Const., art. I, § 8, cl. 18.
34

A-3298-17T3

Any specific enumeration of municipal powers
contained in this act or in any other general law shall
not be construed in any way to limit the general
description of power contained in this article, and any
such specifically enumerated municipal powers shall be
construed as in addition and supplementary to the
powers conferred in general terms by this article. All
grants of municipal power to municipalities governed
by an optional plan under this act, whether in the form
of specific enumeration or general terms, shall be
liberally construed, as required by the Constitution of
this State, in favor of the municipality.
[N.J.S.A. 40:69A-30 (emphasis added).]
Our Supreme Court provided further guidance – especially in the context
of N.J.S.A. 40A:14-118 – on what constitutes accepted policy properly entrusted
to municipal government.

This guidance is particularly relevant here.

In

Falcone v. De Furia, 103 N.J. 219 (1986), the Court analyzed the validity of an
ordinance that provided for appointment of detectives to the police force with
approval by the governing body.
The Court considered the authority accorded the police chief under
N.J.S.A. 40A:14-118, and addressed whether the designation of a detective is
more like an appointment/promotion than an assignment of a subordinate within
the police force. Id. at 224. The former is permanent and not subject to change
at the discretion of the chief of police. Ibid. The latter pertains to a chief of
police's statutory responsibility to conduct the routine day-to-day operations of
35

A-3298-17T3

the police force. Ibid. The Falcone Court held that the designation of detectives
was a policy decision because "detectives [were] entrusted with . . . more
sensitive responsibility" and because "the appointment of detectives [was]
permanent, and not subject to changes at the discretion of the chief [of police.]"
Ibid.11
Therefore, applying Falcone and Gauntt, a governing body decision
constitutes a matter of policy properly entrusted to a municipal government
when it concerns "fundamental principles" that are intended to serve as "broad
guides to the chief of police," and where the determination concerns a "sensitive
responsibility" and is not subject to change by the discretion of the chief of
police.

Id. at 224-25.

Here, the City addressed "fundamental principles"

pertaining to constitutional violations and related problems uncovered by the
DOJ by developing a system for transparent investigations into police
misconduct. It did so while simultaneously employing the City's express right ,
under N.J.S.A. 40A:14-118, to investigate and examine the police force and its
members. And the City's local determination to create a board, such as the

11

Recall that in Newark, the Director of Public Safety appoints officers to the
IA department.
36

A-3298-17T3

CCRB, concerns the City's "sensitive responsibility" to ensure law-enforcement
accountability, which is not subject to change by the discretion of the Chief.
C.
Notwithstanding the express statutory authority to investigate and
examine the operations of the police force or any officer/member, and even
though the City responsibly set local policy enabling transparency and police
accountability, FOP correctly maintains that the CCRB interferes with the
Chief's day-to-day routine operations of the force in one limited way. As
previously discussed, and as counsel conceded at oral argument before us, the
Chief's day-to-day routine operations of the force include supervising the IA
Department, through the chain of command, administering the disciplinary
process, and imposing any resulting discipline. That part of the Ordinance
requiring the Director of Public Safety to accept as binding the CCRB's findings
of fact, absent clear error violates N.J.S.A. 40A:14-118 to the extent it makes
the CCRB's factual findings paramount to the findings of the IA department. In
this respect, the Ordinance impermissibly undermines the Chief's statutory
authority to run the NPD's day-to-day operations by rendering the results of the
IA Department's investigation nugatory and commandeering the disciplinary
process.

37

A-3298-17T3

The Ordinance expressly provides that it "shall not be construed to limit
or impair the authority of the Public Safety Director to discipline members of
the NPD . . . ." Code 2:2-86.4(d). And the CCRB rules provide that as to the
recommendations of the CCRB, "[t]he Public Safety Director shall retain in all
respects the authority and discretion to make final disciplinary determinations."
Code 2:2-86.5, § 1-16(a). The CCRB can only make recommendations to the
Public Safety Director as to the appropriate discipline.

It cannot impose

discipline. By imposing binding findings on the Public Safety Director – and
by extension, the Chief – this part of the Ordinance does more than establish
policies, rules, and regulations. We conclude, though, that the CCRB can still
meet its objectives even without imposing such a requirement.
The statute expressly authorizes municipalities to set rules and regulations
for their police departments. It is essentially undisputed that participating in the
creation of a disciplinary matrix does not interfere with the Chief's routine dayto-day operations of the force. Indeed, N.J.S.A. 40A:14-118 contemplates that
a governing body may "provide for the maintenance, regulation and control" of
a police force, including "the adoption and promulgation by the appropriate
authority of rules and regulations for the government of the force and for the
discipline of its members." But by "expressly prohibit[ing]" the CCRB "from

38

A-3298-17T3

engaging in investigations, hearings, . . . or the issuance of subpoenas relating
to police misconduct and/or discipline," as the judge ordered, the CCRB cannot
examine or investigate alleged police misconduct as contemplated by N.J.S.A.
40A:14-118, or the policy set by the City.
FOP maintains that the CCRB renders the IA process meaningless and
divests the Chief of his powers. But the Ordinance plainly states that the Public
Safety Director "shall retain in all respects the authority and discretion to make
final disciplinary determinations." Code 2:2-86.5, § 1-16(a). As such, the City
is correct in classifying the CCRB as "solely a [B]oard of fact finding,
investigatory review and public transparency, designed to provide civilian
oversight [in]to the [NPD], and to make recommendations to the Public Safety
Director as to what discipline the Public Safety Director should impose within
his authority, and at his discretion." The CCRB has no power to impose "minor
or major discipline" upon NPD officers. It can only make recommendations to
the Public Safety Director after reaching its own findings and by using a
disciplinary matrix developed by the Public Safety Director, bargaining units,

39

A-3298-17T3

and the CCRB. Thus, absent the binding nature of its findings, the CCRB will
not interfere with the Chief's oversight role of investigations by IA.12
In concluding that the Ordinance violates N.J.S.A. 40A:14-118, the judge
relied on Gauntt, 194 N.J. Super. 468, overruled in part by Falcone, 103 N.J.
219. Gauntt is a different case entirely. In Gauntt, the Police Director violated
N.J.S.A. 40A:14-118(c) (reserving to the Chief the power to "[p]rescribe the
duties and assignments of all subordinates and other personnel"). There is no
such violation or contention here. And in Gauntt, we considered a different
ordinance than the Ordinance at issue here.
In Gauntt, we concluded that the Police Director interfered with the
responsibilities and duties of the chief of police and therefore violated Section
(c) of the statute. 194 N.J. Super. at 487. He did this by requiring an IA officer
to report to him rather than the chief of police, ibid.; assigning an officer to
investigate a purported theft of money in the clerk's office, ibid.; assigning a
lieutenant and detective to a neighborhood crime watch, id. at 487-88;

12

Another part of the Ordinance provides that the Public Safety Director may
need to explain his or her reasons for not following the disciplinary
recommendations of the CCRB. Code 2:2-86.5, § 1-17(c). We conclude that
aspect of the Ordinance is facially valid, and, as we will later explain, is subject
to as applied challenges. Notwithstanding that aspect of the Ordinance, we
emphasize that the CCRB's findings of fact and recommendations are not
binding.
40

A-3298-17T3

overruling the chief of police's decision to appoint an individual as head of the
detective division, id. at 488; removing detectives from homicide investigation
school and ordering the chief of police to assign an officer to attend a
breathalyzer course, ibid.; ordering a police department secretary to post a signup list to work on a specific police shift, id. at 489; and temporarily appointing
a lieutenant to the position as acting chief of police, id. at 490-91.
As its plain language confirms, the Legislature
amended the statute to simply "redefine the relationship
between a municipal governing body and the chief of
police." [Falcone, 103 N.J. at 221]. As amended,
N.J.S.A. 40A:14-118 limited the authority of
municipalities to regulate the [IA] of police
departments, designated properly-appointed chiefs of
police as the heads of police forces, and granted such
chiefs the authority to "[p]rescribe the duties and
assignments of all subordinates and other personnel."
N.J.S.A. 40A:14-118(c). The amended statute thus
"sought to avoid undue interference by a governing
body into the operation of the police force." Falcone,
103 N.J. at [222].
[Paff v. Ocean Cty. Prosecutor's Office, 235 N.J. 1, 21
(2018) (third alteration in original).]
Here, the Ordinance does not prescribe the duties and assignments of
subordinates and other personnel.
We recognize that the current version of N.J.S.A. 40A:14-118 gives chiefs
of police "express statutory authority . . . to avoid undue interference by a

41

A-3298-17T3

governing body into the operation of the police force." Falcone, 103 N.J. at 222.
But the Ordinance was not intended to, nor does it, divest the Chief of his
statutory authority to oversee investigations by IA. Thus, other than making the
CCRB's findings binding, the Ordinance does not divest the Chief of his
responsibility under the statute.
IV.
We do not share the judge's general view that the entire Ordinance violates
due process on its face. Of course, both the federal and state constitutions
protect against the deprivation of life, liberty, or property without due process
of law. U.S. Const. amend. XIV; N.J. Const. art. 1, ¶ 1; Doe v. Poritz, 142 N.J.
1, 99 (1995). Fundamentally, procedural due process entails notice and an
opportunity to be heard. Doe, 142 N.J. at 106. "Due process is not a fixed
concept, however, but a flexible one that depends on the particular
circumstances."

Ibid.

Accord In re Promulgation of Guardianship Serv.

Regulations, 103 N.J. 619, 632 (1986).
Due process considerations are premature at this point because the
Ordinance contemplates the development of further procedural safeguards once
the CCRB is up and running. Along those lines, Code 2:2-86.5, § 1-08 requires
the CCRB to develop "procedures" for investigating complaints to best facilitate

42

A-3298-17T3

"accurate, orderly and thorough fact-finding." Code 2:2-86.3(e) contemplates
that the CCRB may propose amendments to those "procedures," subject to
public comment. Code 2:2-86.4(d) provides safeguards for "members of the
NPD with respect to disciplinary action" by expressly stating that their rights
shall not be limited "to the right to notice and a hearing, which may be
established by any provisions of law or otherwise." And Code 2:2-86.5, § 1-23
mandates that CCRB board members must be appropriately trained. A full due
process analysis is premature because multiple sections of the Ordinance
anticipate the need to establish procedural due process protections.

An as

applied due process challenge, if warranted, may be raised on a more fully
developed record.
We disagree with the judge's general conclusion that the "potential for
political mischief with [the CCRB] is evident."

The judge reached that

determination noting that prospective CCRB members would be members of
organizations that advocated changing the structure of an existing ineffective
method of disciplining police. But a decisionmaker is not disqualified "simply
because he [or she] has taken a position, even in public, on a policy issue related
to the dispute, in the absence of a showing that he is not 'capable of judging a
particular controversy fairly on the basis of its own circumstances.'" Hortonville

43

A-3298-17T3

Joint Sch. Dist. v. Hortonville Educ. Ass'n, 426 U.S. 482, 493 (1976) (quoting
United States v. Morgan, 313 U.S. 409, 421 (1941)). As such, "policymakers
with decision making power" are afforded a "presumption of honesty and
integrity." Id. at 497.
Disqualification is not "automatically required merely because a
decisionmaker has announced an opinion on a disputed issue." In re Carberry,
114 N.J. 574, 585 (1989). "[A]ctual bias or a likelihood of bias must appear if
an otherwise valid administrative sanction is to be overturned because of a
denial of due process." In re Seidman, 37 F.3d 911, 925 (3d. Cir. 1994).
"[A]ctual bias is grounds for disqualification when the decisionmaker has a
pecuniary interest in the outcome of the matter or has been the target of personal
criticism from one seeking relief." Carberry, 114 N.J. at 586. On its face, we
see no evidence of such bias on the part of prospective CCRB members, or an
inability of the CCRB to be neutral or detached.
It is important to remember that the CCRB does not adjudicate cases. It
operates as an investigatory and oversight body. It has no authority to discipline
officers. Based upon the investigations performed by staff members, the CCRB
produces a report, consisting of findings of fact and recommendations for
disciplinary action, which it provides to the Director of Public Safety. However,

44

A-3298-17T3

the CCRB does not take disciplinary action against any officer, nor does it make
any disciplinary rulings. It also does not interfere with the NPD's internal
investigatory and disciplinary procedures, or the court's role in reviewing cases
under the civil service law. The CCRB does not function as an adversarial
board.
After receiving the investigation report, it is the Director of Public Safety,
and not the CCRB, who determines the appropriate disciplinary action, if any.
If disciplinary charges are appropriate, officers will be subject to the internal
disciplinary proceedings of the NPD. Thereafter, they may pursue appeals
through any available administrative and judicial processes, and they may
pursue any rights they might have under their CNAs. On its face, the Ordinance
does not interfere with any due process rights that officers may have in these
other proceedings.
Based upon an IA investigation report, or a CCRB investigation report, or
both, the Director of Public Safety may decide to file disciplinary charges
against an officer. In making that decision, the Public Safety Director is not
bound by the CCRB's findings, as the Ordinance provides. As a matter of due
process and fundamental fairness, Doe, 142 N.J. at 108-09, the Public Safety

45

A-3298-17T3

Director should consider all of the facts presented, and must be permitted to
consider the entirety of the evidence.
On this record, there is no evidence demonstrating that the CCRB could
not perform its oversight function and simultaneously investigate matters
contemporaneously with and independently of ongoing investigations conducted
by IA. And of course, any such concurrent investigation is subject to being
stopped by a prosecutor or court. Code 2:2-86.4(e)–(f). The United States
Supreme Court explained that,
[t]he mere exposure to evidence presented in
nonadversary investigative procedures is insufficient in
itself to impugn the fairness of the Board members at a
later adversary hearing. Without a showing to the
contrary, state administrators "are assumed to be
[people] of conscience and intellectual discipline,
capable of judging a particular controversy fairly on the
basis of its own circumstances."
[Withrow v. Larkin, 421 U.S. 35, 55 (1975) (quoting
Morgan, 313 U.S. at 421).]
"If an interested party has a right to cross-examine witnesses and present proof,
the mere fact that an administrative agency has conducted an investigation and
formulated a policy position does not necessarily mean that the mind of the
agency head is closed."

Carberry, 114 N.J. at 586. "The combination of

investigative, charging, and adjudicative functions in the same administrative

46

A-3298-17T3

tribunal does not, without more, constitute a violation of due process." Ende v.
Cohen, 296 N.J. Super. 350, 362 (App. Div. 1997).
Although "[i]t has often been argued that casting the same individuals
within an agency in these dual roles violates due process," the "general rule is
that proof of actual bias is necessary to overturn administrative actions on this
basis." In re Opinion No. 583, 107 N.J. 230, 236 (1987). There is no such proof
here. "The wisdom of creating an agency with a responsibility for both initiating
and adjudicating a proceeding is a legislative function, and not a judicial one."
In re Bd. of Educ. of Trenton, 176 N.J. Super. 553, 565 (App. Div. 1980). "[T]he
mere fact that the administrative agency has investigated the matter in question
does not render it or its members incompetent, consistent with due process, to
adjudicate the case as presented at the evidentiary hearing." Id. at 565-66
(alteration in original).
Finally, at this point, we perceive no facial concerns with one additional
provision of the Ordinance. The Ordinance requires the Public Safety Director
to provide an explanation, in writing, and potentially in person before the CCRB,
when he or she disagrees with the CCRB's findings of fact, or chooses to impose
discipline that is of a lower level than that recommended by the CCRB. Code

47

A-3298-17T3

2:2-86.5, § 1-17(c). On its face, such a requirement does not violate due process,
N.J.S.A. 40A:14-118, or Newark's Code.
Requiring the Public Safety Director to explain his or her reasons for
rejecting the CCRB's findings or recommendations serves a legitimate public
interest because the Public Safety Director's responses will assist the CCRB in
performing its oversight functions, including as required under the consent
decree. This provision of the Ordinance serves the legitimate public interests of
transparency and improving the critical relationship between the NPD and the
Newark community. And it is consistent with that part of N.J.S.A. 40A:14-118
allowing for investigations by boards like the CCRB, it promotes police
accountability in ways beyond those contemplated by the IA function, and it
complements the Public Safety Director's general obligation to report to the
Mayor. Indeed having the Public Safety Director – under the circumstances
described in the Ordinance – explain his or her reasons to the CCRB cannot
interfere with the Chief's day-to-day operations of the police force because it is
the Public Safety Director – not the Chief – who may have to appear before the
CCRB. Nevertheless, as the CCRB gets up and running, as applied challenges
to this part of the Ordinance may be made on a more fully developed record if
warranted.

48

A-3298-17T3

V.
We now move to the subject of preemption. A local government, like the
City, may not act contrary to State law. FOP maintains that the City acted
contrary to State law by enacting an Ordinance that purportedly conflicts with
N.J.S.A. 40A:14-181 and the AG Guidelines. Therefore, FOP argues that the
doctrine of preemption requires that we invalidate the Ordinance.
N.J.S.A. 40A:14-181 and the AG Guidelines do not expressly address the
Ordinance's grant of oversight authority to the CCRB. Indeed, the statute is
directed towards law enforcement agencies (which the CCRB is not), and the
AG Guidelines are designed to assist law enforcement agencies, enhance their
integrity, improve delivery of police services, and ensure proper consideration
of police misconduct.
N.J.S.A. 40A:14-181 states in part that,
Every law enforcement agency, . . . shall adopt and
implement guidelines which shall be consistent with the
guidelines governing the "[IA] Policy and Procedures"
of the Police Management Manual promulgated by the
Police Bureau of the Division of Criminal Justice in the
Department of Law and Public Safety, and shall be
consistent with any tenure or civil service laws, and
shall not supersede any existing contractual
agreements.
[(Emphasis added).]

49

A-3298-17T3

The text of this statute does not expressly state that an executive or legislative
agency is barred from concurrently investigating police misconduct – as part of
a CCRB with broad oversight authority to statutorily investigate and examine
complaints of police misconduct – when a law enforcement agency has adopted
and implemented guidelines consistent with those promulgated by the AG.
To be sure, the AG has issued guidelines pursuant to this statute, and as
chief law enforcement officer of the State, N.J.S.A. 52:17B-98, these guidelines
are binding upon local law enforcement agencies.

O'Shea v. Twp. of W.

Milford, 410 N.J. Super. 371, 384 (App. Div. 2009); In re Carroll, 339 N.J.
Super. 429, 439, 442-43 (App. Div. 2001). 13 The AG Guidelines pertain to law
enforcement agencies. The AG Guidelines recognize that proper administration
of the IA function is "a critical issue for the criminal justice system in New
Jersey today," (AG Guidelines, at p. 3), with the IA function viewed by the
courts "as an important means of protecting the constitutional rights and civil
liberties of the state's citizens." (AG Guidelines, at p. 3). The Guidelines state:
Agencies that make a vigorous commitment to the [IA]
process signal their desire to comply with the highest
13

The most recent AG Guidelines on IA Policy & Procedures are dated
November 2017. See https://www.state.nj.us/lps/dcj/agguide/internalaffairs200
0v1_2.pdf (last visited May 22, 2019). In its summary judgment papers, FOP
referred to the 2014 version of the AG Guidelines. We apply the most recent
guidelines, as did the judge.
50

A-3298-17T3

standards of professionalism in law enforcement. They
also ensure that their officers will be accountable for
their actions to both the agency and the community.
Agencies that fail to make such a commitment run the
risk of failing to uncover policies, practices and
procedures that may undermine legitimate efforts to
provide the highest quality law enforcement services.
Indifference to the [IA] function will have a
negative impact on the administration of criminal
justice and the delivery of police services to New
Jersey's citizens. Agencies that fail to make the [IA]
function a priority can lose the respect and support of
the community. The integrity of individual law
enforcement agencies, and the reputation of the State's
criminal justice system, can also suffer if agencies fail
to identify and correct officer misconduct. In addition,
law enforcement agencies that fail to implement a
meaningful and objective [IA] process may be found
liable in civil lawsuits for their failure to effectively
address officer misconduct.
[(AG Guidelines, at p. 5; see also AG Guidelines at pp.
31, 46) (emphasis added).]
As we have said, the purpose of the AG Guidelines "is to assist the State's
law enforcement agencies with investigating and resolving complaints of police
misconduct that originate with private citizens or are generated by the
supervisors, officers or employees of a law enforcement agency."

(AG

Guidelines at p. 3) (emphasis added). And the stated goal of the AG Guidelines
is "to enhance the integrity of the State's law enforcement agencies, improve the
delivery of police services and assure the citizens of New Jersey that complaints
51

A-3298-17T3

of police misconduct are properly addressed."

(AG Guidelines at p. 3)

(emphasis added).
The AG Guidelines contain the following eleven mandates, which every
law enforcement agency must implement:
1.
Each agency must establish by written policy an
[IA] function.
2.
Each agency must accept reports of officer
misconduct from any person, including anonymous
sources, at any time.
3.
Where a preliminary investigation indicates the
possibility of a criminal act on the part of the subject
officer, the county prosecutor must be notified
immediately. No further action should be taken,
including the filing of charges against the officer, until
the county prosecutor so directs.
4.
The agency must notify the county prosecutor
immediately of any use of force by an officer that
results in death or serious bodily injury.
5.
Each agency must thoroughly and objectively
investigate all allegations against its officers.
6.
Each agency must notify its officers of
complaints and their outcomes.14
7.
Each agency must notify complainants of the
outcomes of their complaints.
14

The Ordinance does not explicitly contain this requirement. However, since
the Ordinance requires the CCRB to notify the NPD of any complaints it
receives, the NPD's IA Department will provide such notice to officers.
52

A-3298-17T3

8.
Each agency must establish and maintain an [IA]
records system which, at a minimum, will consist of an
[IA] index system and a filing system for all documents
and records. In addition, each agency shall establish a
protocol for monitoring and tracking the conduct of all
officers.
9.
Each agency must submit quarterly reports to the
county prosecutor summarizing the allegations
received and the investigations concluded for that
period. Each county prosecutor shall establish a
schedule for the submission of the reports and specify
the content of the reports.
10. Each agency must annually release reports to the
public summarizing the allegations received and the
investigations concluded for that period. These reports
shall not contain the identities of officers or
complainants.
In addition, each agency shall
periodically release a brief synopsis of all complaints
where a fine or suspension of [ten] days or more was
assessed to an agency member. The synopsis shall not
contain the identities of the officers or complainants.
11. Each agency shall ensure that officers assigned to
the [IA] function complete training as mandated by the
Division of Criminal Justice.
[(AG Guidelines at pp. 4-5) (emphasis added).]
The AG Guidelines next describe the fundamentals of the disciplinary
process for law enforcement agencies, including a system of discipline, and a
schedule of possible penalties when discipline is imposed. (AG Guidelines at

53

A-3298-17T3

pp. 6-11). Thus, the Ordinance cannot impede the NPD's obligation – as part of
its IA investigations – to follow the AG Guidelines.
We reject the idea that preemption principles invalidate the Ordinance on
its face, because N.J.S.A. 40A:14-181 and the AG Guidelines apply to law
enforcement agencies and do not address a board like the CCRB, which has the
important and vital oversight role of providing transparency into investigations
of police misconduct.

We nevertheless perform a preemption analysis.

Although we see no inconsistency of consequence between how the CCRB
operates under the Ordinance and how the IA investigations occur under the
requirements imposed by the AG Guidelines or N.J.S.A. 40A:14-181, as with
our due process analysis, as applied challenges may be raised – if warranted –
once the CCRB begins functioning as intended under the Ordinance. At this
point, we add the following remarks on preemption.
We review de novo the legal question of whether State law preempts the
Ordinance. "[A] court may declare an ordinance invalid if it . . . is preempted
by superior legal authority." Rumson Estates, Inc. v. Mayor of Fair Haven, 177
N.J. 338, 351 (2003) (citing United Bldg. & Constr. Trades Council v. Mayor of
Camden, 88 N.J. 317, 343 (1982)). "Preemption is a judicially created principle
based on the proposition that a municipality, which is an agent of the State,

54

A-3298-17T3

cannot act contrary to the State." Redd v. Bowman, 223 N.J. 87, 108 (2015)
(citing Overlook Terrace Mgmt. v. Rent Control Bd. of W.N.Y., 71 N.J. 451,
461 (1976)).
"[A]n ordinance will fall if it permits what a statute expressly forbids or
forbids what a statute expressly authorizes." Summer v. Twp. of Teaneck, 53
N.J. 548, 554 (1969). In analyzing the question of preemption, "[t]he ultimate
question is whether, upon a survey of all the interests involved in the su bject, it
can be said with confidence that the Legislature intended to immobilize the
municipalities from dealing with local aspects otherwise within their power to
act." Id. at 555. "It is not enough that the Legislature has legislated upon the
subject[.]" Id. at 554. Instead, for preemption purposes, the Legislature's intent
to occupy the field "must appear clearly." Ibid. (emphasis added).
In Redd, our Supreme Court reiterated the five governing factors that a
court must consider to determine whether state law preempts a municipal
ordinance:
(1) Does the ordinance conflict with state law, either
because of conflicting policies or operational effect
(that is, does the ordinance forbid what the Legislature
has permitted or does the ordinance permit what the
Legislature has forbidden)?
(2) Was the state law intended, expressly or impliedly,
to be exclusive in the field?
55

A-3298-17T3

(3) Does the subject matter reflect a need for
uniformity?
(4) Is the state scheme so pervasive or comprehensive
that it precludes coexistence of municipal regulation?
(5) Does the ordinance stand "as an obstacle to the
accomplishment and execution of the full purposes and
objectives" of the Legislature?
[223 N.J. at 109 (quoting Overlook, 71 N.J. at 461-62).]
Applying these five factors, we reject FOP's contention that the statute, or for
that matter, the AG Guidelines, preempt the Ordinance. Our conclusion does
not undermine the importance of the AG Guidelines, or their applicability to law
enforcement agencies.
(1)
We cannot say with confidence that the Legislature clearly intended to
immobilize municipalities from promoting police accountability in ways beyond
those contemplated by the IA function. Neither N.J.S.A. 40A:14-181 nor the
AG Guidelines preclude municipalities from implementing a CCRB with
oversight power to investigate and examine civilian complaints of police
misconduct. Therefore, in that sense, the Ordinance does not permit what the
Legislature has generally forbidden, or forbid what the Legislature has
authorized.

56

A-3298-17T3

Furthermore, reading the AG Guidelines to preclude civilian municipal
investigations of police departments ignores not only the City's right to set
policy, but also the City's express rights contained in N.J.S.A. 40A:14-118. As
we previously stated, N.J.S.A. 40A:14-118 expressly permits:
the appointment by the governing body of committees
or commissions to conduct investigations of the
operation of the police force, and the delegation to such
committees or commissions of such powers of inquiry
as the governing body deems necessary or to conduct
such hearing or investigation authorized by law[; and]
the appropriate authority, or any executive or
administrative officer charged with the general
administrative responsibilities within the municipality,
[to] examin[e] at any time the operations of the police
force or the performance of any officer or member
thereof.
[(Emphasis added).]
We make every effort to read N.J.S.A. 40A:14-118 and the Guidelines, adopted
pursuant to N.J.S.A. 40A:14-181, as compatible.

See In re Petition for

Referendum on City of Trenton Ordinance 09-02, 201 N.J. 349, 359 (2010)
(stating that when reviewing two separate statutes addressing the same subject
matter, courts must read the statutes in pari materia and attempt to reconcile
them).

Here, the Ordinance does not replace an IA investigation with an

investigation performed by the CCRB. Rather, the Ordinance provides for the
possibility of concurrent investigations, and, as we have determined in this
57

A-3298-17T3

opinion, the upshot of the investigation performed by the CCRB cannot bind the
Public Safety Director when it comes to law enforcement disciplinary
determinations.
(2)
Under the second factor, we conclude that there is no evidence that State
law intended, either expressly or impliedly, to be exclusive in the field. That is,
we do not read N.J.S.A. 40A:14-181 or the AG Guidelines as providing the
exclusive means for the investigation of civilian complaints of police
misconduct. The AG Guidelines do not preclude municipalities from creating
separate entities to investigate complaints (solely in an oversight function).
Once again, any such reading of N.J.S.A. 40A:14-181 or the AG Guidelines
would violate N.J.S.A. 40A:14-118, which expressly empowers investigation
and examination of police forces by boards like the CCRB, and contravenes the
City's fundamental right to set local policy.
(3)
Under the third factor, there is no need for uniformity in the conclusions
reached by separate IA and CCRB investigations. Regardless of whether the
conclusions and recommendations made by the IA department and the CCRB
conflict, it is the Public Safety Director who determines – without limitation –

58

A-3298-17T3

whether any disciplinary action should be taken. We have already invalidated
that part of the Ordinance that provided that the CCRB's findings would be
binding. Thus, the Public Safety Director still determines disciplinary action,
and does so by considering the entirety of the evidence. In this sense, the
CCRB's investigation is consistent with State law and vitally promotes
transparency and law enforcement accountability of the NPD.
(4)
Under the fourth factor, the state scheme is not so pervasive or
comprehensive that it precludes the coexistence of municipal regulation.
N.J.S.A. 40A:14-181 and the AG Guidelines do not preclude civilian municipal
investigations into the police department or individual members of the police
department.

That is primarily so because such a reading ignores N.J.S.A.

40A:14-118, which explicitly permits such civilian investigations.
N.J.S.A. 40A:14-181 requires law enforcement agencies to adopt
guidelines that are consistent with the AG Guidelines, any tenure or civil service
law, and existing contractual agreements. The oversight role of the CCRB does
not interfere in any way with a law enforcement agency's obligation under
N.J.S.A. 40A:14-181 or the AG Guidelines.

Thus, there exists room for

important municipal regulation.

59

A-3298-17T3

(5)
Under the fifth factor, the Ordinance importantly does not stand "as an
obstacle to the accomplishment and execution of the full purposes and
objectives" of the Legislature. The AG Guidelines state that "[t]he goals of the
policy are to enhance the integrity of the State's law enforcement agencies,
improve the delivery of police services and assure the citizens of New Jersey
that complaints of police misconduct are properly addressed." (AG Guidelines,
at p. 3) (emphasis added). The goal of the Ordinance is to further the same
objectives, particularly in light of the NPD's past failures, as set forth in the
DOJ's report.

In our view, the CCRB furthers, rather than impedes, the

Legislature's objectives.
Moreover, the City's powers should not be constrained in an area in which
the Legislature has expressly permitted municipalities to act. N.J. Const. art.
IV, § 7, ¶ 11; N.J.S.A. 40:48-2, N.J.S.A. 40:42-4, N.J.S.A. 40:69A-30. In
establishing an independent body to perform oversight of the NPD – in
furtherance of quality policing and a trusting relationship between the
community and the police – the City squarely acted within the authority granted
to it by the Legislature.

60

A-3298-17T3

Furthermore, the Ordinance does not permit CCRB investigations to
interfere with or taint criminal prosecutions of police officers.

Both the

Ordinance and the AG Guidelines require coordination with the prosecutor's
office, and deferral to the prosecutor's office, where potentially criminal conduct
is at issue. (Compare AG Guidelines at pp. 20-22, 24, 32-38, with Code 2:286.4(e)–(f)). The only difference is that the Ordinance requires deferral of case
processing only if a request for deferral is made by the prosecutor, federal law
enforcement agency, or by court order.
The AG Guidelines and the Ordinance require training of investigatory
staff. (Compare AG Guidelines, at p. 13, with Code 2:2-86.3(h), and 2:2-86.5,
§ 1-23). Also, the Ordinance requires the recusal of any Board members who
have a conflict of interest. Code 2:2-86.5, § 1-24. To be sure, IA officers may
have greater tools at their disposal for the investigation of complaints, based
upon their access to the officer's workplace and their existence within the chain
of command of the police department. (AG Guidelines, at pp. 25-31). However,
that does not mean that CCRB investigations stand as an obstacle to
accomplishing and executing the full objectives of the AG Guidelines. To the
contrary, the fact that IA officers are police officers is a double-edged sword.
Their experience creates the possibility of both better-informed analysis of the

61

A-3298-17T3

evidence, as well as potentially biased analysis of the evidence. Civilian review
provides a different perspective in furtherance of the same legislative objective.
The AG Guidelines provide that in publishing reports on IA
investigations, law enforcement agencies "shall not" publish the names of
complainants and subject officers.

(AG Guidelines at p. 44).

As to

confidentiality of officers, like the AG Guidelines mandate for IA
investigations, the Code requires that the identity of a police officer must remain
confidential in any of the CCRB's public reporting. Code 2:2-86.5 §§ 1-17(d),
1-20(a), 1-21(a).

By contrast, the Ordinance provides that if a complaint is

substantiated and referred for a CCRB hearing, "the complainant's identity may
be released in the course of any public hearing about the alleged misconduct ."
Code 2:2-86.5, § 1-07.
Disclosure of a complainant's identity could thwart an IA investigation,
criminal investigation, or prosecution, or could disclose the name of an
informant, and could taint an officer who was wrongfully accused. It could also
discourage complainants from coming forward, or encourage unwarranted
complaints from people seeking notoriety. For this reason alone, we elect to
invalidate that part of the Ordinance allowing disclosure of a complainant's
identity. But we uphold the remainder of the Ordinance sans the binding nature

62

A-3298-17T3

of the CCRB's findings. See Brunetti v. Borough of New Milford, 68 N.J. 576,
603 (1975) (stating that the invalidity of the provisions of an ordinance does not
affect the enforceability of the remainder of the ordinance because they are
"clearly severable").

Such a conclusion is consistent with the severability

paragraph of the Ordinance, which provides that if any part of the ordinance is
declared unconstitutional or illegal, the remaining provisions shall not be
affected and shall continue in full force and effect. See Code 1:1-10. Any other
purported discrepancies between the AG Guidelines and the Ordinance can be
addressed, if warranted, on an as applied challenge on a more fully developed
record once the CCRB commences its oversight role under the Ordinance.
VI.
Finally, the City has widespread authority to issue and delegate subpoena
power to the CCRB. 15 This power is incidental to the City's policy and express
statutory power under N.J.S.A. 40A:14-118 to create a CCRB for the limited
purpose of providing oversight in investigating and examining complaints of
police misconduct. Without such power to issue subpoenas, its effectiveness
will be undermined.

15

Indeed, in its amicus brief, the AG did not specifically raise an objection to
the CCRB's subpoena power.
63

A-3298-17T3

Code 2:2-86.3(f) authorizes the CCRB to issue subpoenas. It provides:
The [CCRB] may require the production of . . . records
and other materials as are necessary for the
investigation of complaints submitted to the [CCRB],
pursuant to this section [of the Ordinance] through the
issuance of subpoenas. Upon a majority vote of the
members of the [CCRB], the [CCRB] may issue
subpoenas ad testificandum and duces tecum, which
may be served, to the extent permitted by law.
By enacting the Ordinance, the City tailored the CCRB's subpoena power to the
CCRB's task: investigating civilian complaints alleging police misconduct. The
City specifically delegated this power to remedy the problems associated with
the DOJ investigation. Indeed, the purpose of the Ordinance supplies sufficient
guidance for the City's delegation.
Both the United States Supreme Court and the Supreme Court of New
Jersey have recognized that a legislative body has the inherent authority to issue
subpoenas to fulfill its legislative and investigative authority. See McGrain v.
Daugherty, 273 U.S. 135 (1927); In re Shain, 92 N.J. 524 (1983). The Ordinance
by itself does not grant the power to subpoena. The power to subpoena comes
from constitutional and legislative authority. Shain, 92 N.J. at 532. "[S]uch
authority may be fairly implied from the legislative scheme without being
expressly stated within the four corners of a statute." Ibid. In reaching that
conclusion, our Court relied on the rationale expressed in McGrain:
64

A-3298-17T3

A legislative body cannot legislate wisely or effectively
in the absence of information respecting the conditions
which the legislation is intended to affect or change;
and where the legislative body does not itself possess
the requisite information – which not infrequently is
true – recourse must be had to others who do possess it.
Experience has taught that mere requests for such
information often are unavailing, and also that
information which is volunteered is not always accurate
or complete; so some means of compulsion are essential
to obtain what is needed.
....
[S]tate courts quite generally have held that the power
to legislate carries with it by necessary implication
ample authority to obtain information needed in the
rightful exercise of that power, and to employ
compulsory process for the purpose.
[Id. at 532-33 (quoting McGrain, 273 U.S. at 175, 165)
(alterations in original) (emphasis added).]
Thus, "[a] reasonable incident of the Council's power to investigate under
N.J.S.A. 40:69A-37[16] is the power to compel testimony, i.e., to issue
subpoenas." Id. at 533. Our Court elaborated:

16

This statute is entitled "Investigative, removal powers" and states:
The council, in addition to such other powers and duties
as may be conferred upon it by this charter or otherwise
by general law, may:

65

A-3298-17T3

Unless an investigating committee has power to compel
[documents and] testimony, it has no feasible method
to obtain all the information it needs to perform its
legislative function. Without the power to interrogate
knowledgeable officials under oath, its investigation
may become a nullity.
[Ibid. (emphasis added) (citations omitted).]
For investigations to be conducted by either the executive or legislative branches
of municipal government, these entities must have subpoena power. Id. at 532.
Thus, implicit in the Legislature's creation of investigatory authority
through policy and N.J.S.A. 40A:14-118 is the creation of the subpoena power.
Ibid. As for the delegation of subpoena power to the CCRB, N.J.S.A. 40A:14118 expressly anticipates such delegation. It anticipates a municipal governing
body's creation of "committees" or "commissions" to perform investigations,
and/or the executive's appointment of an administrative officer to perform
investigations. Cf. Jansco v. Waldron, 70 N.J. 320, 326-27 (1976) (stating that

(a) Require any municipal officer, in its discretion, to
prepare and submit sworn statements regarding his
official duties in the performance thereof, and
otherwise to investigate the conduct of any department,
office or agency of the municipal government;
(b) Remove, by at least two-thirds vote of the whole
number of the council, any municipal officer, other than
the mayor or a member of council, for cause, upon
notice and an opportunity to be heard.
66

A-3298-17T3

the pre-1981 version of N.J.S.A. 40A:14-118 anticipated sub-delegation of
power to adopt disciplinary rules and regulations for police department s).
Where such delegation occurs within the legislative branch, State law expressly
anticipates the delegation of subpoena power. Specifically, N.J.S.A. 40:48 -25
states:
When the governing body of a municipality shall have
appointed a committee of its members upon any subject
or matter within its jurisdiction, the committee may
issue a subpoena ad testificandum, or subpoena duces
tecum, to any person within this state, to appear before
it to give testimony or information required.
[(Emphasis added).]
Thus, in Shain, 92 N.J. at 530-39, the Court held that a municipal council
in a Faulkner Act municipality, like here, had the authority to delegate its
subpoena power to a special investigatory committee that consisted entirely of
council members. In so holding, the Court noted the power of legislatures to
perform investigations, id. at 530-34, and stated that "[n]o specific statutory
grant is necessary to vest a legislative body with subpoena power," because
"[t]he power to compel testimony is inherent in the legislative power to
investigate." Id. at 532.
Moreover, the New Jersey State Constitution Article IV, § VII, ¶ 11, and
the necessary and proper clause of N.J.S.A. 40:48-2, provide further support for
67

A-3298-17T3

our conclusion that the CCRB enjoys subpoena power as it fulfills its function
under the Ordinance. The New Jersey Supreme Court has "consistently held
[N.J.S.A. 40:48-2] is itself a reservoir of police power." Inganamort, 62 N.J. at
536.
[N.J.S.A. 40:48-2 is] an express grant of general police
powers to municipalities [and] has been made
impregnable by the continued legislative acquiescence
therein, by the mandate of Article IV, Section VII,
paragraph 11 of the Constitution of 1947 that acts
concerning municipalities be liberally construed, and
by the adherence thereto of the more recent judicial
decisions . . . .
Plainly, therefore, [N.J.S.A. 40:48-2] must be
considered as an express grant of broad general police
powers to municipalities.
[Ibid. (citations omitted).]
Relying on its express and implied powers, the City is authorized to delegate to
the CCRB authority to issue subpoenas in accordance with the terms outlined in
the Ordinance.17

17

Under federal law, the United States Supreme Court has held that the parallel
"Necessary and Proper Clause" of U.S. Const. art. I, § 8 permits Congress to
delegate subpoena power. See Oklahoma Press Publ'g Co. v. Walling, 327 U.S.
186, 214 (1946), which incidentally was decided two decades after McGrain,
the case that our Court relied on in Shain.
68

A-3298-17T3

Finally, FOP's reliance on City of Newark v. Benjamin, 144 N.J. Super.
58 (Ch. Div. 1976), is misplaced. Benjamin pertains to an attempt to create a
CCRB by voter initiative with elected members, which essentially created
another elected body, in violation of the Faulkner Act. Id. at 63. Here, the City
established the CCRB by Ordinance with appointed members, not voter
initiative. Indeed, the Benjamin court drew that distinction by stating, "what is
involved here is not whether the Newark council had the power to enact an
ordinance for civilian review of police conduct, but whether it can be done by
initiative in a Faulkner Act city." Id. at 68.
In Benjamin, the court recognized that "the subpoena power of a
municipal investigative body is set forth in N.J.S.A. 40:48-25." Id. at 72. The
court did not consider whether municipal executive and legislative bodies were
authorized to issue subpoenas, or delegate the authority to issue subpoenas,
under N.J.S.A. 40A:14-118 because the relevant language of N.J.S.A. 40A:14118 was not adopted until after Benjamin was decided. Here, the City seized its
power and acted decisively by creating the CCRB.
In summary, the CCRB's findings are not binding and the identity of
complainants and police officers must remain confidential. The Ordinance is
valid on its face and cannot alter the NPD's obligation to follow the AG

69

A-3298-17T3

Guidelines when undertaking its own IA investigations. Consequently, the
CCRB can function as intended under the Ordinance, including providing an
oversight role by investigating alleged police misconduct, conducting hearings,
participating

in

the

development

of

a

recommendations, and issuing subpoenas.

disciplinary

matrix,

making

Consistent with this opinion, as

applied challenges may be made if warranted.
Affirmed in part; reversed in part.

70

A-3298-17T3

APPENDIX C

APPENDIX D

40:48-2. Other necessary and proper ordinances, NJ ST 40:48-2

New Jersey Statutes Annotated
Title 40. Municipalities and Counties
Subtitle 3. Municipalities Generally (Refs & Annos)
Chapter 48. General Powers (Refs & Annos)
Article 1. General and Regulatory Powers
N.J.S.A. 40:48-2

40:48-2. Other necessary and proper ordinances
Currentness
Any municipality may make, amend, repeal and enforce such other ordinances, regulations, rules and by-laws not contrary to
the laws of this state or of the United States, as it may deem necessary and proper for the good government, order and protection
of persons and property, and for the preservation of the public health, safety and welfare of the municipality and its inhabitants,
and as may be necessary to carry into effect the powers and duties conferred and imposed by this subtitle, or by any law.
N. J. S. A. 40:48-2, NJ ST 40:48-2
Current with laws through L.2020, c. 136 and J.R. No. 2.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

40A:14-118. Police force; creation and establishment; regulation;..., NJ ST 40A:14-118

New Jersey Statutes Annotated
Title 40a. Municipalities and Counties (Refs & Annos)
Chapter 14. Fire and Police
D. Police--Municipalities (Refs & Annos)
N.J.S.A. 40A:14-118

40A:14-118. Police force; creation and establishment;
regulation; members; chief of police; powers and duties
Currentness
The governing body of any municipality, by ordinance, may create and establish, as an executive and enforcement function of
municipal government, a police force, whether as a department or as a division, bureau or other agency thereof, and provide for
the maintenance, regulation and control thereof. Any such ordinance shall, in a manner consistent with the form of government
adopted by the municipality and with general law, provide for a line of authority relating to the police function and for the
adoption and promulgation by the appropriate authority of rules and regulations for the government of the force and for the
discipline of its members. The ordinance may provide for the appointment of a chief of police and such members, officers and
personnel as shall be deemed necessary, the determination of their terms of office, the fixing of their compensation and the
prescription of their powers, functions and duties, all as the governing body shall deem necessary for the effective government
of the force. Any such ordinance, or rules and regulations, shall provide that the chief of police, if such position is established,
shall be the head of the police force and that he shall be directly responsible to the appropriate authority for the efficiency and
routine day to day operations thereof, and that he shall, pursuant to policies established by the appropriate authority:
a. Administer and enforce rules and regulations and special emergency directives for the disposition and discipline of the force
and its officers and personnel;
b. Have, exercise, and discharge the functions, powers and duties of the force;
c. Prescribe the duties and assignments of all subordinates and other personnel;
d. Delegate such of his authority as he may deem necessary for the efficient operation of the force to be exercised under his
direction and supervision; and
e. Report at least monthly to the appropriate authority in such form as shall be prescribed by such authority on the operation of
the force during the preceding month, and make such other reports as may be requested by such authority.
As used in this section, “appropriate authority” means the mayor, manager, or such other appropriate executive or administrative
officer, such as a full-time director of public safety, or the governing body or any designated committee or member thereof, or
any municipal board or commission established by ordinance for such purposes, as shall be provided by ordinance in a manner
consistent with the degree of separation of executive and administrative powers from the legislative powers provided for in the
charter or form of government either adopted by the municipality or under which the governing body operates.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

40A:14-118. Police force; creation and establishment; regulation;..., NJ ST 40A:14-118

Except as provided herein, the municipal governing body and individual members thereof shall act in all matters relating to the
police function in the municipality as a body, or through the appropriate authority if other than the governing body.
Nothing herein contained shall prevent the appointment by the governing body of committees or commissions to conduct
investigations of the operation of the police force, and the delegation to such committees or commissions of such powers
of inquiry as the governing body deems necessary or to conduct such hearing or investigation authorized by law. Nothing
herein contained shall prevent the appropriate authority, or any executive or administrative officer charged with the general
administrative responsibilities within the municipality, from examining at any time the operations of the police force or the
performance of any officer or member thereof. In addition, nothing herein contained shall infringe on or limit the power or
duty of the appropriate authority to act to provide for the health, safety or welfare of the municipality in an emergency situation
through special emergency directives.
Credits
L.1971, c. 197, § 1, eff. July 1, 1971. Amended by L.1981, c. 266, § 1, eff. Aug. 24, 1981.
N. J. S. A. 40A:14-118, NJ ST 40A:14-118
Current with laws through L.2020, c. 136 and J.R. No. 2.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

40A:14-181. Adoption of consistent guidelines by law..., NJ ST 40A:14-181

New Jersey Statutes Annotated
Title 40a. Municipalities and Counties (Refs & Annos)
Chapter 14. Fire and Police
F. Fire and Police--Counties and Municipalities Generally
N.J.S.A. 40A:14-181

40A:14-181. Adoption of consistent guidelines by law enforcement agencies
Effective: September 1, 2015
Currentness
Every law enforcement agency, including a police department of an institution of higher education established pursuant to
P.L.1970, c. 211 (C.18A:6-4.2 et seq.), shall adopt and implement guidelines which shall be consistent with the guidelines
governing the “Internal Affairs Policy and Procedures” of the Police Management Manual promulgated by the Police Bureau
of the Division of Criminal Justice in the Department of Law and Public Safety, and shall be consistent with any tenure or civil
service laws, and shall not supersede any existing contractual agreements.
Credits
L.1996, c. 115, § 10, eff. Jan. 9, 1997. Amended by L.2015, c. 52, § 1, eff. Sept. 1, 2015.
N. J. S. A. 40A:14-181, NJ ST 40A:14-181
Current with laws through L.2020, c. 136 and J.R. No. 2.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

